<html>
<title> - CURRENT NATIONAL PARKS BILLS</title>
<body><pre>[Senate Hearing 110-480]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-480
 
                      CURRENT NATIONAL PARKS BILLS 

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   ON
                                     
                         S. 1633          S. 2502                         
                         S. 1993          S. 2512  
                         S. 2207          H.R. 2197                         
                         S. 2254          H.R. 2627                         
                         S. 2262          H.R. 3332                         
                         S. 2329          H.R. 3998

                               __________

                             APRIL 9, 2008

                       Printed for the use of the
               Committee on Energy and Natural Resources

                             ----------

                         U.S. GOVERNMENT PRINTING OFFICE 

44-163 PDF                      WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 













































               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        LARRY E. CRAIG, Idaho
RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           BOB CORKER, Tennessee
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
JON TESTER, Montana                  MEL MARTINEZ, Florida

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
              Frank Macchiarola, Republican Staff Director
             Judith K. Pensabene, Republican Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                   DANIEL K. AKAKA, Hawaii, Chairman

BYRON L. DORGAN, North Dakota        RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          LISA MURKOWSKI, Alaska
KEN SALAZAR, Colorado                BOB CORKER, Tennessee
ROBERT MENENDEZ, New Jersey          JOHN BARRASSO, Wyoming
BLANCHE L. LINCOLN, Arkansas         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             GORDON H. SMITH, Oregon
JON TESTER, Montana                  MEL MARTINEZ, Florida

   Jeff Bingaman and Pete V. Domenici are Ex Officio Members of the 
                              Subcommittee

















































                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator From Hawaii..................     1
Alexander, Hon. Lamar, U.S. Senator From Tennessee...............     7
Burr, Hon. Richard, U.S. Senator From North Carolina.............     2
Corker, Hon. Bob, U.S. Senator From Tennessee....................     8
Menendez, Hon. Robert, U.S. Senator From New Jersey..............     9
Moe, Richard, President, The National Trust for Historic 
  Preservation...................................................    27
Scarlett, P. Lynn, Deputy Secretary, Department of the Interior..     3
Stevenson, Katherine H., Acting Assistant Director, Business 
  Services, National Park Service, Department of the Interior....     9
Surkamp, James T., Commissioner, Jefferson County Commission, 
  Charles Town, WV...............................................    24

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    39

                              Appendix II

Additional material submitted for the record.....................    47


                      CURRENT NATIONAL PARKS BILLS

                              ----------                              


                        Wednesday, April 9, 2008

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:33 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Senator 
Daniel K. Akaka presiding.

 OPENING STATEMENT OF DANIEL K. AKAKA, U.S. SENATOR FROM HAWAII

    Senator Akaka. Good afternoon, everyone. The Subcommittee 
on National Parks will come to order.
    We have a long list of bills to consider today including 
the following and let me describe each one.
    S. 1633, to authorize the Secretary of the Interior to 
study the suitability and feasibility of including the 
battlefield and related sites of the Battle of Shepherdstown as 
part of the Harpers Ferry National Park in West Virginia or 
Antietam National Battlefield in Maryland.
    S. 1993 and H.R. 2197, to authorize the Secretary of the 
Interior to modify the boundaries of the Hopewell Culture 
National Historical Park in the State of Ohio.
    S. 2207, to direct the Secretary of the Interior to study 
the suitability and feasibility of designating Green McAdoo 
School in Clinton, Tennessee as a unit of the National Park 
System.
    S. 2254, to designate the Mississippi Hills National 
Heritage Area in the State of Mississippi.
    S. 2262, to authorize the Preserve America and Save 
America's Treasures Historic Preservation Programs.
    S. 2329 and H.R. 2627, to re-designate the Edison National 
Historic Site in the State of New Jersey as the Thomas Edison 
National Historical Park.
    S. 2512, to designate the Mississippi Delta National 
Heritage Area in the State of Mississippi.
    H.R. 3998, to authorize the Secretary of the Interior to 
conduct special resource studies of several sites throughout 
the country.
    The final bills on agenda are S. 2502 and House companion 
measure H.R. 3332 which would authorize a memorial to be 
established at Kalaupapa National Historical Park in Hawaii.
    For those who do not know the Kalaupapa community is 
located on a remote peninsula on the Island of Molokai. For 
over 100 years from 1866 to 1969, Kalaupapa was the community 
where patients with Hansen's disease, also known as leprosy, 
were forced to live. Many of the older patients continue to 
live out their lives at Kalaupapa today.
    S. 2502, which I sponsored along with Senator Inouye and 
H.R. 3332, which was sponsored by Congresswoman Hirono and 
Congressman Abercrombie would authorize a non-profit 
organization consisting of Kalaupapa residents and their 
families and friends and known as Ka `Ohana O Kalaupapa to 
establish a memorial at a suitable location in the park to 
honor the memory of the 8,000 residents who lived at the 
Kalaupapa and Kalawao communities.
    The memorial has strong local support. I'm not aware of any 
opposition or controversy. I hope we will be able to move the 
bill through the committee quickly.
    It appears that most of the other bills on the agenda today 
are also not controversial. I will work with Senator Burr to 
see if we can't move those forward as well with amendments 
where necessary.
    At this time I would like to recognize Ranking Member 
Senator Burr for his opening statement.
    Senator Burr.

    STATEMENT OF HON. RICHARD BURR, U.S. SENATOR FROM NORTH 
                            CAROLINA

    Senator Burr. Mr. Chairman, thank you. You and I have spent 
way too much time together today. Senator Akaka and I started a 
hearing this morning.
    I think we had just enough time for a lunch break. Now 
we're back in another one. And I'm sure this one will be as 
enlightening as the first hearing that we had.
    Senator, I'd like to thank you for convening this. It seems 
like every time we get together we've got 10 or 12 bills that 
we're addressing. It is my belief that we will be able to work 
out something to move a majority, if not all of the 
legislation. I'd like to thank Deputy Secretary Lynn Scarlett 
for being with us today.
    Mr. Chairman, I'd like to highlight one bill in particular. 
It's S. 2262, which would firmly establish Preserve America and 
Save America's Treasures as Federal programs. The two programs 
complement one another in providing support for cultural and 
historic resources. Practically every State has benefited from 
Preserve America and Save America's Treasures and mine has as 
well. As co-sponsor of this bill I hope that we can get it 
reported out of the committee as soon as we possibly can.
    I'd like to thank all of our witnesses who are here today. 
I pledge to the Chairman to work with him diligently to make 
sure that not only we move, but we clear as many pieces of 
legislation as we possibly can. I yield back.
    Senator Akaka. Thank you very much, Senator Burr. We've 
been so working closely together as well as spending most of 
the day in hearings today here.
    We have two witnesses testifying before this committee and 
they're here testifying on behalf of the Administration. Lynn 
Scarlett, the Deputy Secretary of the Interior and Kate 
Stevenson, the Acting Assistant Director for Business Services 
of the National Park Service. Secretary Scarlett and Ms. 
Stevenson, I want to welcome both of you, officially, here. We 
will start with your statements on all of the bills and then 
turn to questions after you have finished.
    Secretary Scarlett, please proceed with your testimony.

STATEMENT OF P. LYNN SCARLETT, DEPUTY SECRETARY, DEPARTMENT OF 
                          THE INTERIOR

    Ms. Scarlett. Thank you very much, Senator Akaka. Thank 
you, Senator Burr for your remarks. Thank you to the committee 
for holding this hearing. I am pleased to present the 
Department of the Interior's views on the Preserve America and 
Save America's Treasures Act. I will also present views on 
legislation to establish the Thomas Edison National Historical 
Park and legislation to establish a memorial within Kalaupapa 
National Historical Park.
    The Preserve America/Save America's Treasure's Act, Senate 
bill 2262, would authorize both the Preserve America and the 
Save America's Treasures Programs. Since their creation, 
administratively, both programs have been funded through the 
annual appropriations process. The legislation would 
institutionalize the Preserve America and Save America's 
Treasures Program. The Administration strongly supports 
enactment of Senate bill 2262.
    I'd like to personally thank Senator Bingaman, Senator 
Domenici, Senator Burr and Senator Clinton for co-sponsoring 
this legislation and advancing it. Established in 2003, the 
Preserve America initiative supports community efforts to 
preserve America's cultural and natural heritage. We now have 
608 Preserve America communities designated encompassing all 50 
states. Preserve America supports heritage tourism, adaptive 
re-use of historic and cultural resources and living history 
programs that strengthen educational opportunities in history.
    Today through the Grant Program we have had 184 grants 
totaling nearly $13 million supporting Heritage Trails, 
cultural resource inventory and mapping, Heritage Tours, some 
in economic development through using historic assets. John 
Nau, Chairman of the Advisory Council on Historic Preservation, 
who's here today, has also prepared a statement for the record 
and has asked that you consider reviewing that testimony.
    The legislation under consideration today also 
institutionalizes the Save America's Treasures Grant Program. 
The SAT Program preserves and celebrates America's historic 
legacy through a grant program that funds bricks and mortars, 
improvements to important cultural and historic landmarks and 
historic collections. The Program has provided over 1,000 
grants to date, totaling $278 million.
    Dollars matched by the private sector and other support 
have been put forth. This national effort created by 
anExecutive Order in 1998 recognizes and protects America's 
threatened cultural and historical treasures. Both of these 
programs have demonstrated significant on the ground successes 
in fostering preservation, partnerships, leveraging private 
dollars with public funds and sustaining efficient resource 
management to preserve our heritage assets.
    I'd like to now turn to two other bills under consideration 
today. H.R. 3332 and Senate bill 2502 direct the Secretary of 
the Interior to authorize Ka `Ohana O Kalaupapa, a non-profit 
organization, to establish a memorial at either the Kalaupapa 
settlement or Kalawao. The memorial would display the names of 
the first 5,000 individuals sent to the Kalaupapa peninsula 
between 1866 and 1896. It would also display the names of 
approximately 3,000 individuals who arrived at Kalaupapa in the 
second part of its history. Ka `Ohana O Kalaupapa includes 
patient residents at Kalaupapa National Historical Park and 
their family members and friends.
    We support the goal of remembering all that has happened at 
Kalaupapa. In many respects the entire park is a memorial to 
the history and injustice that occurred on the peninsula. We 
applaud the purpose of this bill.
    We recognize that the remaining patients and other 
interested parties support a memorial to Hansen's disease 
patients. The Department prefers the language in H.R. 3332 with 
one minor amendment. The language clarifies the fund raising 
requirements by Ka `Ohana O Kalaupapa.
    While both bills reference the Secretary's role in 
approving the location for the memorial in the general section, 
the House bill references approval of location in the approval 
section of the bill. We include a proposed amendment with our 
written testimony, and we would be very pleased to work with 
you on the bill.
    I'd like to turn to one additional bill under consideration 
today and that is S. 2329 and H.R. 2627, which would re-
designate the Edison National Historic Site as the Thomas 
Edison National Historic Park. We believe this re-designation 
is appropriate for two reasons.
    First, the term ``National Historical Park'' generally 
applies to parks that extend beyond single properties or 
buildings. This unit of the National Park System includes both 
the laboratory in West Orange and Edison's home in nearby 
Llewelyn Park, one mile away. They are two distinct units with 
different interpretive themes, resource management issues and 
operational challenges.
    Second, with completion of the current rehabilitation 
project at the laboratory complex and at Edison's home, the 
unit's complexity will increase. Educational and interpretive 
programs linking the laboratory and the Edison home will become 
more sophisticated and are better represented, we believe, by 
the term ``National Historical Park'' to reflect these non-
contiguous parcels with a shared link to Thomas Edison.
    I'd like to note that the Park Service is preparing an 
updated legislative map to more clearly show the exact 
boundaries of the park. Once completed, the bills would need to 
be amended to include this map reference. Thank you again for 
the opportunity to testify on these bills, and I know Kate 
Stevenson has remarks on other bills. I'd be happy to answer 
any questions.
    [The prepared statement of Ms. Scarlett follows:]
Prepared Statement of P. Lynn Scarlett, Deputy Secretary, Department of 
                              the Interior
                                s. 2262
    Mr. Chairman and Members of the Committee, thank you for inviting 
me to appear before you today to present the Department of the 
Interior's views on S. 2262, the Preserve America and Save America's 
Treasures Act. I would also like to thank the sponsors of the bill in 
both in the Senate and the House for introducing this important 
legislation. The administration strongly supports enactment of S. 2262.
    The historic and cultural structures and sites in communities 
throughout the country serve as the backdrop to the stories of our past 
and inspire the future. To help ensure that future generations will 
have the opportunity to experience our past and appreciate our identity 
as communities and as a Nation, across America people are adapting 
places once used in bygone eras to modern purposes, as community 
attractions, places of work, and educational centers. With these 
efforts, we are preserving our Nation's culture, history and identity 
both for the benefit of future generations and for the enjoyment of 
citizens and visitors today. Citizens in communities across America are 
the engine behind this historic preservation. Through a variety of 
Federal stewardship programs, these efforts have expanded and 
flourished. Chief among these programs are the complementary Preserve 
America and Save America's Treasures programs.
    Established in 2003, Preserve America is an Administration 
initiative that encourages and supports community efforts to preserve 
and enjoy the country's cultural and natural heritage. Preserve America 
fosters reuse and interpretation of cultural resources that form the 
social, educational and economic fabric of communities. The goals of 
the initiative include a greater shared knowledge about our Nation's 
past, strengthened regional identities, and increased local 
participation in preservation efforts.
    Consider just a few examples of how communities throughout the 
country are putting these grant dollars to work. In Fort Smith, 
Arkansas, local leaders and organizations are developing a marketing 
plan to promote the historically significant central city area to 
developers, investors, business, and tourists sparked by a $47,000 
Preserve America grant. Organizers in Gastonia, North Carolina are 
applying a $29,500 Preserve America grant to the Preserving and 
Promoting Gastonia's Heritage project. With these funds, Gastonia will 
produce wayfinding signs, a walking-tour brochure and updated Gastonia 
Downtown website to promote Gastonia as a heritage and cultural tourism 
destination. The people of Burlington, Vermont are developing a web-
based guide to Burlington's cultural and historic resources for 
travelers, planners and educators with a $94,000 Preserve America grant 
to promote their unique heritage.
    The Preserve America program has been well received by States and 
is generating tangible preservation outcomes. For example, communities 
in Colorado's southeastern plains, devastated by job loss, are looking 
to heritage tourism as a means of revitalization. A $130,000 Preserve 
America grant to the Colorado Historical Society (in association with 
the statewide nonprofit, Colorado Preservation, Incorporated) created a 
partnership among several counties to develop a regional planning and 
marketing program. The effort has helped connect a host of local 
historic and prehistoric sites, including the largest dinosaur track 
site in North America, and fostered cooperation among federal, state, 
and local officials, business owners, and non-governmental 
organizations. In addition, the participating counties have been 
designated as a pilot project for Colorado's newly created Heritage 
Tourism Initiative. The Preserve America funding, matched by the State 
of Colorado, has also leveraged additional $355,500 in financial 
support from local foundations, the counties, and other entities.
    Preserve America does not fund construction, rehabilitation, or 
restoration of historic resources. Rather, it supports planning and 
development of activities and programs in heritage tourism, adaptive 
re-use, and ``living history'' programs that may be usefully replicated 
across the country. Perhaps most important, it helps to provide needed 
support for communities (including municipalities, urban neighborhoods, 
counties, and tribal communities) to fully realize and sustain 
preservation's benefits.
    Six years ago, the Preserve America initiative was a concept on 
paper. Today, thanks, in part, to the tremendous efforts of John Nau, 
Chairman of the Advisory Council on Historic Preservation and co-chair 
of Preserve America, over 600 Preserve America communities representing 
all 50 states enhance their historic and cultural assets through 
heritage tourism, education, and preservation. Through John's 
creativity, the initiative now includes a grant program to support 
heritage tourism, an award program to honor outstanding partners in 
historic preservation, and a national history-teacher-of-the-year 
award. These accomplishments could not have occurred without John Nau's 
vision, tireless focus on implementation, and ability to inspire 
partners across the Nation. While we recognize that in the interest of 
time Chairman Nau is not testifying before you today, the ACHP has 
prepared a Statement for the Record that I urge you to also carefully 
consider as you review this important legislation.
    The Save America's Treasures (SAT) grant program is dedicated to 
the preservation and celebration of America's priceless historic 
legacy. The program also complements the planning and development 
support of preservation offered by Preserve America. The SAT grant 
program funds ``bricks and mortar'' improvements to important cultural 
and historic landmarks and irreplaceable collections in every corner of 
the country. This national effort, created by Executive Order in 1998, 
recognizes and protects America's threatened cultural treasures, 
including historic structures, collections, works of art, and maps and 
journals that document and illuminate the history and culture of the 
United States.
    These competitive grants encourage sustainable historic resource 
management and make these enduring symbols of the American tradition 
more accessible to scholars and the public through exhibits, 
traditional publications, and websites. The Save America's Treasures 
grants have educated the public on preservation challenges at the 
buildings, sites, monuments, objects and documents that represent 
America's diverse cultural legacy and supported preservation of 
historic collections and properties.
    Over 1,000 Save America's Treasures matching grants have been, or 
are in the process of being, awarded to Federal agencies, State, local 
and tribal governments, and nonprofit institutions. Administered by the 
National Park Service, grants are awarded competitively, with 
individual projects only eligible for one grant, and with all grants 
requiring a dollar for dollar local match.
    Among the accomplishments of the Save America's Treasures grant 
program is rehabilitation of the Sheridan Inn in Sheridan, Wyoming, 
once leased by William F. (``Buffalo Bill'') Cody, and which served as 
an audition and planning venue for many of his Wild West shows. 
Numerous other notables have stayed at the Inn, including Herbert 
Hoover, Ernest Hemingway, Will Rogers, and Bob Hope. The 1892 inn, a 
National Historic Landmark, received a 2006 SAT grant of $400,000 from 
the National Park Service's Historic Preservation Fund to correct 
structural deterioration.
    In 2007, the Old Mississippi State Capitol, Mississippi Department 
of Archives and History, in Jackson, Mississippi received a 2007 SAT's 
grant of $525,000 to restore the roof and repair water damage, both 
results of hurricanes Katrina and Rita. The Old Capitol is a 
masterpiece of 19th-century Greek Revival architecture and is the 
oldest building in Jackson.
    Finally, Schooner Ernestina, in New Bedford, Massachusetts, 
received a SAT's grant of $500,000 to rehabilitate the ship and return 
her to sailing condition. The vessel will operate as a sailing school 
and passenger ship. This National Historic Landmark ship is the oldest 
surviving Grand Banks fishing schooner and one of only two surviving 
19th century Gloucester-built fishing schooners.
    Together, these programs generate community partnerships, economic 
and educational opportunities, and the promotion of historical and 
cultural tourism. Both Preserve America and Save America's Treasures 
promote better coordination and, therefore, greater efficiencies in 
meeting existing preservation needs. They also expand future 
opportunities by allowing local stakeholders to determine which 
strategies best meet their goals.
    S. 2262 would authorize both the Preserve America and the Save 
America's Treasures programs, making them permanent resources for 
citizens and civic organizations engaged in historic preservation 
activities. Since their creation, both programs have been sustained 
through the annual appropriations process. However, without permanent 
authorization, they lack the foundation for sustained success. Without 
the ``stamp of legitimacy'' achieved by the Congressional legislative 
process, both programs, despite their records of success, remain 
vulnerable to termination. The legislation would institutionalize the 
Preserve America and Save America Treasures programs and cement them as 
permanent tools for protecting our Nation's cultural resources.
    The results are clear. Both programs have demonstrated significant 
on-the-ground success in fostering preservation partnerships, 
leveraging private dollars with public funds, and sustaining efficient 
resource management strategies and sound business practices in the 
preservation of our heritage assets. These grants and designations give 
citizens in communities across the country good reason to say ``Welcome 
to my town!'' They provide communities greater opportunity to realize 
economic development through historic preservation and the celebration 
of the rich heritage and unique stories of the American experience. 
Thank you again for the opportunity to testify on these programs and 
this legislation. I would be happy to answer any questions.

    Senator Akaka. Thank you very much. Now I'd like to call on 
a member of the committee, Senator Corker for any statement he 
may have.
    Senator Corker. Mr. Chairman, thank you. If you don't mind 
I like to get along really, really well with our senior 
Senator. So I might defer and let him speak first if that's ok.
    Senator Akaka. Thank you very much. We'll hear now from 
Senator Alexander.

 STATEMENT OF HON. LAMAR ALEXANDER, U.S. SENATOR FROM TENNESSEE

    Senator Alexander. That's very generous of Senator Corker. 
I was prepared for him to go first since he is a member of the 
committee and because of his leadership on this issue. But I'm 
happy to do this.
    I'm here in support of S. 2207 which is the Green McAdoo 
National Historic Site study, which directs the Secretary of 
the Interior to study the feasibility of designating the site 
of the Green McAdoo School as a unit of the National Park 
System. Congressman Wamp and Congressman John Lewis, a civil 
rights hero, have introduced similar legislation in the House.
    Let me try to give a little personality to this Green 
McAdoo School. Most of us, who are old enough, remember what 
happened as school began in the year 1957. I remember it 
because I was a senior in high school then.
    The Supreme Court had ordered schools across America to be 
segregated, and the Federal District Courts across the country 
were implementing that. Desegregation was attempted at Little 
Rock Central High School. Governor Orval Faubus and the 
community resisted.
    President Eisenhower literally had to send the paratroopers 
in to make certain that the African American children could 
attend Little Rock Central High School. We remember that and I 
was glad to co-sponsor, with Senators Lincoln and Pryor, 
legislation commemorating the 50th anniversary of that in 2007.
    What we don't know as much about is what happened a year 
earlier. It's a very different story. In the fall of 1956, the 
Federal District Judge in Knoxville--Judge Robert Taylor, whose 
grandfather and great uncle had been Governor of Tennessee, and 
whose daughter, Ann Taylor is on National Public Radio 
delivering the news very often--ordered the Green McAdoo School 
to be integrated. Judge Taylor's order meant that the students 
from Green McAdoo would be allowed to go to Clinton High 
School. Clinton is the small town just outside of Knoxville 
near Oak Ridge.
    On August 27, 1956, 12 students from Green McAdoo School, 
who became known as the Clinton Twelve, met at the school and 
walked to Clinton High School, becoming the first African 
American students to integrate a southern State supported 
school. Now the difference between what happened in Clinton in 
1956 and Little Rock in 1957 was that the judge, the Governor 
and the community did what the law required them to do. 
President Eisenhower didn't have to send the paratroopers into 
Clinton.
    There were problems. There were outside agitators. I 
remember John Kasper was one of them. There was some violence 
as a result of that. But the community and the students in that 
school, who are now my age, said they thought it was their job 
to enforce the law. They did. The Governor of Tennessee then, 
Governor Frank Clement, whose son, Bob, later served in the 
U.S. Congress, courageously sent in the National Guard in 
September to make sure that the outside agitators were not able 
to cause a problem.
    So, I think it was appropriate last year to recognize the 
50th anniversary of the desegregation of Little Rock Central 
High School as a step forward in the progress of America's 
attempt to give every student equal justice under the law. I 
think it's equally or even more important to honor the story of 
the Clinton Twelve and what the Clinton, Tennessee community 
did a year before Little Rock because they did it earlier. They 
did it without the Federal government having to send in the 
paratroopers.
    The citizens did what they should have done. The Governor 
acted courageously in support of the local citizens. The 
Clinton Twelve attended the formerly all-white school and the 
first African American to graduate from a public high school in 
the south was Bobby Cain in the late spring of 1957, who was 
the oldest of the Clinton Twelve.
    The State of Tennessee has contributed money to have 
statues of each of those twelve in front of that school. I was 
there not long ago. The Federal Government has spent about 
three-quarters of a million dollars helping make a museum of 
that.
    It's a place every American should really go to in the same 
way you would go to see the Underground Railroad Museum in Ohio 
to learn about atrocities and discrimination and failure of 
citizens in communities to live up to the goals of our country. 
This is an opportunity to create a historic site to show how a 
community lived up to the principle of equal opportunity in 
America. So I'm glad to join Senator Corker and Congressman 
Wamp and Congressman Lewis and others in support of this.
    I thank the Senator for allowing me to go before him even 
though he's a member of the committee and has been one of the 
most active leaders for this legislation since it was first 
introduced.
    Senator Akaka. Thank you very much, Senator Alexander for 
your personal account and statement on this. Are there any 
questions?

          STATEMENT OF HON. BOB CORKER, U.S. SENATOR 
                         FROM TENNESSEE

    Senator Corker. Mr. Chairman, if I could just add a few 
remarks. As Senator Alexander always does, I think he's 
communicated very well about this site and the reason that we 
have brought this legislation together with Members of 
Congress. I have visited the site, although I haven't visited 
since they completed the work.
    But I think it's extraordinary that these community leaders 
have come together to honor the Clinton Twelve, which has a 
great deal to do with the history and certainly what occurred 
during Brown vs. Board of Education in 1954 and as Clinton, 
Tennessee did during those days, as Lamar just mentioned, 
community leaders are showing leadership again by honoring what 
occurred, which is such a historic part of what our country's 
progress has been built on. The Clinton Twelve were truly 
pioneers. It was amazing what they did.
    I just want to, again, express hope that members of 
Congress will support this legislation. I'm happy to join 
Senator Alexander, Wamp and Lewis in regards to this and thank 
you for letting me speak for a few minutes on behalf of this 
legislation.
    Senator Akaka. Thank you very much, Senator Corker. Now 
Senator Menendez for your statement.

STATEMENT OF HON. ROBERT MENENDEZ, U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman. Let me thank you 
and the Ranking Member for holding this hearing. Particularly I 
want to speak in support of the Thomas Edison National Historic 
Park.
    Thomas Edison is the greatest inventor in our Nation's 
history. His work revolutionized our Nation's communications. 
He brought us light, electricity, music and motion pictures.
    The name of Edison is synonymous with the word inventor. 
His legacy has inspired generations of American inventors, 
scientists and engineers. His light bulb was an incandescent 
symbol of our Nation's technological leadership, innovation and 
progress.
    One of Edison's early innovations was the very idea of an 
industrial research laboratory aimed at producing and applying 
knowledge. His facility in West Orange, New Jersey is a 
national treasure. It is preserved in the Thomas Edison 
National Historic Site, which encompasses Edison's home of 45 
years, his laboratories, his offices and a vast collection of 
irreplaceable artifacts and documents.
    The laboratory complex is nearing the end of extensive 
renovations. It is estimated that the number of visitors will 
triple when it reopens. We hope that nearly 300,000 people a 
year will visit this unique, historic, educational and 
inspirational facility, which is why we've introduced S. 2329 
with my colleague Senator Lautenberg, the lifetime innovations 
of Thomas Edison or the LITE Act which will re-designate the 
current National Historic Site as a National Historical Park.
    This nomenclature is more consistent with the National Park 
Services guidelines and reflects the many improvements and 
enhancements achieved during this renovation. I believe, I 
arrived a little late, but I'm sure that the Park Service 
testimony is in line with it, which hopefully will make life a 
little easier here on the committee. So therefore I hope our 
colleagues will join us in supporting the LITE Act and our 
efforts to preserve a site of enormous historical significance 
to both America and for that fact, the rest of the world.
    Thank you, Mr. Chairman. I look forward to working with 
you.
    Senator Akaka. Thank you very much, Senator Menendez. Now 
I'd like to call on Director Stevenson for your testimony.

STATEMENT OF KATHERINE H. STEVENSON, ACTING ASSISTANT DIRECTOR, 
  BUSINESS SERVICES, NATIONAL PARK SERVICE, DEPARTMENT OF THE 
                            INTERIOR

    Ms. Stevenson. Thank you, Mr. Chairman. Thank you again for 
the opportunity to appear before you to offer the views of the 
Department of the Interior on several of the bills before you. 
I would like to summarize my testimony and submit the entire 
text for the record.
    S. 1633 would authorize the Secretary to conduct a special 
resource study for the Battle of Shepherdstown in West Virginia 
as part of the Harpers Ferry National Historical Park or 
Antietam National Battlefield. We support this bill. We believe 
that any funding requested should be directed first to our 
completing previously authorized studies.
    S. 1993 would modify the boundary of Hopewell Culture 
National Historical Park and would also allow acquisition of 
lands only from willing sellers. We support this bill and its 
House counterpart H.R. 2197.
    S. 2207 would direct the Secretary to study Green McAdoo 
School for its feasibility and suitability as a unit of the 
National Parks System. The Department supports S. 2207 with two 
technical amendments.
    S. 2254 would establish the Mississippi Hills National 
Heritage Area. The Department cannot support S. 2254 unless the 
bill is amended to be a feasibility study for the proposed 
area, as we require every potential heritage area to have such 
a study. Such a study would evaluate the components of the 
proposal against the interim criteria for heritage areas. The 
area would need to demonstrate evidence of place based 
resources that tell a nationally significant story, that has 
the support and involvement of the local community, has 
boundaries and has a useable business plan.
    S. 2512 would establish the Mississippi Delta National 
Heritage Area. Again, the Department cannot support the bill 
unless the bill is amended to be a feasibility study for the 
area. While there have been other studies that covered this 
area, these studies did not address the criteria for national 
heritage areas and covered a much larger geographic area.
    H.R. 3998 directs the Secretary to conduct nine special 
resource studies to determine the appropriate means for their 
preservation, use and management. The Department supports the 
authorization of six of the studies. The Battle of Matewan, the 
Battle of Camden, the Mississippi River, Fort San Geronimo, the 
Rim of the Valley, and the Butterfield Overland Trail.
    The Department does not object to the authorization of a 
study for the Harry S. Truman birthplace site and the Eastern 
Legacy sites of Lewis and Clark trail. But the Department must 
oppose authorization of the study of the Wolf House as we have 
testified before.
    This concludes my testimony and I would be happy to answer 
any questions you might have.
    [The prepared statements of Ms. Stevenson follow:]
    Prepared Statement of Katherine H. Stevenson, Acting Assistant 
 Director, Business Services, National Park Service, Department of the 
                                Interior
                         h.r. 3332 and s. 2502
    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on H.R. 3332 and S. 2502, bills to 
provide for the establishment of a memorial within Kalaupapa National 
Historical Park, located on the island of Molokai, in the State of 
Hawaii, to honor and perpetuate the memory of those individuals who 
were forcibly relocated to the Kalaupapa Peninsula from 1866 to 1969.
    The Department does not object to the concept of establishing a 
memorial at Kalaupapa National Historical Park. The Department does, 
however, prefer the language in H.R. 3332, with one minor amendment, as 
it clarifies the fundraising requirements by Ka `Ohana O Kalaupapa and 
the Secretary's role in approving the final location for the memorial.
    H.R. 3332 and S. 2502 direct the Secretary of Interior to authorize 
Ka `Ohana O Kalaupapa, a non-profit organization, to establish a 
memorial at either the Kalaupapa Settlement or Kalawao. The memorial 
would be designed to display the names of the first 5,000 individuals 
sent to the Kalaupapa Peninsula between 1866 and 1896, and to also 
display the names of the approximately 3,000 individuals who arrived at 
Kalaupapa in the second part of its history. Ka `Ohana O Kalaupapa 
consists of patient residents at Kalaupapa National Historical Park, 
and their family members and friends.
    Kalaupapa National Historical Park was established in 1980 to honor 
and preserve two tragic histories: the removal of indigenous people 
from the area in 1865 and 1895, and the forced relocation and isolation 
of Hansen's Disease (leprosy) patients to the peninsula from 1866 until 
1969. The park contains the physical setting for these stories, 
including the Hansen's Disease settlements of Kalaupapa and Kalawao, 
and the churches of Siloama and Saint Philomena associated with the 
work of Father Damien and Mother Marianne Cope. Today the community of 
Kalaupapa is still home for some Hansen Disease patients, whose 
memories and experiences are of integral value to the Park.
    The National Park Service works cooperatively with several 
organizations to manage the site and preserve the stories of residents. 
Partners include the State of Hawaii, Department of Health; the 
Catholic Diocese of Honolulu; the United Church of Christ; State of 
Hawaii, Department of Land and Natural Resources; and the Department of 
Transportation. The land owner, State of Hawaii, Department of Hawaiian 
Homelands, maintains a lease agreement (65 year) with the National Park 
Service. In addition, the State of Hawaii, Department of Health would 
need to approve the release of names of patients that are not already 
available to the public for inclusion in a memorial. Each of these 
groups would need to be consulted. The National Park Service is 
committed to working with the patients, partners, and friends' groups 
to best honor the stories of those for whom the park was founded.
    The Department supports the concept of remembering all that has 
happened at Kalaupapa and believes that the entire park is a memorial 
to the history and injustice that has occurred on the peninsula. Still, 
we recognize that the remaining patients and other interested parties 
support a memorial to the Hansen's Disease patients.
    We recommend the legislation be amended to clarify that the 
memorial be located in the Kalaupapa Settlement, where patients 
continue to live today, and not at Kalawao. Kalawao is a beautiful and 
remote location on the peninsula where few structures exist. Few 
visitors see this area other than in the distance. The Kalaupapa 
Settlement is a fitting area for such a memorial--it is where patients 
and visitors will have a lasting reminder of what occurred at 
Kalaupapa. The proposed amendment is attached to this testimony.
    That concludes my testimony. I would be happy to answer any 
questions you or other members of the committee may have.
                               h.r. 3998
    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on H.R. 3998, a bill that authorizes the 
Secretary of the Interior (Secretary) to conduct nine special resources 
studies of certain lands and structures to determine the appropriate 
means for their preservation, use and management, including possible 
inclusion within the National Park System or the National Trails 
System.
    The Department supports the authorization of six of the studies: 
for the Battles of Matewan and Camden, the Mississippi River, Fort San 
Geronimo, the Rim of the Valley, and the Butterfield Overland Trail. 
The Department does not object to the authorization of two of the 
studies: for the Harry S Truman Birthplace site and the Eastern Legacy 
Lewis and Clark trail sites. The Department opposes the authorization 
of the study of the Wolf House. However, the Department feels that 
priority should be given to the 32 previously authorized studies for 
potential units of the National Park System, potential new National 
Heritage Areas, and potential additions to the National Trails System 
and National Wild and Scenic River System that have not yet been 
transmitted to the Congress.
    Title I of H.R. 3998 authorizes the Secretary to conduct a special 
resource study to determine the suitability and feasibility of adding 
the Harry S Truman Birthplace State Historic Site, located in Lamar, 
Missouri, to the Harry S Truman National Historic Site or designating 
the site as a separate unit of the National Park System. The study 
would also determine the methods and means for protection and 
interpretation of the site by federal, state or local government 
entities or private or non-profit organizations.
    The Department does not object to the enactment of Title I. 
President Harry S Truman was born in the house in Lamar, Missouri, and 
lived there with his family until he was approximately 11 months old. 
The birthplace is currently a State Historic Site operated and 
maintained by the Division of Parks and Recreation of the State of 
Missouri. Harry S Truman National Historic Site operates two units, the 
Truman Home in Independence and the Truman Farm Home in Grandview, from 
the operational center in Independence. The birthplace site in Lamar is 
approximately 120 miles from the national historic site in 
Independence. Mr. Truman's birth in Lamar is currently being included 
in interpretive programs at both the Truman Home and the Truman Farm 
Home as part of the larger Truman story.
    Title II of H.R. 3998 authorizes the Secretary to conduct a special 
resource study to determine the suitability and feasibility of 
extending the Lewis and Clark National Historic Trail to include 
additional sites associated with the preparation and return phases of 
the expedition. These sites are commonly known as the ``Eastern Legacy 
sites'' and are located in Virginia, the District of Columbia, 
Maryland, Delaware, Pennsylvania, West Virginia, Ohio, Kentucky, 
Tennessee, Indiana, Missouri and Illinois. The study would also 
determine the methods and means for the protection and interpretation 
of these sites by federal, state or local government entities or 
private or non-profit organizations. The Department testified on a 
similar bill, S. 1991, earlier this Congress.
    While we have some concerns about the need for the study, the 
Department does not object to the enactment of Title II. There have 
been many discussions in recent years between scholars and interested 
individuals concerning whether the Eastern Legacy sites and routes 
merit inclusion in the Lewis and Clark National Historic Trail. 
Arguments against extending the trail have focused on the common 
historical understanding of where the expedition itself began. 
Additional concerns include what impact the inclusion of the Eastern 
Legacy sites would have on those sites and on tourist visitation to the 
western half of the trail, and whether extending the trail would dilute 
attention to and importance of the existing trail. The issue of whether 
this area is suitable and feasible as an administrative unit of the 
National Trails System has not been addressed. Title II would provide 
that authority.
    Title III authorizes the Secretary to conduct a special resource 
study of the sites associated with the ``Battle of Matewan'' in 
Matewan, West Virginia to determine the suitability and feasibility of 
designating these resources as a unit of the National Park System, and 
to determine the methods and means for protection and interpretation by 
federal, state or local government entities or private or non-profit 
organizations.
    The Department supports enactment of Title III. The ``Battle of 
Matewan'' was a pivotal event in the eventual end of coal company 
control in the southern Appalachians, and a seminal event in the 
history of organized labor. The conflict was precipitated by striking 
coal miners who demanded the company recognize the legitimacy of the 
United Mine Workers of America. The coal companies retaliated by 
bringing in armed guards to evict miners from local mines and their 
families from company housing, sparking an armed confrontation on May 
19, 1920 that left ten people dead. Resources related to this period 
are still extant in the Town of Matewan and its surrounding areas.
    Title IV authorizes the Secretary to conduct a special resource 
study of the site of the Battle of Camden and the site of Historic 
Camden in South Carolina to determine the suitability and feasibility 
of designating these sites as a unit or units of the National Park 
System, and to determine the methods and means for protection and 
interpretation by the federal, state or local government entities or 
private or non-profit organizations.
    The Department supports enactment of Title IV. The Battle of 
Camden, fought on August 16, 1780, was a key battle in the southern 
campaign of the American Revolutionary War. The battle decisively ended 
American hopes of a quick victory in the south. A 2003 reconnaissance 
study of the Camden battlefield recommended that a Special Resources 
Study be completed. Historic Camden is a National Park System 
affiliated area within the City of Camden, which is one of the oldest 
towns in South Carolina.
    Title V authorizes the Secretary to conduct a special resource 
study along the route of the Mississippi River from its headwaters in 
the state of Minnesota to the Gulf of Mexico to evaluate the route for 
potential addition to the National Trails System. The study would also 
determine the methods and means for the protection and interpretation 
of the route by federal, state or local government entities or private 
or non-profit organizations. Title V gives the Secretary the authority 
to conduct the study in accordance with the National Park System 
General Authorities Act or the National Trails System Act, as 
appropriate.
    The Department supports the enactment of Title V. The Mississippi 
River corridor is one of the richest in America's history. It traverses 
along the edges of 10 states, linking six National Park Service areas 
and up to 40 federal properties. A special resource study would allow 
for an analysis of current conditions, river issues and activities, 
historic issues, current and potential partners, interested state 
agencies, affected communities, related planning projects, and previous 
studies, and would help determine the best designation and coordinating 
role for this important set of resources.
    Title VI authorizes the Secretary to conduct a special resource 
study to determine the suitability and feasibility of including Fort 
San Geronimo in Puerto Rico as part of San Juan National Historic Site. 
The study would also determine the methods and means for protection and 
interpretation of the site by federal, state or local government 
entities or private or non-profit organizations.
    The Department supports enactment of Title VI. Fort San Geronimo is 
one of four forts surrounding the old, colonial portion of San Juan, 
Puerto Rico that were built by Spanish troops beginning in 1539. Fort 
San Geronimo is the only one of the four forts in the original 
fortification system that is not included in San Juan National Historic 
Site.
    Title VII authorizes the Secretary to conduct a special resource 
study of the Wolf House in Norfork, Arkansas, to determine the 
suitability and feasibility of designating the house as a unit of the 
National Park System. The study would also determine the methods and 
means for the protection and interpretation of the house by federal, 
state or local government entities or private or non-profit 
organizations. The Department testified on a similar bill, S. 1941, 
earlier this Congress.
    The Department opposes enactment of Title VII. The Wolf House is a 
two-story dogtrot structure dating back to 1829 and the oldest 
territorial courthouse west of the Mississippi River. While the Wolf 
House is an impressive historical structure, it is not distinguished 
beyond many other historical log structures in cities all over the 
United States. Even though the Wolf House has significance for the 
political history of the state of Arkansas, we believe it may be more 
suited for inclusion in the State Park system.
    Title VIII authorizes the Secretary conduct a special resource 
study of the area known as the Rim of the Valley in southern California 
to determine the suitability and feasibility of designating all or a 
portion of the corridor as a unit of the Santa Monica Mountains 
National Recreation Area. The study would also determine the methods 
and means for the protection and interpretation of the corridor by 
federal, state or local government entities or private or non-profit 
organizations. Section 802 (b) requires the Secretary to document the 
process used to develop the existing Santa Monica Mountains National 
Recreation Area Fire Management Plan and Environmental Impact 
Statement, and to document all activity conducted pursuant to the plan 
designed to protect lives and property from wildfire.
    The Department supports enactment of Title VIII. The proposed study 
would explore ways to involve a wide range of Federal, state, local, 
and private entities to protect and interpret important natural and 
cultural resources, and to provide more access to outdoor recreational 
opportunities for the diverse urban communities in the Greater Los 
Angeles Metropolitan Area. While the Department does not object to the 
language in Section 802 (b), the documentation that this section 
requires is already a part of the public record and is not relevant to 
the Rim of the Valley Corridor Study.
    Title IX authorizes the Secretary to conduct a special resource 
study and evaluation of the ``Ox-Bow Route'' of the Butterfield 
Overland Trail in the states of Missouri, Tennessee, Arkansas, 
Oklahoma, Texas, New Mexico, Arizona and California for potential 
inclusion in the National Trails System. The study would also determine 
the methods and means for the protection and interpretation of the 
corridor by federal, state or local government entities or private or 
non-profit organizations.
    The Department supports the enactment of Title IX. The Butterfield 
Overland Mail Route was the scene of biweekly stage coach and mail 
service between St. Louis, Missouri, and Memphis, Tennessee to San 
Francisco, California between 1858 and 1861. When the category of 
``national historic trail'' was first added to the National Trails 
System in 1978, the Department of the Interior developed a file of 
potential trails, including the Butterfield Overland Mail Route, but a 
formal study was never completed.
    Mr. Chairman, that concludes my testimony. I would be pleased to 
answer any questions you or the other members of the subcommittee may 
have.
                                s. 1633
    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on S. 1633, a bill to authorize the 
Secretary of the Interior to conduct a special resource study to 
determine the suitability and feasibility of including the battlefields 
and related sites of the Battle of Shepherdstown in Shepherdstown, West 
Virginia, as part of Harpers Ferry National Historical Park or Antietam 
National Battlefield in the National Park System.
    The Department supports S. 1633. However, the Department feels that 
priority should be given to the 32 previously authorized studies for 
potential units of the National Park System, potential new National 
Heritage Areas, and potential additions to the National Trails System 
and National Wild and Scenic River System that have not yet been 
transmitted to the Congress.
    S. 1633 would authorize the Secretary to carry out a special 
resource study to determine the national significance of the 
Shepherdstown battlefield and related sites in Shepherdstown, West 
Virginia associated with the Civil War. The study would examine whether 
the area could be included in the Harpers Ferry National Historical 
Park or the Antietam National Battlefield. The bill also requires the 
Secretary to submit a report to Congress no later than 3 years after 
the date on which funds are made available to carry out this study.
    General Robert E. Lee invaded the North, with the intention of 
bringing Maryland into the Confederacy. Lee had a number of strategic 
reasons for the move. First, Lee's troops were in much need of military 
aid and supplies and Maryland's lands were rich in crops and untouched 
by battle. Second, Lee saw Maryland as a stepping stone to 
Pennsylvania, where he could draw the Union Army into a battle on 
ground of his own choosing. He could then threaten the cities of 
Washington, Baltimore, and Philadelphia and perhaps end the war in a 
short time. Finally, General Lee hoped that another Confederate 
victory, this time on Union soil, might also persuade Great Britain and 
France to grant diplomatic recognition to the South.
    As he had done before, Lee divided his army and sent ``Stonewall'' 
Jackson in to capture the Federal arsenal at Harpers Ferry, with its 
huge store of supplies. But the people of Maryland looked on the hungry 
troops as invaders who had come to plunder their land. Another 
unfortunate thing happened. A Union private was resting near Frederick, 
Maryland and noticed an envelope in the grass. It was a copy of General 
Lee's order to his generals outlining his plans. The paper was soon in 
the hands of General George B. McClellan.
    The Battle of Shepherdstown, also known as the Battle of Boteler's 
Ford, was fought on September 19 and 20, 1862. There were over 600 
casualties. General Lee had moved most of his army back across the 
Potomac River into Virginia leaving 44 cannons to form an artillery 
reserve to protect the vital crossing point on the Potomac. General 
McClellan had given orders to pursue the enemy across the Potomac. In 
the confusion of battle, General Lee received an erroneous report that 
his cannons had been captured. Reacting to this misinformation, the 
Confederates sent a force back to recover the artillery. In the 
skirmish that followed on the bluffs of the Potomac, a large number of 
inexperienced Union troops with faulty equipment were killed. This 
convinced General McClellan that the Confederate Army was still full of 
fight and he decided to delay any further effort to pursue until 
reinforced. The battle was considered a Confederate victory.
    The Battle of Shepherdstown was the final engagement of the 
Maryland Campaign of 1862 that included the battles of Harpers Ferry, 
South Mountain, and Antietam and ended the Confederacy's first invasion 
of the North. The National Park Service has provided information and 
interpretation on the Shepherdstown site at Harpers Ferry National 
Historical Park and Antietam National Battlefield for over 20 years.
    A special resource study would provide alternatives for the 
appropriate way to preserve, to protect, and to interpret the Battle of 
Shepherdstown sites and resources. We estimate that the costs of 
completing this study would be approximately $250,000 to $300,000.
    That concludes my testimony. I would be happy to answer any 
questions you or other members of the subcommittee may have.
                         s. 1993 and h.r. 2197
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present the views of the Department of the Interior on 
S. 1993 and H.R. 2197, bills to authorize the Secretary of the Interior 
to modify the boundary of Hopewell Culture National Historical Park 
(NHP) at the Seip Earthworks unit to conform with recognizable property 
lines and landscape features, and to add the Spruce Hill Works unit to 
the park.
    The Department supports S. 1993 and H.R. 2197 as passed by the 
House. S. 1993 and H.R. 2197 authorize the Secretary of the Interior 
(Secretary) to modify the boundaries of Hopewell Culture NHP and 
acquire lands only from willing sellers.
    Spruce Hill is an interesting and unique monumental ceremonial 
archeological site built approximately 2,000 years ago by the Ohio 
Hopewell culture. The site encloses the top of a hill on the edge of 
the Appalachian Plateau and overlooks Paint Creek near the town of 
Bourneville in Ross County, Ohio. Of the forty or more large monumental 
Hopewell culture earthworks, less than a dozen are hilltop enclosures. 
Spruce Hill is one of the larger examples of a hilltop site; its walls 
enclose 140 acres. It is one of three Hopewellian earthwork sites in 
the Eastern Woodlands where stone is used to construct its enclosing 
walls. It also is the only hilltop enclosure in the extensive complex 
of Hopewell earthworks in the Scioto valley around modern-day 
Chillicothe. All of the other sites in the vicinity are built on the 
valley floors. The site also has ``enigmatic iron pit furnaces,'' which 
continue to generate ardent discussions among archeologists.
    The interest in preserving the Spruce Hill Works dates back to the 
1970s. In 1972, the site was added to the National Register of Historic 
Places. In 1980, Public Law 96-607 added a threatened earthwork site to 
the park and called on the Secretary to study other Ohio Hopewell 
culture sites and recommend sites for inclusion in the park. Spruce 
Hill was considered in this comprehensive study; however, since there 
had been limited modern archeology done at the site, Spruce Hill was 
recommended for further study. As a result, when Public Law 102-294 
established Hopewell Culture National Historical Park by combining the 
existing Mound City Group National Monument with three new units, it 
directed the Secretary to study several other prehistoric Hopewell 
culture sites as potential additions to the park, including Spruce 
Hill.
    Between 1995 and 1998, NPS archeologists were allowed access to 
Spruce Hill by the landowner. They conducted investigations and 
prepared preliminary findings and a summary report by 1998. This report 
found the site significant and suitable for addition to the park. The 
report concluded that Spruce Hill is an outstanding example of a 
particular type of Hopewell culture monumental architecture, the 
hilltop enclosure, of which about a dozen are known and only one other, 
Fort Ancient State Memorial, a National Historic Landmark, compares to 
it in size. The site also is associated with early developments in 
American archeology and specifically with discussions of the origin and 
builders of the monumental earthworks in the eastern United States. The 
site has important natural resources as well, including vernal pools, 
breeding habitat for grassland birds whose populations are in decline 
in Ohio, and will help preserve the watershed of Paint Creek, a stream 
designated as Outstanding State Waters. The site offers outstanding 
opportunities to yield important scientific information on Hopewell 
hilltop sites, a type of feature that has not been well studied and is 
not represented in the park.
    The estimated land acquisition cost for the Spruce Hill site is 
$450,000 to $600,000. The property was purchased on June 12, 2007 by a 
coalition of local and national conservation groups headed by the Arc 
of Appalachia Preserve and the Archaeological Conservancy. These 
partners are willing sellers. One of the partners, the Arc of 
Appalachia Preserve, is interested in holding the property outside of 
the earthworks and managing the site cooperatively with the NPS. This 
would reduce the acquisition cost for the government. Public 
facilities, including parking, hiking trails, and wayside exhibits, 
would be relatively inexpensive, with visitor center and museum needs 
being served by the Seip Earthworks unit. The cost to develop these 
facilities would be approximately $250,000. The Ross County Parks 
Department has expressed an interest in cooperating with the 
development of these facilities. However, Federal funding for any new 
land acquisition and development would be subject to the budget 
prioritization process of the National Park Service.
    S. 1993 and H.R. 2197 authorize boundary adjustments at the Seip 
Earthworks unit, allowing for alignment of the boundaries with features 
that are readily recognizable such as streams and fence lines. The 
boundary changes also would help preserve additional riparian habitat 
along Paint Creek, and forestall the need to surplus excess lands and 
provide easements across or near the principle resource of the park. 
Most of the land in the proposed boundary modification at the Seip 
earthwork has already been purchased by the Federal government as 
uneconomical remnants or is owned by the Ohio Historical Society. These 
changes would provide more opportunities for research into habitation 
and craft production archeological sites and provide the earthwork 
remains with a greater buffer. Also, inclusion of all of the Ohio 
Historical Society-owned land at Seip Mound State Memorial would 
facilitate joint management agreements with the Society. The estimated 
cost to purchase the remaining private properties is $250,000 to 
$300,000. These properties would be purchased from willing sellers.
    Passage of S. 1993 and H.R. 2197 would allow the National Park 
Service to preserve these unique earthworks, a distinctive form of 
ceremonialism and monumental architecture that involved constructing 
long earthen walls to enclose very large spaces. These earthworks, 
developed by an American Indian culture in the Ohio River valley around 
200 B.C. to A.D. 500, form a significant example of our nation's 
heritage.
    That concludes my statement. I would be glad to answer any 
questions that you or other members of the subcommittee might have.
                                s. 2207
    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on S. 2207, a bill to authorize the 
Secretary of the Interior (Secretary) to conduct a study to evaluate 
the national significance and the suitability and feasibility of 
designating the Green McAdoo School in Clinton, Tennessee, as a unit of 
the National Park System.
    The Department supports S. 2207 with two technical amendments 
described later in this testimony. However, the Department feels that 
priority should be given to the 32 previously authorized studies for 
potential units of the National Park System, potential new National 
Heritage Areas, and potential additions to the National Trails System 
and National Wild and Scenic River System that have not yet been 
transmitted to the Congress.
    The Secretary would use the criteria for the study under section 8 
of Public Law 91-383. Studies of this type typically cost approximately 
$250,000 and take three years to complete after funds are made 
available.
    S. 2207 would direct the Secretary to carry out a study of the 
formerly segregated African-American Green McAdoo School. The Green 
McAdoo School and the nearby all-white Clinton High School played an 
important role in school desegregation that preceded and followed the 
Supreme Court's decision in Brown v. Board of Education in 1954.
    The Federal District Court in Tennessee issued an order on January 
4, 1956, requiring desegregation of Anderson County schools no later 
than the fall term, 1956. On Aug. 25, 1956, 12 students from the Green 
McAdoo School, later dubbed the ``Clinton 12'' became the first 
African-American students to effect the integration of a southern, 
state-operated school. On September 1, 1956, Clinton was the first 
southern town to be occupied by National Guard troops in an effort to 
suppress violence sparked by protestors that were opposed to school 
integration. In 1958, the newly integrated Clinton High School was 
destroyed by explosives.
    Anderson County rebuilt Clinton High School. Green McAdoo and 
Clinton High are the only remaining schools associated with the 
historic Clinton desegregation crisis. After closing as a segregated 
school, the Green McAdoo School was reopened as a museum and cultural 
center in 2006. The Green McAdoo School is listed on the National 
Register of Historic Places.
    We recommend amending the short title of the bill on page 1 line 5 
by striking ``National Historic Site'' and inserting ``Special 
Resource'' before ``Study'' in order to not appear to have already 
determined the outcome of the study. We also recommend making a similar 
amendment on page 4 line 8 by inserting ``special resource'' before 
``study'' to use the term for the proposed study that is normally used.
    That concludes my testimony. I would be happy to answer any 
questions you or other members of the subcommittee may have.
                                s. 2254
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today to present the views of the 
Department of the Interior on S. 2254, a bill to establish the 
Mississippi Hills National Heritage Area in the State of Mississippi.
    The Department cannot support S. 2254 unless the bill is amended to 
be a feasibility study for a Mississippi Hills National Heritage Area 
in the State of Mississippi. The Department believes that a feasibility 
study should be required for every proposed national heritage area and 
the study should be evaluated against our interim criteria before 
designation. The standards for evaluating areas proposed for national 
designation are an essential element prior to establishing a national 
heritage area. A study should be prepared that demonstrates evidence of 
place-based resources that tell a nationally important story, which has 
the support and involvement of the local community.
    Although the Mississippi Hills Heritage Area Alliance has completed 
a ``Three-Year Strategic Plan for the Mississippi Hills Heritage Area'' 
and an impressive array of partners and potential funders has been 
assembled, fundamental questions have yet to be formally addressed 
regarding the region's eligibility for designation as a national 
heritage area.
    The Department is willing to provide advice or assistance in the 
completion of a study that meets applicable standards and provides 
Congress with the necessary information and assessment upon which to 
base its decision regarding designation in the future.
    With 37 national heritage areas designated across 27 states, and 
more heritage area legislative proposals forthcoming, the 
Administration believes it is critical for Congress to enact national 
heritage area program legislation. This legislation would provide a 
much-needed framework for evaluating proposed national heritage areas, 
offering guidelines for successful planning and management, clarifying 
the roles and responsibilities of all parties, and standardizing 
timeframes and funding for designated areas. Program legislation would 
also clarify the expectation that heritage areas would work toward 
self-sufficiency by outlining the necessary steps, including 
appropriate planning, to achieve that goal.
    S. 2254 would establish the Mississippi Hills National Heritage 
Area in northeast Mississippi. The area would encompass all or part of 
30 counties. It would also include the Delta National Forest. The bill 
designates the Mississippi Hills Heritage Area Alliance as the 
management entity. The Alliance is a non-profit organization registered 
by the State of Mississippi, with the cooperation and support of the 
University of Mississippi. The bill provides for the development of a 
management plan that would inventory resources of the area, recommend 
conservation measures, identify sources of funding, and consider public 
involvement mechanisms.
    The bill would authorize Mississippi Hills National Heritage Area 
to promote and help conserve a number of important natural and cultural 
resources. Included within its proposed boundaries are the sites of 
important Civil War battles, the birthplaces of a number of noteworthy 
Americans, the first public college for women in the United States, the 
Mississippi University for Women, and Rust College, founded in 1866, 
which is one of the oldest black colleges in the United States. The 
proposed Mississippi National Heritage Area would encompass the Natchez 
Trace Parkway; the Holly Springs and Tombigbee National Forests; the 
Sardis, Enid, and Grenada Lakes; the Strawberry Plains State Audubon 
Center; the Tishomingo State Park; and the Noxubee National Wildlife 
Refuge.
    Mr. Chairman, the Department is prepared to work with the 
subcommittee on amending S. 2254 to authorize a feasibility study for a 
Mississippi Hills National Heritage Area, in the State of Mississippi.
    This concludes my prepared remarks. I would be pleased to answer 
any questions you or any members of the Subcommittee may have.
                         s. 2329 and h.r. 2627
    Mr. Chairman and members of the committee, thank you for the 
opportunity to appear before you to present the views of the Department 
of the Interior on S. 2329 and H.R. 2627, bills to establish the Thomas 
Edison National Historical Park as the successor to the Edison National 
Historic Site.
    The Department supports enactment of these bills.
    Thomas Alva Edison was a prodigious inventor who revolutionized how 
the Nation communicated, harnessed and distributed power, and 
translated pure technology into commercial products. Edison National 
Historic Site, located in West Orange, New Jersey, was Thomas Edison's 
second research and development facility. After closing his first 
operation in Menlo Park, Edison established the West Orange laboratory 
in 1887. The hub of Edison's manufacturing operations until his death 
in 1931, the laboratory was the most productive of all in terms of 
sheer quantity of inventions. In fact, more than half of Edison's 1,093 
U.S. patents were developed at this location including his improved 
phonograph, the nickel-iron-alkaline battery, and a fluoroscope used in 
the first x-ray operation in America. It was here, too, that Edison 
established his motion picture studio, the ``Black Maria'', in 1893.
    In 1962, Congress designated the Edison Laboratory National 
Monument and Edison Home National Historic Site as the Edison National 
Historic Site. Glenmont, the home Edison purchased in 1886, and lived 
in with his second wife, Mina Miller Edison, is located in nearby 
Llewellyn Park. The 29-room mansion is built of wood, brick and stone 
and typifies the eclectic Queen Anne style popular in the 1880s and 
1890s. Both Edison and his second wife are buried behind Glenmont.
    S. 2329 and H.R. 2627 would redesignate the Edison National 
Historic Site as the Thomas Edison National Historical Park. We believe 
this redesignation to be appropriate for two main reasons. First, the 
term ``National Historical Park'' generally applies to parks that 
extend beyond single properties or buildings. This unit of the National 
Park System includes both the laboratory in West Orange and the 
separate home established by Edison in nearby Llewellyn Park, one mile 
away. They are two distinct units with different interpretive themes, 
resource management issues, and operational challenges.
    Second, with completion of the current rehabilitation project at 
the laboratory complex, the unit's complexity will increase and the 
term ``National Historic Site'' no longer adequately reflects the 
nature of the various themes that will be interpreted to serve the 
expected increase in visitation. Educational and interpretive programs 
linking the laboratory and the Edison home will become more 
sophisticated and are better represented by the term ``National 
Historical Park'' to reflect these non-contiguous parcels with a shared 
link to Thomas Edison.
    Mr. Chairman, this concludes my statement and I will be happy to 
answer any questions that you or members of the Committee may have.
                                s. 2512
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today to present the views of the 
Department of the Interior on S. 2512, a bill to establish the 
Mississippi Delta National Heritage Area in the State of Mississippi.
    The Department cannot support S. 2512 unless the bill is amended to 
be a feasibility study for a Mississippi Delta National Heritage Area. 
The Department believes that a feasibility study should be required for 
every proposed national heritage area and the study should be evaluated 
against our interim criteria before designation. The standards for 
evaluating areas proposed for national designation are an essential 
element prior to establishing a national heritage area. A study should 
be prepared that demonstrates evidence of place-based resources that 
tell a nationally important story, which has the support and 
involvement of the local community.
    Various congressionally mandated studies have previously gathered 
information on the Mississippi Delta region, including the Lower 
Mississippi Delta Region Heritage Study and the Mississippi River 
Corridor Study. While these studies have confirmed the importance and 
significance of the Mississippi Delta region, they were undertaken 
before generally accepted criteria for designating heritage areas had 
been established, and were directed at a much larger region than the 
area encompassed by this bill.
    The Department is willing to provide advice or assistance in the 
completion of a study that meets applicable standards and provides 
Congress with the necessary information and assessment upon which to 
base its decision regarding designation in the future.
    With 37 national heritage areas designated across 27 states, and 
more heritage area legislative proposals forthcoming, the 
Administration believes it is critical for Congress to enact national 
heritage area program legislation. This legislation would provide a 
much-needed framework for evaluating proposed national heritage areas, 
offering guidelines for successful planning and management, clarifying 
the roles and responsibilities of all parties, and standardizing 
timeframes and funding for designated areas. Program legislation would 
also clarify the expectation that heritage areas would work toward 
self-sufficiency by outlining the necessary steps, including 
appropriate planning, to achieve that goal.
    The Mississippi River's role as a major transporter of goods and 
people has long influenced the Delta's history and character. Since the 
earliest days of human habitation, the Mississippi River has been 
essential for transportation, communication, and commerce. The river 
and associated ecosystems are part of North America's largest wetland 
area and provide habitat for a wide variety of flora, fauna, and 
aquatic species. Archeological sites across the Delta attest to the 
thousands of years of human occupation. The Mississippi Delta's 
cultural traditions are rich and diverse; it is a land of converging 
cultures. The Delta has also been the site of a number of important 
historic events, such as the Great Flood of 1927 and the Civil Rights 
Movement.
    S. 2512 would establish a Mississippi Delta National Heritage Area 
along the lines outlined in the Lower Mississippi Delta Region Heritage 
Study, but covering a substantially smaller area, located entirely in 
the State of Mississippi. It would include some 18 counties in the 
State located within the alluvial floodplain of the Mississippi River. 
It would also encompass the Delta National Forest.
    The bill designates the Mississippi Delta National Heritage Area 
Partnership as the coordinating entity of the heritage area. The 
Partnership is to be governed by a board of directors composed of 15 
members. The members are to be appointed by various entities, including 
the Governor; various universities, councils, and commissions; and 
County boards from the heritage area.
    Mr. Chairman, the Department is prepared to work with the 
subcommittee on amending S. 2512 to authorize a feasibility study for a 
Mississippi Delta National Heritage Area.
    This concludes my prepared remarks. I would be pleased to answer 
any questions you or any members of the Subcommittee may have.

    Senator Akaka. Thank you very much, Director Stevenson. 
Secretary Scarlett, with respect to the Kalaupapa bill and just 
to make sure I understand your position. The Park Service 
doesn't oppose a memorial at the park, but you think it should 
be built somewhere in the Kalaupapa community and not in a more 
remote area of the park. Is that correct?
    Ms. Scarlett. Senator, as I noted, we certainly support the 
purposes of the bill and acknowledge the importance of the 
memorial. We want to affirm that we think it's important that 
the Secretary have final approval on the location. There are 
considerations such as access by the public to the memorial 
which we think at the Kalaupapa settlement might be more 
feasible than elsewhere.
    But we certainly would like to work with you as we move 
forward should this bill pass and the memorial actually be 
constructed.
    Senator Akaka. I understand that there may be concerns that 
the Park Service has already made up its mind about where the 
memorial should be located. From what you just said, we can 
still work on it.
    Ms. Scarlett. We would very much like to work with you on 
that, yes. I do want to, again affirm, the Park Service 
operating the many units that it has always is concerned about 
public access, and that certainly has resulted in their having 
some thoughts on this that we'd like to work with you on.
    Senator Akaka. There are some considerations that we want, 
for the reasons that we want to keep it open. That is that a 
group called Ka `Ohana O Kalaupapa has recommendations into the 
consideration of the place. The specific details of the 
memorial and especially if they are responsible for financing 
and building the memorial we'd like to certainly keep that open 
and work together on that.
    Secretary Scarlett, my next question is on S. 2262 and the 
Preserve America Program. Section 103 of that bill states that 
marketing projects are one of the activities eligible to 
receive a grant to the Preserve America Program. Could you 
explain why marketing research and plans are an appropriate use 
of limited historic preservation funds and could those funds be 
better spent preserving nationally significant structures?
    Ms. Scarlett. Senator, the Preserve America Program 
complements other historic preservation programs that invest in 
protecting buildings, bricks and mortars and so forth, and one 
of the key purposes of Preserve America is to link historic 
structures in places through economic development and through 
heritage tourism. A key part of that is serving and 
inventorying places, creating signage and then doing other 
activities that make people aware of the opportunities, for 
example, to come to and visit historic places in a community.
    So we have done several rounds of grants. We have five 
categories. Marketing is one of them.
    But marketing is very much tied to adaptive re-use of 
locations, weaving them into the economic opportunities of 
those communities. I think that is an unfulfilled or otherwise 
unmet need with respect to Federal resources for these 
nationally important places.
    Senator Akaka. Ms. Stevenson, in your testimony, S. 2254. 
On this 2254, you state that you cannot support designation of 
the Mississippi Hills Heritage Area until a feasibility study 
is first completed. My understanding is that the Mississippi 
Hills Heritage Area Alliance has completed a strategic plan for 
the proposed area.
    Has the Park Service reviewed this plan? Do you know 
whether it meets the standards for heritage area studies?
    Ms. Stevenson. Sir, we have reviewed the plan. It does not 
meet the criteria. As you know, the criteria for heritage areas 
have a requirement to have several components. I believe there 
are seven elements that are identified as heritage area 
components.
    Those heritage area components make up things like the 
significance, the individual significance of nationally 
significant areas. It talks about the boundaries of a heritage 
area. It talks about the financial feasibility. It talks about 
the involvement, the community involvement, and other elements 
like that.
    The strategic plan presented for the Mississippi Hills 
National Heritage Area doesn't really cover all of those areas. 
So we can't evaluate clearly whether or not it meets the 
criteria for a National Heritage Area. The study that we 
propose would meet such a criteria. We'd be very happy to work 
with the Mississippi Hills supporters in order to help them 
develop such a study.
    Senator Akaka. After now that you've reviewed it, let me 
ask what additional information could a feasibility study 
provide that is not included in the alliance's strategic plan?
    Ms. Stevenson. I talked about those seven criteria. Those 
are the ones that are essential to be covered. I haven't myself 
read the strategic plan, so I can't identify for you which of 
those is missing in the plan.
    But it's a study of 30 counties. So it's a pretty big area 
to be studied. We'd have to focus on what makes the area of 
national significance, what specific sites lead to that 
national significance, and how they would be developed along 
with an economic plan, a marketing study, and a financial plan.
    Senator Akaka. My final question is on S. 2207, the Green 
McAdoo School study. As you know approximately ten years ago 
the National Park Service completed a special resource study 
regarding Charleston, Arkansas. Subsequently, Congress 
designated Charleston a national commemorative site to 
recognize the Charleston School District as the first 
previously segregated public school district to integrate 
following the Supreme Court's decision in Brown vs. the Board 
of Education.
    What do you expect to add to the story of school 
integration with the Green McAdoo School Study?
    Ms. Stevenson. Senator, in Charleston, the Charleston 
School Study showed that in 1954, the Charleston School Board 
willingly allowed black students to attend the school. So that 
was a very early recognition of the significance of 
integration. In the Green McAdoo School situation, initially 
the community opposed integration. They sued to keep 
integration from happening.
    In 1952 the Federal judge, Federal Judge Taylor, upheld the 
local school board and determined that the school would not 
have to be integrated. Then when Brown vs. the Board of 
Education passed, the U.S. Court of Appeals reversed Judge 
Taylor's determination and returned it to the Federal district 
court. The school board delayed opening the school in 1955 and 
then finally Judge Taylor told them they would have to 
integrate the school.
    So when that happened, as Senator Alexander said, the 
school board acquiesced. In the fall term of 1956, the school 
was integrated. So the significance of the McAdoo School has to 
do with the implementation of the Brown vs. the Board of 
Education by the Federal courts as opposed to the Charleston 
Schools, which willingly went along and obviously did a very 
noble thing in doing that without any Federal pressure.
    But they're two different kinds of sides of the coin of the 
Federal Government taking an active role in making sure that 
the Supreme Court decision was upheld. So they will be compared 
and contrasted.
    Senator Akaka. Thank you very much for your responses.
    Ms. Stevenson. You're welcome.
    Senator Akaka. Senator Burr.
    Senator Burr. Thank you, Mr. Chairman. Ms. Scarlett, how 
much funding does Congress typically appropriate for each of 
the programs? I'm referring to America's Treasures and Preserve 
America's----
    Ms. Scarlett. Senator, that has varied over time. The 
Preserve America Program is new. The overall initiative began 
in 2003 with the President's Executive Order on Preserve 
America. The funding by the appropriators of grants did not 
begin until about 2 years ago. So I believe total funding to 
date has been approximately $13 million, so, incrementally the 
grant program has gotten larger over the last several years.
    Save America's Treasures, which got underway in 1998-99, 
has had a longer track record. We have several hundred, $260 
plus million that have been expended for the purposes of 
restoring buildings of historic significance.
    Senator Burr. The purpose of this is the permanency of the 
two programs.
    Ms. Scarlett. That's correct.
    Senator Burr. Ok, great. Ms. Stevenson, S. 1633, about the 
Shepherdstown, West Virginia feasibility study. How much of the 
proposed area remains currently undeveloped and in a condition 
to accurately interpret its significance?
    Ms. Stevenson. The Civil War sites report of 1993 said that 
it was a priority three site, which means that it's important, 
but that the integrity is fair. However, the core to the 
property, which is 17 acres, I understand is significantly more 
preserved than some of the rest of the property. So that would 
be the highest priority.
    Senator Burr. Is any of that property currently owned by 
the Department of the Interior?
    Ms. Stevenson. I don't believe so.
    Senator Burr. Ok.
    Ms. Stevenson. But I would have to provide an answer to you 
after.
    Senator Burr. It's my hope we will handle that 
expeditiously. If I could move to S. 2329. What's the advantage 
to being designated a national historic park instead of a 
national historic site?
    Ms. Scarlett. Senator, in the National Park System we have 
a number of different kinds of designations, and typically a 
National Park is a site with greater complexity, multiple 
sites, multiple buildings, multiple interpretive stories to 
tell, whereas something designated as a National Historic Site 
would be a single location.
    In the particular instance of the Edison Legacy with the 
residence and the lab, it really aligns with our definition of 
a park in that it is two units, two separate sets of 
infrastructure and we believe that it gives it both an elevated 
recognition and also recognition of the extent of history at 
that particular site and the multiple stories told there.
    Senator Burr. Just because somebody has to ask this 
question. Has the Park Service run the numbers on what it will 
cost just to change the signage to re-designate it a national 
park vs. a national historic site?
    Ms. Scarlett. I'm sure we can get you those numbers, but we 
strive to be extraordinarily efficient at our signage. So we'll 
let you know what that costs.
    Senator Burr. I'm sure you will. I would appreciate it just 
for the record.
    Ms. Scarlett. We will get that for you.
    Senator Burr. Senator Akaka and I would expect to be asked 
that at some point or for somebody to look for that in the 
testimony today.
    S. 2512, the Mississippi Delta National Heritage Area 
designation. I heard what you said and the need for a study. 
Let me ask you how many American Heritage Areas currently exist 
and how many of those were designated without a study?
    Ms. Stevenson. I don't know the correct answer to how many 
are presently designated although I'm sure I could look that 
up.
    Ms. Scarlett. Senator, there are 37.
    Ms. Stevenson. Thirty-seven.
    Senator Burr. Thank you.
    Ms. Stevenson. Ok. How many were designated without a 
study? Very few.
    What happened early on was that as we were developing the 
criteria for heritage areas the studies that were produced, and 
they were probably in the first few heritage areas that were 
done, led the way for us to understand what kind of criteria 
were necessary. Once those areas were designated, we began to 
work actually with the Senate in trying to identify which 
criteria were the elements that needed to be studied. We then 
took the stand that unless the potential heritage areas met all 
of the criteria, we would oppose them. So I think it's a very 
small number that have been designated without meeting the 
criteria.
    Ms. Scarlett. Senator, I believe that it's about, three.
    Senator Burr. Yes, I asked the question for a very specific 
reason because I wanted to hear the Service restate exactly 
what collectively we were after. That's a set of guidelines for 
the future. The purpose of guidelines are not to find new ways 
to circumvent them, but to encourage everybody that if they 
want to have that designation to go through that study so that 
we can fully understand the value of it, the need for it.
    More importantly we can cherish, you know, that it's part 
of the inventory because we did our homework first. So I thank 
you for restating those guidelines.
    Ms. Scarlett. Thank you, Senator.
    Senator Burr. H.R. 3998, the Special Resource Study on 
certain lands. The bill directs the Secretary of the Interior 
to conduct special resource studies on nine sites, a combined 
nine separate House bills and a single piece of legislation. 
I've received emails and calls from private property rights 
groups expressing concern on one of the provisions, the Rim of 
the Valley Corridor Study. Specifically what role will the 
public have in the studies authorized by 3998?
    Ms. Stevenson. The National Park Service has very strong 
guidelines on public involvement. We are going to involve the 
public at great length in any study that's authorized. As you 
know, Santa Monica Mountains has an enormous amount of land. I 
think it's more than 50 percent that's privately owned within 
its boundaries.
    We acquire land only from willing sellers. Even if we were 
to authorize it as a unit of the National Park System, we are 
committed to hearing the public and to working with them.
    In the area now designated within Santa Monica Mountains, 
the property owners are very supportive. They found that it's 
led to a quality of life that supports the type of life they 
want. We would like to keep the relationship positive with them 
as well as with any potential landowners within a new boundary.
    Senator Burr. So I could take from that that they will be 
notified of the studies. More importantly, any comments they 
would like to make would be submitted as part of the record?
    Ms. Stevenson. Yes, sir.
    Senator Burr. Thank you. Mr. Chairman, let me say my lack 
of questions on any other piece of legislation is not 
indicative of any lack of support. It's my belief that those 
who have presented and the pieces of legislation we have before 
us are relatively easy for us to look at and understand that 
this is something that we should do.
    There are several that I think the Park Service and the 
Interior have expressed concerns on. I think the committee 
should take that to heart as we decide how we proceed. But I 
certainly look forward to expeditiously handling many of these 
pieces of legislation. I thank the Chair.
    Senator Akaka. Thank you, Senator Burr. It's correct that 
we're asking these questions to understand what your testimony 
is all about. We will certainly try to move this as 
expeditiously as we can.
    So, I want to thank both of you very much for your 
testimonies today. You've been very helpful for the committee. 
Thank you.
    Ms. Scarlett. Thank you.
    Ms. Stevenson. Thank you very much.
    Senator Akaka. Now I'd like to call on our next panel. I 
want to welcome Honorable Jim Surkamp, Commissioner, Jefferson 
County Commission, Charles Town, West Virginia. Welcome.
    Yes, and Richard Moe, President, National Trust for 
Historic Preservation. Welcome. We look forward to your 
testimony. Commissioner, will you please begin.

 STATEMENT OF JAMES T. SURKAMP, COMMISSIONER, JEFFERSON COUNTY 
                  COMMISSION, CHARLES TOWN, WV

    Mr. Surkamp. Ok. I'm here today to speak not only for 
myself, but for the other county commissioners in Jefferson 
County. I'd like to add my voice to such renowned historians as 
James McPherson to preserve a pivotally important, pristine, 
but endangered battlefield, called the Shepherdstown 
Battlefield.
    The 2-day battle of Shepherdstown, just 2 days after the 
bloodiest day of American military history at Antietam and 
Sharpsburg, had a major impact on the outcome of the Civil War 
that far exceeded its tactical implications. Instead of 
continuing with the plan to re-invade Maryland and fight on, 
General Robert E. Lee, ordered his army south and what the 
world saw as a defeat. The world included the governments of 
England and France, who were likely to recognize the 
Confederacy if a military victory could have been accomplished.
    Moreover, Lee's retreat on September 20, 1862, convinced 
President Abraham Lincoln. He did indeed finally have, the 
battlefield victory that he believed was a necessary 
precondition for the announcement of the Emancipation 
Proclamation. What America stood for was thus changed forever.
    By many historians the army of Northern Virginia, September 
1862, Maryland campaign, is regarded as the most pivotal and 
perhaps turning point of the Civil War. The campaign involved 
three battles: South Mountain in Maryland on September 14, 
Antietam and Sharpsburg on the 17th and Shepherdstown and then 
Virginia on September 19 and 20. The campaign's goal was two 
fold. A major military victory in the North might No. 1, 
convince the citizens of Maryland to secede from the United 
States. Two, obtain recognition of the Confederate governments 
legitimacy from England and France.
    Moreover, President Abraham Lincoln was hoping for a 
victory by General George McClellan's Army of the Potomac so 
that he would be able to announce the aforesaid Emancipation. 
After the Battle of Antietam General Lee ordered the Army of 
Northern Virginia to retreat across back into Virginia, across 
the Potomac River at Bottler's Ford about a mile from 
Shepherdstown. It was his intention to continue the Maryland 
campaign by re-entering Maryland by crossing the river at 
Williamsport further up the river.
    He ordered General Jeb Stuart's cavalry to ford the river 
at Williamsport and to screen the fort from Union observation. 
In two dispatches to Jefferson Davis, General Lee revealed his 
intention to ford the river at Williamsport and continue the 
Maryland campaign. However, early on the afternoon of September 
19, General Lee left Major General William Pendleton on the 
bluffs overlooking Bottler's Ford with 34 artillery pieces and 
about 600 infantry to cover the retreat and guard the movement 
of Lee's army through Martinsburg, Virginia to the ford at 
Williamsport.
    Pendleton had never commanded troops in battle. When the 
Union artillery devastated his gunners and the Union infantry 
started to cross the Potomac, he panicked. He left the 
battlefield looking for help and found Lee near midnight.
    His report was that he had lost all his artillery and the 
Union army had captured the south bank of the Potomac. 
Ironically, his troops were better behaved than their commander 
and 30 artillery pieces were saved. While the Confederates had 
retreated from the Potomac, the Union forces after capturing 
South Bank returned to the Maryland side in the early evening.
    This is a battle that involved famous generals. Lee ordered 
General Stonewall Jackson to send troops back to the ford. He's 
refocusing away from Williamsport. Jackson was to stem the tide 
of the Union army. Jackson with A.P. Hill and his light 
division consisting of numerous units from North Carolina and 
South Carolina started a march to the forded dawn on September 
20.
    At about the same time the Union army sent 3,000 troop 
reconnaissance and force south of the river in order to locate 
the Confederate Army. The two armies clashed at about 10 a.m. 
approximately a mile and a half south of the river. The Union 
Army was out manned by two to one and began a retreat back 
toward the river. Two armies fought for 5 hours as the Union 
troops made their way back to Maryland. In total about 9,000 
troops took part in the Battle of Shepherdstown incurring 677 
casualties equally divided.
    What is the importance of the Battle of Shepherdstown? It's 
not just because it was the most important Civil War battle in 
the State of what was now called West Virginia. The 
consequences of the Battle of Shepherdstown are far more 
important for the entire Nation than just the military action. 
This is because Lee believed Pendleton's report and assumed he 
was being pursued aggressively by General McClellan.
    The Confederate Commander changed his plans. On September 
20 orders his troops south toward Winchester. Had he not 
revised his plan, a way for him to go back into Maryland, the 
Battle of Gettysburg might have occurred in September of 1862 
with a vastly different result compared with a year later.
    In 1862 Stonewall Jackson is still alive. Jeb Stuart's 
cavalry was in the right place and Lee's opponent would have 
been the ever cautious General McClellan. Perhaps the 
Emancipation Proclamation would have been delayed or never 
issued by Lincoln.
    As a result the Battle of Shepherdstown, Maryland remained 
a border State. England and France did not recognize the 
Confederacy. Abraham Lincoln announced the Emancipation 
Proclamation.
    About 4 years ago the Shepherdstown Battlefield Association 
was formed with support from numerous historians such as Mr. 
McPherson to save and protect about one half of the 
Battlefield's 640 acres. Conservation easements have been 
placed on 84 acres of the site that are owned by members of the 
SBPA. Two years ago a transportation enhancement grant of 
$100,000 was secured to help purchase battlefield land.
    The Civil War Preservation Trust agreed to provide matching 
funds. As I said earlier the Jefferson County Commission 
believes very strongly in preserving this pristine battlefield 
amidst a lot of growth pressures, allocated 100,000 to help 
purchase the Battlefield. Thank you for the opportunity.
    [The prepared statement of Mr. Surkamp follows:]
Prepared Statement of James T. Surkamp, Commissioner, Jefferson County 
                      Commission, Charles Town, WV
                              introduction
    The two-day Battle of Shepherdstown--just days after the bloodiest 
day in American military history at Antietam--had a major impact on the 
outcome of the Civil War that far exceeded its tactical implications. 
Instead of continuing with a plan to re-invade Maryland and fight on, 
General Robert E. Lee ordered his army south in what the world saw as a 
defeat. The world included the governments of England and France which 
were likely to recognize the Confederacy, if a military victory could 
have been accomplished. Seeing Lee retreat on September 20, 1862 
convinced President Abraham Lincoln that he did, indeed, finally have 
the battlefield victory that he believed was a necessary precondition 
for the announcement of the Emancipation Proclamation. What America 
stood for was thus changed forever.
                         the maryland campaign
    By many historians, the Army of Northern Virginia's September 1862 
Maryland Campaign is regarded as the most pivotal, and, perhaps the 
turning point of the Civil War. The Campaign involved three battles: 
South Mountain on September 14; Antietam on September 17; and, 
Shepherdstown on September 19-20. The campaign's goal was two-fold. A 
major military victory in the north might: 1) convince the citizens of 
Maryland to secede from the United States; and, 2) obtain recognition 
of the Confederate government's legitimacy from England and France. 
President Abraham Lincoln was hoping for a victory by General George 
McClellan's Army of the Potomac so that he would be able to announce 
the Emancipation Proclamation.
    After the Battle of Antietam, Lee ordered the Army of Northern 
Virginia to retreat across the Potomac River at Boteler's Ford, about 1 
mile east of Shepherdstown. It was his intention to continue the 
Maryland Campaign by reentering Maryland by crossing the river at 
Williamsport. He ordered JEB Stuart's cavalry to ford the river at 
Williamsport and to screen the ford from Union observation. In two 
dispatches to Jefferson Davis, Lee revealed his intention to ford the 
river at Williamsport and continue the Maryland Campaign. These 
dispatches can be found in The WAR OF THE REBELLION: A Compilation of 
the Official Records of the Union And Confederate Armies. Series I--
Volume XIX, Part I--Reports.
    Late on the afternoon of September 19, Lee left Major General 
William Pendleton on the bluffs overlooking Boteler's Ford with 34 
artillery pieces and about 600 infantry to cover the retreat and guard 
the movement of Lee's army through Martinsburg to the ford at 
Williamsport. Pendleton had never commanded troops in battle and when 
the Union artillery devastated his gunners and the Union infantry 
started to cross the Potomac, he panicked. He left the battlefield 
looking for help and found Lee near midnight; his report was that he 
had lost all his artillery and the Union Army had captured the south 
bank of the Potomac. Ironically, his troops were better behaved than 
their commander and 30 artillery pieces were saved. And, while the 
Confederates had retreated from the Potomac, the Union forces, after 
capturing the south bank returned to the Maryland side in the early 
evening.
    Lee ordered General ``Stonewall'' Jackson to send troops back to 
the ford to stem the tide of the Union Army. Jackson, with A.P.Hill and 
his ``Light Division'' started a march to the ford at dawn on September 
20. At about the same time, the Union Army sent a 3000 troop 
reconnaissance in force south of the river in order to locate the 
Confederate Army. The two armies clashed at about 10:00AM, 
approximately 1 1/2 miles south of the river. The Union Army was out-
manned by about 2 to l and began a retreat back toward the river. The 
two armies fought for about 4-5 hours as the Union troops made their 
way back to Maryland. In total, about 9,000 troops took part in the 
Battle of Shepherdstown incurring 677 casualties about equally divided 
between the two armies.
                               conclusion
    The importance of the Battle of Shepherdstown is not just because 
it was the most important Civil War battle fought in what was to become 
the state of West Virginia. The consequences of the Battle of 
Shepherdstown are far more important for the entire nation than just 
the military action. Lee, because he believed Pendleton's report, 
assumed that he was being pursued aggressively by McClellan. The 
Confederate commander changed his plans and, on September 20, ordered 
his troops south toward Winchester. Had he not revised his plan, the 
Battle of Gettysburg might have occurred in September 1862 with a 
vastly different result when compared with July 1863. In 1862, 
``Stonewall'' Jackson was still alive, JEB Stuart's cavalry was in the 
right place, and Lee's opponent, would have been the ever-cautious 
McClellan. Perhaps the Emancipation Proclamation would have been 
delayed or never issued by Lincoln.
    As a result of the Battle of Shepherdstown: 1) Maryland remained a 
border state within the Union; 2) England and France did not recognize 
the Confederate government; and, 3) Abraham. Lincoln, with the total 
withdrawal of the Army of Northern Virginia could claim a Union victory 
and announce the Emancipation Proclamation.
                        battlefield preservation
    About 4 years ago, the Shepherdstown Battlefield Preservation 
Association Inc. (SBPA) was formed to save and protect about one-half 
of the battlefield's 640 acres. Conservation easements have been placed 
on 84 acres of the site that are owned by members of SBPA. In 2006, a 
Transportation Enhancement Grant of $100,000 was secured to help 
purchase battlefield land and the Civil War Preservation Trust agreed 
to provide the matching funds. In addition, last year, the County 
Commission of Jefferson County allocated $100,000 to help purchase 
battlefield land.

  STATEMENT OF RICHARD MOE, PRESIDENT, THE NATIONAL TRUST FOR 
                     HISTORIC PRESERVATION

    Mr. Moe. Thank you, Mr. Chairman. My name is Richard Moe 
and I'm the President of the National Trust for Historic 
Preservation. I appreciate your ongoing commitment to historic 
preservation, Senator, in particular your leadership for the 
Tomb of the Unknowns.
    Senator Burr, thank you for your leadership, the commitment 
to the historic preservation and for your sponsorship of this 
bill that I'm speaking about today, S. 2262 that would 
authorize both the Preserve America and the Save America's 
Treasures Programs. I also wanted to thank Senator Bingaman and 
others who have joined in supporting this legislation.
    The National Trust joins the Administration in supporting 
this measure and is very grateful to Senators Clinton and 
Domenici for their leadership in sponsoring the bill. Let me 
just say from the outset that while each of these historic 
preservation initiatives apply to projects of a different 
nature, Save America's Treasures for bricks and mortar and 
Preserve America for heritage education and outreach, it's very 
important in my view that they should be seen as mutually 
supportive and complementary of each other in order to maximize 
Federal resources and goals in saving the Nation's historic 
assets. We already know that Preserve America and Save 
America's Treasures are working together at specific locations 
throughout the country. This is as it should be. As Secretary 
Scarlett so ably apprised you of this Administration's new 
program, Preserve America and the National Trust is a principle 
private partner of Save America's Treasures.
    I'm just going to say a few words this morning, this 
afternoon about Save America's Treasures. It's correct to 
assume however that a very large inventory of Save America's 
Treasures bricks and mortar recipients would benefit greatly 
from Preserve America awards that provide funds for the 
planning process needed to qualify for Save America's Treasures 
support and essential education and outreach activities to 
increase the value of Save America's Treasures funded 
restoration. Save America's Treasures was established a decade 
ago as has been stated.
    It had been basically to celebrate the millennium and to 
highlight the importance of history as we entered the 21st 
century. With broad bipartisan support in Congress and the 
leadership of two first ladies initiated by the Clinton 
Administration and continued by the Bush Administration, Save 
America's Treasures has provided more than $264 million in 
Federal challenge grants to 1,024 historic preservation 
projects through 2007. These funds have helped to bring new 
life to irreplaceable historic treasures including buildings, 
documents and works of art in virtually every State, the 
District of Columbia and Puerto Rico.
    Each dollar from Washington is matched one for one by non-
Federal contributions in every one of these projects. Creative 
partnerships are the backbone of Save America's Treasures. 
Enable it to leverage millions of additional dollars from 
foundations, corporations, and individuals. That has literally 
made the difference in saving hundreds of historic sites and 
collections around the country.
    Now with all of this tremendous success and support, 
however, Save America's Treasures and Preserve America are 
unauthorized and funded on a year to year basis through the 
annual appropriations process. So the national trust and the 
Administration and others would like to see Congress authorize 
these two programs with a long term programmatic and funding 
vision that would enable both programs to work in harmony with 
the other components of the national historic preservation 
program, which as you know is quite extensive. Authorization 
would qualify the successful implementation and practices of a 
10-year-old initiative along with its newer partner. I think 
this is a step in the right direction.
    Now there are many examples of wonderful Save America's 
Treasures projects all over the country. But I picked out one 
here that I wanted to tell you about. I just picked the State 
at random.
    This happens to be in Hawaii, Senator Akaka. I know you're 
familiar with this project. It's Kawaiahao, if I have that 
correct. If I don't I know you'll correct me.
    But this is 1842 church, known as the West Minister Abbey 
of Hawaii. It's the first Christian Church in Hawaii. It 
received a $500,000 Save America's Treasures grant just last 
year for its archives and its collection. That's illustrative 
of the kind of grants that have been made throughout its 
history. Save America's Treasures and Preserve America really 
reflect in my view, the bipartisan commitment that is 
characterized historic preservation policy in Congress and the 
White House over the years. I think that's as it should be.
    SAT was created during a democratic administration and 
embraced by the Bush Administration and Congressional 
Republicans. Likewise, Preserve America was created during a 
Republican Administration. It's now supported by members up 
here on both sides of the aisle. This is the strongest possible 
signal that authorizing both programs makes sense when 
bipartisanship is sometimes an elusive quality.
    With your permission, Mr. Chairman, I'm attaching to my 
written remarks a more comprehensive description of the 
statistical information on these programs. Thank you.
    [The prepared statement of Mr. Moe follows:]
 Prepared Statement of Richard Moe, President, The National Trust for 
                         Historic Preservation
                                s. 2262
    Mr. Chairman and members of the Subcommittee, good morning. My name 
is Richard Moe and I am the President of the National Trust for 
Historic Preservation. For more than 50 years, the National Trust has 
been helping to protect the nation's historic resources as a 
Congressionally chartered, private, nonprofit membership organization 
dedicated to protecting the irreplaceable. Recipient of the National 
Humanities Medal, the Trust provides leadership, education, and 
advocacy to save America's diverse historic places and revitalize 
communities. With over a quarter-million members and thousands of local 
community groups in all 50 states, the Trust is the leader of a 
vigorous preservation movement that is saving the best of our past for 
the future. Its mission has expanded since its founding in 1949 just as 
the need for historic preservation has grown. When historic buildings 
and neighborhoods are torn down or allowed to deteriorate, we not only 
lose a part of our past forever, we also lose a chance to revitalize 
our communities.
    I am here to speak to you today about S. 2262 that would authorize 
both the Preserve America (PA) and Save America's Treasures (SAT) 
programs. The National Trust supports this measure and is grateful to 
Senators Clinton and Domenici for their leadership in sponsoring the 
bill. Let me say from the outset that, while each of these historic 
preservation initiatives apply to projects of a different nature--SAT 
for ``bricks and mortar'' preservation and PA for heritage education 
and outreach, it is important that they should be mutually supportive 
of each other to maximize federal resources and goals in saving the 
nation's historic assets. I am particularly pleased that Sections 
103(c) and 102(c)(2) of S. 2262 would foster and encourage this 
partnership where it is suitable.
    We already know that PA and SAT are working together at specific 
locations throughout the country. Since Ms. Scarlett so ably apprised 
you of the Administration's program, and the National Trust is the 
leading private sector partner in SAT, my statement will focus on the 
latter. But, it is correct to assume that a very large inventory of SAT 
bricks and mortar recipients would benefit greatly from Preserve 
America awards that provide funds for the planning process needed to 
qualify for SAT support and essential education and outreach activities 
to increase the value of a SAT-funded restoration. This relationship 
between both programs heightens the power of Federal funding to 
leverage additional resources and enable history to come alive through 
the natural relationship between preservation of buildings or artifacts 
and informing the public about these resources.
    SAT was established a decade ago to celebrate the millennium and 
highlight the importance of history in marking the 21st century. With 
broad bi-partisan support in Congress and the leadership of two First 
Ladies, initiated by the Clinton Administration and continued in the 
Bush Administration, SAT has provided more than $264 million in federal 
challenge grants to 1,024 historic preservation projects through 2007. 
These funds have helped bring new life to irreplaceable historic 
treasures--including buildings, documents and works of art--in every 
state, the District of Columbia, Puerto Rico and the Midway Islands. 
Each dollar from Washington is matched one-for-one by non-Federal 
contributions in all of these projects.
    Creative partnerships are SAT's backbone and enable it to leverage 
millions of additional dollars from foundations, corporations and 
individuals--this has literally made the difference in saving hundreds 
of historic sites and collections around the country. The original 
thinking behind the program was that raising public awareness and new 
resources for nationally significant preservation projects would 
stimulate a response at the state and local levels and inspire people 
to recognize and support historic and cultural resources in need of 
preservation/restoration. In recognition of its success in fulfilling 
that mission, in 2007, the American Architectural Foundation presented 
its prestigious Keystone Award to the Save America's Treasures 
partnership for its extraordinary efforts to protect and preserve the 
architectural, artistic, and cultural legacy of the United States.
    With all of its tremendous success and support, however, SAT is 
unauthorized and funded from year-to-year though the annual 
appropriations process. The National Trust would like to see Congress 
authorize SAT and PA with a long-term programmatic and funding vision 
that would enable both programs to work in harmony with the other 
components of the national historic preservation program. Authorization 
would codify the successful implementation and practices of a ten-year 
old initiative along with its newer partner, and I think that this it 
is a step in the right direction. While much has been achieved since 
SAT was established, the need remains great and we must look to future 
needs. In just the first eight years of the program, 2,702 grant 
applications were received, representing requests for more than $1.17 
billion in critical preservation assistance. SAT funds have made a huge 
difference, but without Congress' ongoing commitment to the program, it 
would be virtually impossible to stimulate private matching 
contributions and hard to imagine where else the money would come from 
to preserve our national heritage.
    I would like to highlight some of SAT's very timely contributions 
to historic preservation projects that are now receiving a lot of 
attention from Congress related to the National Park Service (NPS) and 
some renewed attention to these places resulting from the upcoming 
centennial. SAT has provided tremendous benefit to iconic NPS sites 
such as Ellis Island, Valley Forge, Gettysburg, Thomas Edison's 
Invention Factory, Mesa Verde, Eleanor Roosevelt's Val-Kill Cottage, 
Longfellow House, Boston's African Meeting House and Dr. Martin Luther 
King's Ebenezer Baptist Church. More than 20 percent of SAT's private 
funding--nearly $12 million--has been designated for NPS historic 
resources in dire need of support beyond what Congress can provide. 
This virtually matches SAT's federal support for our national park 
system. In addition, more than $7 million in SAT matching grants has 
been awarded to over 30 nationally significant religious sites, 
including Boston's famed Old North Church, Touro Synagogue in Rhode 
Island and Socorro Mission in Texas.
    The Save America's Treasures program helps ensure that our legacy 
from the past will remain intact so that future generations can live 
with it, learn from it, and be inspired by it. Its benefits are clearly 
visible in cities, towns and rural areas all over America and it 
continues to be one of the most tangible ways that Members of Congress 
can get directly involved in local preservation projects. Authorizing 
SAT will help ensure that this program will continue to have a 
prominent role in preserving America's historic and cultural treasures. 
In fact, both SAT and PA reflect the bipartisan commitment that has 
characterized historic preservation policy in Congress and the White 
House over the years. SAT was created during a Democratic 
administration and embraced by the Bush Administration and 
Congressional Republicans. Likewise, PA was created during a Republican 
administration and is now supported by Members on both sides of the 
aisle. This is the strongest signal that authorizing both programs 
makes sense when bipartisanship is sometimes an elusive quality.
    The following statistics and examples show why Save America's 
Treasures--both its public and private sides--has become one of the 
most valued and successful preservation partnerships in history. With 
your permission, Mr. Chairman, I am attaching to my written remarks a 
more comprehensive description with statistical information of SAT's 
benefits nationwide. Thank you.
               save america's treasure--program overview
The Value and Contributions of Save America's Treasures
  <bullet> The goal of Save America's Treasures is to create a national 
        preservation ethic by increasing visibility and raising new 
        resources for our national and local treasures. Save America's 
        Treasures shines a spotlight on these treasures in several 
        ways--it designates Official SAT Projects, publicizes and 
        educates the public about our country's unmet preservation 
        needs through various events and media strategies, and 
        generates both private and federal funds to preserve America's 
        treasures. SAT also seeks to educate the public about the 
        benefits that preservation holds as a stimulant to historic 
        tourism and economic development. According to the American 
        Travel Industry Association, heritage tourism is the number one 
        reason Americans give for leisure travel. But the long term 
        effects of this program are much more than economic--SAT seeks 
        to preserve the irreplaceable fragments of our nation's past, 
        so that they may continue to inform and inspire future 
        generations of Americans.
  <bullet> Too many of our nation's historic sites and collections are 
        deteriorating or in danger of being lost to age, exposure, 
        natural disasters, urban sprawl, improper conservation, misuse 
        and even vandalism. These testaments to our rich diverse 
        American experience found in communities across the country 
        urgently require conservation and restoration. Many of these 
        treasures suffer from scant funds and lack of organized 
        interest in the community. Without intervention, their 
        condition will be seriously compromised or they will be lost 
        forever.
  <bullet> Very little funding is available for the kind of bricks and 
        mortar preservation this SAT program provides. And the backlog 
        is enormous--just in the first eight years of the program 
        through 2006, the National Park Service received competitive 
        applications from 2,702 projects totaling requests of $1.17 
        Billion in preservation needs. Through 2007, $264 million had 
        been awarded--a very substantial contribution made much more 
        significant given the matching gifts it stimulated. If lost, it 
        is hard to imagine where comparable funds would come from.
  <bullet> The competitive grants are critically important to the 
        program because they even the playing field, giving an 
        opportunity for support to small and large projects in every 
        size community. They also help ensure the quality of projects 
        receiving federal support because applications are vetted 
        initially by our major cultural agencies, and finally by a 
        panel of preservation experts.
Awards and Events
    SAT's contribution to preserving our national heritage earned the 
recognition of two major national organizations in 2007:

  <bullet> American Architectural Foundation Honors SAT with its 2007 
        Keystone Award February 9th.--At a black-tie gala, The American 
        Architectural Foundation (AAF) presented its 2007 Keystone 
        Award to the Save America's Treasures partnership for its 
        extraordinary efforts to protect and preserve the 
        architectural, artistic, and cultural legacy of the United 
        States. This prestigious award is given annually to an 
        organization or individual outside the profession in 
        recognition of outstanding leadership in the fields of 
        architecture and design. Mrs. Laura Bush sent a congratulatory 
        letter and Senator Hillary Rodham Clinton provided a videotaped 
        message. The head of each partnering agency was on hand to 
        accept the award, and House Appropriations Chair Norm Dicks (D-
        WA) delivered formal remarks on behalf of the public and 
        private partners.
  <bullet> SAT Director Honored with IFDA's 2007 Trailblazer Award May 
        5th.--At the 2007 International Furnishings and Design 
        Association's (IFDA) gala in Atlanta, the prestigious 
        Trailblazer Award was presented to SAT at the Trust Director 
        Bobbie Greene McCarthy for her leadership of SAT's partnership 
        with the design community. She joins a select group of previous 
        honorees including Lady Bird Johnson, Philippe Starck, Adrianna 
        Scalamandre Bitter, Michael Graves and Bob Timberlake. Over the 
        past few years, IFDA and SAT have joined forces on several 
        important projects, including NPS' Eleanor Roosevelt's Val 
        Kill; one of the country's premier women's history sites, the 
        Sewall-Belmont House; and the New Orleans Cemeteries.
Save America's Treasures Generating Public and Private Dollars for 
        Preservation
  <bullet> Thanks to the broad bi-partisan Congressional support for 
        Save America's Treasures, over the past nine years, $264 
        million has been awarded in federal challenge grants to 1024 
        nationally significant preservation projects in every state, 
        Puerto Rico and the Midway Islands. The 2008 round will grant 
        in the coming weeks $25 million more to a few hundred 
        additional projects across the country.
  <bullet> Because the federal program requires a one-to-one match, 
        these grants have leveraged another $264 million in non-federal 
        and private contributions for historic preservation projects 
        across the country.
  <bullet> SAT at the National Trust has raised over $56 million in 
        preservation dollars for 100 federal grantees and other 
        significant preservation projects, often leading the way with 
        private funds subsequently applied to meet a federal challenge 
        grant.
  <bullet> A very substantial part of this effort has benefited 
        National Park Service projects--from Ellis Island to Valley 
        Forge to Edison's Invention Factory, from Mesa Verde and White 
        Grass to George Washington's Tents at Yorktown, from the Sewall 
        Belmont House and Val-Kill Cottage to Ebenezer Baptist Church 
        and Longfellow House. More than 20% (almost $12 million) of the 
        SAT private funding has been designated for NPS sites; and more 
        than $12 million in federal SAT challenge grants has been 
        awarded to national parks.
  <bullet> Each SAT federal grantee is designated an Official Project 
        by SAT at the National Trust and provided the corresponding 
        benefits and public association with this national program.
  <bullet> This grant program, included in the Historic Preservation 
        Fund, is the largest pot of federal money available to address 
        the preservation/restoration needs of our nationally 
        significant sites. In addition, it is unique in also providing 
        support for nationally significant collections: documents, 
        photos, sound recordings and works of art, including the Star-
        Spangled Banner, the personal papers of the Founding Fathers, 
        the New York Philharmonic Leonard Bernstein collection, the 
        Lewis Clark Herbarium Collection, the only existing 
        architectural model of the World Trade Center, and the Apollo 
        Space Program Artifacts. Each of these federal SAT grants 
        provides ongoing opportunities to promote the specific project 
        AND illuminate its chapter in the American story, while raising 
        awareness of the overarching need for responsible stewardship 
        and new resources to preserve our collective memories.
  <bullet> Save America's Treasures at the National Trust, in 
        conjunction with the National Trust's Public Policy and Legal 
        departments, was an integral player in the 2003 lifting of a 
        ban on SAT federal grants to faith-based organizations. Since 
        this announcement and through the 2007 grant round, over 30 
        nationally significant historic projects of a religious nature 
        have been awarded more than $7 million in federal SAT matching 
        grants, including Newport's Touro Synagogue, Boston's Old North 
        Church, and San Antonio's Socorro Mission.
Save America's Treasures Leverages Support and Stewardship in the 
        Private Sector through the Creation of National Partnerships
  <bullet> Thanks to the program's reputation, visibility and broad bi-
        partisan Congressional support, SAT at the National Trust has 
        successfully leveraged invaluable national partnerships through 
        corporations, foundations, and individuals who have supported 
        the program financially, in-kind and/or through media 
        campaigns, shining a national spotlight on the importance of 
        preserving our nation's heritage. Just a few of these include:

    The J. Paul Getty Trust contributed $1 million in matching grants 
        to SAT for critical planning re-grants to 37 Save America's 
        Treasures projects in 29 states. Projects used the money to 
        plan the preservation, conservation and ongoing care of their 
        historic sites, buildings and districts. Many have been 
        subsequently awarded federal SAT grants for the actual 
        preservation/conservation work. (see attached list)

    Polo Ralph Lauren Corporation provided over $10 Million to SAT to 
        conserve the iconic Star-Spangled Banner at the Smithsonian's 
        National Museum of American History. An additional $3 Million 
        in in-kind advertising also was provided to raise awareness for 
        the project and for Save America's Treasures.

    Home & Garden Television has contributed over $2 million to 
        ``Restore America: A Salute to Preservation,'' a dynamic 
        national partnership between HGTV, the National Trust and Save 
        America's Treasures. $1.3 Million of these funds has been 
        awarded directly to preservation efforts at 24 participating 
        Restore America sites, virtually all of which are SAT federal 
        grantees. An additional $3.9 Million has been provided in on-
        air and on-line exposure through HGTV and its parent company, 
        Scripps Networks.

    Restore America Gala: In appreciation of Congress' strong bi-
        partisan support for SAT, the National Trust and HGTV have 
        honored a number of government and congressional leaders as 
        Restore America Heroes at their annual star-studded gala. 
        Honorees have included: Senator Hillary Rodham Clinton and 
        Representative Ralph Regula for their founding support of the 
        program; Senator Mike DeWine and Representative John Lewis for 
        their championship of SAT preservation programs. Each year, SAT 
        Honorary Chair First Lady Laura Bush has also served as the 
        gala's Honorary Chair--except this past year, when she was 
        honored with a Restore America Hero Award for her role as 
        Honorary Chair of both Save America's Treasures and Preserve 
        America and for her work establishing the Texas Main Street 
        program and restoring Texas' historic courthouses. The star-
        studded events have attracted substantial attention to SAT as a 
        model public-private partnership aimed at ensuring a brighter 
        future for our past.

    Procter & Gamble: Ivory Soap announced in September that it would 
        mark its 125th anniversary with an advertising campaign to 
        benefit Save America's Treasures and raise awareness for its 
        work on behalf of our nation's heritage. SAT was featured in a 
        national promotion with 10% of its personal care line sales 
        benefiting SAT at the National Trust. The launch event was 
        widely covered in the press and on television, including Fox 
        News and the New York Post. This is Proctor & Gamble's second 
        national promotion on behalf of Save America's Treasures-the 
        first generated $100,000 and early national exposure.

    Alcoa: Save America's Treasures raised $62,000 from Alcoa to match 
        a Federal SAT grant for the conservation of the only remaining 
        architectural presentation model of the World Trade Center 
        complex. This grant came from the Alcoa Relief Fund established 
        immediately following 9/11. SAT approached Alcoa for the match 
        because of its strong connection to the WTC. In the late 
        1960's, the company designed a new alloy for the building, then 
        under construction, creating a unique aluminum ``skin'' and 
        novel cladding system that gave the Twin Towers their signature 
        shiny, graceful appearance.

    Goldman Sachs & Company has been a model corporate partner to Save 
        America's Treasures' projects. Of particular note, Goldman 
        Sachs is playing an instrumental role in bringing new attention 
        and additional resources to the Weeksville Society, Bedford-
        Stuyvesant's early-19th century settlement built by freed New 
        York slaves. SAT presented the project to Goldman Sachs, which 
        contributed $500,000 and leveraged that contribution for one of 
        equal value from another corporate donor. Then, Save America's 
        Treasures helped the project secure a $400,000 federal SAT 
        matching grant in 2001. In addition, Goldman Sachs remains 
        intimately involved in the project, placing one of its senior 
        partners on Weeksville's Board of Directors and encouraging the 
        city to build a muchneeded community center adjacent to the 
        restored houses. When completed, this complex will breathe new 
        life into a long-neglected but historically significant 
        American community.

    Partners in the Tourism Industry: Save America's Treasures has a 
        strong and productive partnership with Tourism Cares (formerly 
        the Travelers Conservation Foundation). This leading travel 
        industry association and its constituent partners have long-
        recognized the critical relationship between the tourism 
        industry and the preservation of our historic treasures, 
        particularly in our national parks. They are committed to 
        shining a bright spotlight on the work of Save America's 
        Treasures and have provided over $716,000 for such significant 
        SAT projects as Mesa Verde, Valley Forge, Val-Kill, Ellis 
        Island, Lincoln Cottage, Orchard House and the National Trust's 
        Katrina effort. In addition to this financial support, TC and 
        its partners have committed hundreds of volunteers from the 
        tourism industry through annual Tourism Caring for America 
        weekends, planned in cooperation with Save America's Treasures. 
        Each year, an outpouring of enthusiastic volunteers have spent 
        a weekend cleaning, refurbishing and helping to restore some of 
        our most important federal SAT grantees and Parks, including 
        Mesa Verde, Ellis Island, Valley Forge, New Orleans' St. Louis 
        Cemetery and Mount Vernon. This spring, the travel industry 
        will once again embrace the spirit of New Orleans by helping to 
        clear up, paint and beautify Louis Armstrong Park.

    At their request, SAT has also joined forces with Tourism Cares and 
        Smithsonian Magazine in their jointly-sponsored annual 
        Sustainable Tourism Awards. This program that began in 2001 
        solicits nominations from around the globe for projects that 
        are significant to the tourism industry and exemplify the 
        highest degree of commitment to environmental conservation and 
        historic preservation. Each prize, one for conservation and one 
        for preservation, is $20,000 but generates very substantial 
        public attention. After an extensive outreach by SAT staff to 
        its official projects, over 80% of the preservation applicants 
        hear about the award through our efforts and many of the 
        strongest applications come from SAT projects. Final choices 
        are made by the general public on the Sustainable Tourism 
        Awards website.

    Leveraging Support from State and Local Governments: Commitment 
        from the federal Save America's Treasures program has been a 
        critical tool in spawning interest and support from state and 
        local governments for their significant SAT projects/federal 
        grantees. Most notably, the Commonwealth of Pennsylvania has 
        committed over $750,000 to first stabilize and then help 
        restore the iconic Revolutionary War-era Winter Encampment 
        buildings at Valley Forge. In addition, former US 
        Representative (and former Pennsylvania Senator) Jim Gerlach 
        secured another $250,000 in federal funds for the buildings' 
        ongoing restoration. The Commonwealth of Virginia also fully-
        matched a $162,500 federal SAT grant to Yorktown's Washington 
        Tents project. Additional contributions at the state and local 
        level have included a $2 million commitment from the City of 
        San Francisco for SAT's Conservatory of Flowers project and a 
        $50,000 grant from Pennsylvania's Historical and Museum 
        Commission to help match the Paul Robeson House's federal SAT 
        grant.
Save America's Treasures Success Stories
    A more hands-on view of how the Save America's Treasures program 
directly-assists important historic sites and collections in 
communities across the country--and helps stimulate local awareness and 
resources--is provided below.

  <bullet> In May 2007, Save America's Treasures joined the National 
        Trust, the National Park Service, members of Congress and State 
        officials in the official re-opening of the Ellis Island Ferry 
        Building and the exhibition ``Future in the Balance.'' SAT's 
        public and private contributions totaling over $2.17 million 
        launched this project and heightened awareness of the need to 
        fully-restore this gateway to America.
  <bullet> Lincoln Cottage (Washington, DC)--Presidents Day 2007-SAT 
        joined the National Trust to celebrate the grand opening of 
        President Lincoln's Cottage after an 8-year restoration effort. 
        Mr. Lincoln's summer home, where he spent a quarter of his 
        presidency and drafted the Emancipation Proclamation, is the 
        most important site to understand the Lincoln presidency, other 
        than the White House. An SAT federal challenge grant of 
        $750,000 SAT federal challenge jump-started this campaign in 
        2000, and was matched by almost $600,000 in contributions 
        through SAT at the National Trust. This exciting day was a 
        culmination of efforts from a wide variety of federal, city and 
        private partners. SAT also arranged a special preview tour for 
        the First Lady a few months before the grand opening.
  <bullet> Save America's Treasures was an honored guest at the 
        rededication of Baltimore's newly-restored Mount Royal Train 
        Station. We were proud to have provided major support for the 
        adaptive reuse of this National Historic Landmark, transforming 
        it into the new home of the Maryland Institute College of Art, 
        a model project's helping to revitalize the surrounding 
        neighborhood by fusing an appreciation for the historic fabric 
        with the forward-thinking of contemporary art studies.
  <bullet> American College of Building Arts (Savannah, GA)--The 
        American College of the Building Arts is the only centralized, 
        comprehensive university in the nation for the study of 
        building arts, digging its roots deeply into the local 
        community and spreading its branches across America. Located in 
        the Historic Old City Jail in Charleston, South Carolina, and 
        at the newly acquired the MacLeod Plantation that will become 
        its campus, the college engages and trains the next generation 
        of skilled craftsmen in how to create successful communities of 
        tomorrow by preserving the best of our past. The 200-year old 
        Jail currently is under restoration, thanks in part to a 
        $500,000 Federal SAT grant and matching assistance from SAT at 
        the National Trust.
  <bullet> Orchard House (Concord, MA)--SAT visited Orchard House, 
        Louisa May Alcott's home, with Mrs. Bush in June 2002, her 
        first public appearance as Honorary Chair of Save America's 
        Treasures. Led by SAT at the National Trust, the fundraising 
        effort around the event generated almost $150,000 in individual 
        and corporate contributions. These funds helped match the 
        $400,000 federal Save America's Treasures challenge grant 
        awarded to Orchard House in 2000. SAT continues to work closely 
        with Orchard House to guide and support its preservation needs.
  <bullet> Cornerstones/Acoma (New Mexico)--Cornerstones Community 
        Partnerships was designated an official project of Save 
        America's Treasures in 1999, the only grassroots preservation 
        organization among our 1,200 projects. We have worked very 
        closely with Cornerstones over the years, particularly on the 
        giant church of San Esteban del Rey at the Acoma Pueblo. The 
        project received a $400,000 Federal grant in 2001, and we have 
        worked with them to raise the required matching funds, 
        including generating a lead $75,000 gift towards the 
        restoration.
  <bullet> Weeksville (Brooklyn, NY)--Save America's Treasures at the 
        National Trust has been integral to making a 30-year-old dream 
        come true for this early 19th century settlement built by freed 
        New York slaves in the Bedford-Stuyvesant section of Brooklyn. 
        Working with Joan Maynard, SAT helped raise almost $800,000 and 
        win a $400,000 federal Save America's Treasures grant. Once 
        restoration is complete, the Center will be a premier cultural 
        institution offering an innovative, socially conscious 
        discovery and learning experience presented through history, 
        art, technology and the environment, and rooted in the 
        preservation of African American history.
  <bullet> Valley Forge (Valley-Forge, VA)--Since its earliest days, 
        SAT at the Trust has worked closely with Valley Forge National 
        Historical Park. To date, almost $1.5 million in private SAT 
        funds and a $450,000 federal SAT grant have been contributed to 
        stabilize and restore the six houses that will become an 
        important element in the planned Center for the American 
        Revolution.
  <bullet> Lincoln Cottage (Washington, DC)--Restoration at Lincoln 
        Cottage, President Lincoln's summer home, where he spent a 
        quarter of his presidency and drafted the Emancipation 
        Proclamation, is underway and the $750,000 SAT federal 
        challenge grant has been matched by almost $500,000 in 
        contributions through SAT at the National Trust. We hope that 
        the Cottage and Visitors' Center will be the premier center for 
        the study of the Lincoln Presidency.
  <bullet> Louis & Clark Herbarium (Philadelphia, PA)--Because of a 
        Federal SAT grant in 1999, the Louis & Clark Herbarium, the 
        plant specimens collected on their journey 200 years ago, have 
        been saved through state-of-the-art conservation methods. No 
        other collection of North American plants is so important from 
        both historical and scientific points of view. Not only do the 
        specimens survive in relatively good condition, but so do 
        records relating to where they were collected and how the 
        plants were used at the time.
  <bullet> Conservatory of Flowers (San Francisco, CA)--In September 
        2003, the Conservatory of Flowers reopened to an eager public 
        after a $25 million restoration, of which $11 million was 
        funded through private contributions raised by SAT at the 
        National Trust. Recently, the Conservatory was awarded the 
        prestigious American Institute of Architects Honor Award, the 
        highest recognition for works that exemplify excellence in 
        architecture.
  <bullet> Liberty Theatre (Astoria, OR)--The Liberty Theater received 
        a $399,000 SAT earmark in 2001. The federal funds were matched 
        by several private grants including $25,000 through Restore 
        America. Its restoration serves as a magnet for other 
        preservation efforts, commercial activity and professional 
        development in Astoria's historic downtown.
  <bullet> Mesa Verde National Park (Mesa Verde, CO)--Mesa Verde 
        National Park preserves spectacular remains of the thousand-
        year-old ancestral pueblo culture, including elaborate stone 
        cities built in the sheltered recesses of the canyon walls. 
        Over $1.7 in private donations through SAT at the National 
        Trust more than matched a $1.5 million federal SAT grant 
        awarded in 1999.
  <bullet> Ebenezer Baptist Church (Atlanta, GA)--An anonymous gift of 
        $500,000 solicited by SAT at the Trust helped match the 
        $620,389 federal Save America's Treasures challenge grant 
        awarded in 1999. Ebenezer was also featured in the Restore 
        America campaign and received a $50,000 grant for the interior 
        restoration work.
  <bullet> Hulett Ore Unloaders (OH)--Restoration of Cleveland's Hulett 
        Ore Unloaders, landmarks on the Lake Erie shoreline since the 
        turn of the century, was sparked by a $20,000 Getty planning 
        grant from SAT at the Trust in 1999. The project successfully 
        leveraged this grant and national exposure for additional 
        support from the City of Cleveland and other private 
        contributions. The grant was followed by a listing on the 
        National Trust's 11 Most Endangered Listing the same year.
  <bullet> Socorro Mission (Socorro, TX)--SAT at the Trust advised and 
        assisted Cornerstones Community Partnerships in its application 
        for Socorro Mission, the 1842 adobe church that was the 
        centerpiece of the Socorro village founded by Spanish and Piro 
        Indian refugees in 1680. Socorro Mission received a $200,000 
        SAT earmark in 2005 to complete the restoration.
  <bullet> Tennessee Theatre (Knoxville, TN)--Thanks in part to a 
        $46,000 SAT earmark, the Tennessee Theatre reopened in January 
        15, 2005 after a complete restoration that has transformed the 
        movie palace into a performing arts venue while retaining its 
        historic splendor. The Theatre serves as a centerpiece of the 
        revitalization of historic downtown Knoxville.
  <bullet> Robie House (Oak Park, IL)--This 1909 home is considered the 
        masterpiece of Frank Lloyd Wright's Prairie style. A one 
        million dollar contribution from SAT at the Trust more than 
        matched a $250,000 Federal grant in 2000. As part of its 
        participation in Restore America, Robie House also received a 
        $62,500 grant for its continued restoration.
  <bullet> B & O Railroad Museum (Baltimore, MD)--The Baltimore & Ohio 
        Railroad Museum is dedicated to the preservation and 
        interpretation of American railroading through the history and 
        legacy of the Baltimore and Ohio Railroad, the Chesapeake and 
        Ohio Railway, the Western Maryland Railway, and the regional 
        railroads of the mid-Atlantic. After a winter snowstorm in 2003 
        collapsed the historic roundhouse and damaged most of its train 
        collection, SAT at the Trust advised and assisted the Museum in 
        winning a $500,000 Federal grant to restore and conserve the 
        locomotive collection.
  <bullet> North Dakota Prairie Churches (Statewide)--Often founded by 
        first-generation settlers from Germany, Poland, Iceland, Russia 
        and Scandinavia, these simple prairie church were usually the 
        first building to go up when a town was settled--and the last 
        to close its doors if the community died out. Of North Dakota's 
        2,000 church structures, more than 400 are vacant and 
        threatened by inadequate maintenance and demolition. Listed as 
        one of the 11 Most Endangered Historic Places in 2001, 
        Preservation North Dakota received a $100,000 Federal SAT grant 
        in 2002 to restore several of the most threatened structures.
  <bullet> 10th Street Bridge (Great Falls, MT)--SAT at the Trust 
        worked with Great Falls city officials to win a successful SAT 
        grant for the restoration of the 10th Street Bridge. The 
        $250,000 SAT federal grant awarded in 2001 funded the repair of 
        deteriorating stringers, floor beam columns, piers, and end-
        walls.
  <bullet> Travelers' Rest (Lolo, MT)--Preservation efforts at Lewis 
        and Clark's Travelers' Rest Campsite, where they rested at this 
        site for several days on their westward and eastward journeys, 
        include protecting the site from development and urban 
        encroachment. Restoration work at the site has been funded by a 
        $40,000 grant from SAT at the National Trust.
  <bullet> First Ladies' Library (Canton, OH)--Upon restoration and 
        renovation, the City National Bank Building, built in 1895, 
        will serve as the Education and Research Center at the National 
        First Ladies' Library. SAT visited the site in 1999 and it 
        later received a $2.5 million Federal SAT earmark in 2000.
      Addendum of Richard Moe, President, The National Trust for 
                         Historic Preservation
    Mr. Chairman, I would like to correct some information I provided 
you and the Subcommittee that was not included in my written testimony. 
I used the Kawaiaha`o Church as an example of a Save America's 
Treasures (SAT) project that HAS received an award under this program. 
I meant to say that this is the type of nationally significant historic 
resource that WOULD BE eligible for an SAT grant. In fact, at this time 
the church has not been the beneficiary of this program and I hope that 
changes soon.
    In terms of historic resources in Hawaii that have already received 
SAT grants--there are numerous examples and I'd like to cite a few for 
your information and the hearing record.
    The 16th-century Kaloko Fishpond, located within the National 
Historic Landmark Koloko-Honokohau Settlement, represents the best 
extant example of traditional Hawaiian fishponds found along the west 
Hawaii coast and is an extraordinary example of engineering skills. SAT 
funds have been used to restore the fishpond wall to its original 
condition. The project is also training a new generation of Hawaiian 
stone masons and will allow native Hawaiians to operate a traditional 
fishpond. All of this will help foster a better understanding and 
appreciation of Hawaiian culture through the preservation of this 
historic resource. SAT at Trust raised $75,000 towards the match. This 
came from our tourism partner--Tauck World Discovery.
    In addition to the $75,000 grant from Tauck, the project was 
awarded a sizeable $99,040 grant from the Office of Hawaiian Affairs. 
Other wonderful SAT grants include $310,000 to the Chamberlain House in 
Honolulu; $75,000 to the Hawaiian Cultural Collection at Honolulu's 
Bishop Museum; $300,000 for the USS Missouri in Honolulu; and $50,000 
for the Bishop Museum's Moving Image Collection.

    Senator Akaka. Thank you very much for your testimonies.
    Senator Burr. Mr. Chairman.
    Senator Akaka. Yes.
    Senator Burr. If I could interrupt the Chairman. I want to 
apologize because I have a scheduling conflict and I want to 
say to our witnesses if you won't take offense that I don't ask 
you any questions I pledge to support a quick action on both 
your pieces of legislation.
    Mr. Moe. It's a deal.
    [Laughter.]
    Senator Burr. Thank you very much. Thank you, Mr. Chairman.
    Senator Akaka. Thank you very much, Senator Burr. 
Commissioner Surkamp, we've heard a lot this afternoon about 
the historical significance of the Battle of Shepherdstown. The 
Department of the Interior has recommended that we give 
priority to previously authorized studies.
    Can you tell us what kind of timeframe, time sensitivity 
we're facing. For example, are there development pressures or 
are other threats to the battlefield site a problem?
    Mr. Surkamp. Thank you, Senator.
    Senator Akaka. Yes.
    Mr. Surkamp. Thank you. If for, speaking hypothetically, if 
the other projects are on this list of projects, if all of them 
are in a county that is next to the fastest growing county in 
the United States, then we would all be equal. We're a small 
county. Our weekly meetings are in the trial room of John 
Brown.
    Much of the character remains, but we're next to Loudoun 
County. Just the mere growth pressures from that, where we are, 
threaten the character of the county and will threaten the site 
as the Shepherdstown Battlefield. We as a county commission 
have probably some of the most advanced zoning ordinances to 
protect these things, but we're facing the juggernaut of growth 
pressures with thousands of applications for houses.
    Senator Akaka. Mr. Moe, in your written testimony you state 
that the Preserve America Program provides funds to help pay 
for historic preservation planning activities. My understanding 
is that these plans are then used to help organizations apply 
for funding through the Save America's Treasures Program. Could 
you elaborate on the types of plans that are necessary for an 
organization to have in hand prior to applying for a Save 
America's Treasures grant?
    Mr. Moe. Thank you, Senator, that's a very good question. 
Because sometimes the communities say, for example, if it wants 
to preserve its local train station as many do. That requires a 
certain planning activity because there are a lot of different 
segments of the community that must come together to be part of 
that.
    Not only to plan for what the train station will become, if 
it's no longer a train station, how it will serve the community 
and how the rest of the funds are to be raised to restore it 
and to adapt its use to a new purpose. Because the Save 
America's Treasures grants only cover typically a small 
portion, significant, but small portion of the total cost of 
restoring a historic structure. So that's the kind of planning 
that is necessary to put the financing together, to put the 
architectural plans together and to put the overall strategy 
together.
    So these Preserve America planning grants are very 
important. In that sense, as I said in my testimony, complement 
the Save America's Treasures Program.
    Senator Akaka. Do you support the specifics of Preserve 
America Program as listed in S. 2262 or do you have any 
suggestions to either delete or add activities that would be 
eligible for Preserve America funding?
    Mr. Moe. No, I support the legislation as it's written, 
Senator. We've spent a lot of time going over this with the 
Administration and with other partners. We support the 
legislation as it's written and introduced.
    Senator Akaka. I want to thank you both very much for what 
you're doing for our country, really. I want to thank you for 
mentioning the Kawaiahao project there. I want to thank both of 
you for testifying before this committee this afternoon. Your 
testimony, without question, will help us better understand 
these issues.
    Mr. Surkamp. Thank you, sir.
    Senator Akaka. Some members of the committee who were not 
able to attend this afternoon may submit additional questions 
in writing. If we receive any we will forward them to you and 
ask you to respond to them so that we may include both the 
questions and the responses in the official hearing record.
    Again, thank you very much for being here and helping us in 
this respect.
    Mr. Surkamp. Thank you, Senator.
    Senator Akaka. Committee hearing is adjourned.
    [Whereupon, at 3:37 p.m. the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

        Responses of Richard Moe to Questions From Senator Burr
                                s. 2262
    Question 1. What is the role of the National Trust for Historic 
Preservation in the Preserve America and Save America's Treasures 
programs?
    Answer. The National Trust has a direct role in SAT as the leading 
private sector partner. We amplify, reinforce, and support SAT at every 
stage by, expanding and strengthening the applicant pool, assisting 
with the grant applications; providing help with Federal projects, 
particularly through fundraising advice and solicitations on the 
required matches; and creating an array of promotional and media 
opportunities on grantee projects. We have no similar direct role in 
Preserve America, but welcome partnerships whenever possible.
    Here are some specific examples of the National Trust's role in 
SAT:

  <bullet> Providing direct guidance, counsel, advice and fundraising 
        assistance to hundreds of successful SAT applicants with 
        spectacular results, such as adding over $56 million to the 
        Park Service's Federal $264 million: this includes direct 
        contributions to more than 100 SAT projects and grantees; 
        including almost $12 million to NPS sites.
  <bullet> Creating major corporate partnerships that increase national 
        visibility of the program and the need to preserve our historic 
        resources, while generating substantial matching funds. A great 
        example of this is the Trust securing a $13 million gift from 
        Polo Ralph Lauren Corporation for the restoration of the Star 
        Spangled Banner.
  <bullet> Reinforcing and amplifying the Federal SAT program's efforts 
        to attract a larger and more diverse pool of applicants, 
        especially those from west of the Mississippi.
  <bullet> Working to eliminate the prohibition of SAT grants to 
        historic religious properties, which ended in 2003. Now, over 
        $7 million has been awarded to more than 30 historic religious 
        sites such as Boston's Trinity and Old North Churchs, Newport's 
        Touro Synagogue, and the Eldridge Street Synagogue in New York.

    Question 2. What do you consider the greatest success story from 
each of these programs?
    Answer. I will defer to Ms. Scarlet on the greatest success story 
from Preserve America, but on SAT, the greatest achievement is what 
began as an initiative to celebrate the new millennium has evolved into 
a highly effective public-private partnership about to commemorate its 
first decade. In ten years, SAT has become the largest and most 
successful federal bricks-and-mortar preservation program in history. 
It has identified and helped restore more than 1,000 national treasures 
by providing $289 million; its matching requirement will have leveraged 
over $300 million in private resources, more than $56 million of which 
has been generated by SAT's private partner at the National Trust. The 
program also has raised the national profile of historic preservation, 
through creative corporate and media partnerships, and it continues to 
motivate and inspire community involvement and local awareness of the 
need for shared responsibility and good stewardship of our cultural 
heritage.
    Question 3. Preserve America and Save America's Treasures have 
existed as special programs within the Administration for several 
years. Why is this legislation needed?
    Answer. With all of its tremendous success and support, however, 
SAT is unauthorized and funded from year-to-year though the annual 
appropriations process. The National Trust would like to see Congress 
authorize SAT and PA with a long-term programmatic and funding vision 
that would enable both programs to work in harmony with the other as 
components of the national historic preservation program. Authorization 
would codify the successful implementation and practices of a ten-year 
old initiative along with its newer partner and I think that this it is 
a step in the right direction. While much has been achieved since SAT 
was established, the need remains great and we must look to future 
needs. In just the first eight years of the program, 2,702 grant 
applications were received, representing requests for more than $1.17 
billion in critical preservation assistance. SAT funds have made a huge 
difference, but without Congress' ongoing commitment to the program, it 
would be virtually impossible to stimulate private matching 
contributions and hard to imagine where else the money would come from 
to preserve our national heritage.
                                 ______
                                 
      Responses of James T. Surkamp to Questions From Senator Burr
                                s. 1633
    Question 1. How much of the land involved in the study is currently 
in private ownership?
    Answer. All the 300 acres are in private ownership. The 300 acres 
we are trying to preserve are shown within the blue rectangle in 
attachment designated as Cons Esmts. Through 3 conservation easements 
we have preserved 84 acres that are still in private ownership and have 
2 private residences; those acres are shown as blue x's in the last 
map. While there are six residences on the 300 acres; one is a 200 
year-old farmhouse that has a cannon ball in a wall from the Battle of 
Shepherdstown. Except for the other 5 houses, most of the acreage is 
not very different from what is was in 1862. It is still either being 
farmed or is woodland. The Save Historic Antietam Foundation is 
negotiating to purchase a 13 acre tract that is on the south bank of 
the Potomac River; this acreage includes the remnants of a cement mill 
and kilns that were built in 1827. A 122 acre farm, including the 
aforementioned farmhouse, is owned by a real estate developer who has 
offered it for sale within the last 2 years although it is not being 
marketed presently. Given the current state of the real estate market, 
the owner is likely to accept any reasonable offer. Two parcels that 
approximate 60 acres are part of larger farms and contain no houses. We 
assume that those parcels could be purchased. The remaining 
approximately 20 acres are 3 separate lots each with a house but are 
located on the fringe of the battlefield site. One is a 10 acre lot in 
the southwest corner of the site and the other 2 are in the northwest 
corner of the site.
    Question 2. How much of the area is currently undeveloped and in a 
condition to accurately interpret events associated with the battle?
    Answer. The battle covered about one square mile or 640 acres. The 
most southern 40 acres of the site have been fully developed as 
residential subdivisions. The remaining 600 acres of the battlefield 
are bisected by Trough Road, which was named Charlestown Road in 1862. 
The 300 acres west of Trough Road is where most of the battle took 
place. East of Trough Road was basically a hasty retreat to the ford. 
We are trying to preserve the 300 acres west of Trough Road.
    Question 3. How much of the study been completed and will the 
National Park Service be allowed to use that information?
    Answer. The site of the battle has been mapped by: 1) the American 
Battlefield Protection Program of the National Park Service (shown 
within an irregular circle in attachment designated as Map 1); and, 2) 
the state historian from the West Virginia Division of Culture & 
History (shown as red rectangle in attachment designated as Color Map 
2). This information could be made available to the National Park 
Service.
                                 ______
                                 
 Responses of the National Park Service to Questions From Senator Akaka
    We must remember that the memorial is NOT just for those living 
today, but for individuals that have already passed on. Kalawao and 
Kaulapapa have been identified as potential sites for a memorial to be 
established. Kalawao is recognized as the first isolation settlement 
where as many as 5,000 people were sent and Kaulapapa the second 
isolation settlement.
    The Senate and House bill language authorizes Ka `Ohana O Kalaupapa 
``to establish a memorial at a suitable location or locations approved 
by the Secretary at Kalawao or Kaulapapa...'' Given the proposed 
amendment you included in your testimony, I am concerned that the 
organization will not truly have a voice in determining the final site.
    Question 1. Ms. Scarlett: To what extent will the Secretary of 
Interior take Ka `Ohana O Kalaupapa's recommendations into 
consideration, especially given that the I House bill states that the 
organization, ``shall be solely responsible for acceptance of 
contributions for payment of expenses associated with the establishment 
of the memorial?''
    Answer. The Secretary will work with Ka `Ohana O Kalaupapa to find 
an appropriate location within Kalaupapa National Historical Park for 
the memorial. NPS works cooperatively with several organizations to 
manage the site, including the State of Hawaii, Department of Hawaiian 
Homelands, which owns the land. If Congress authorizes this memorial, 
the National Park Service is committed to working with the patients, 
partners and friends' groups to find an appropriate location for the 
memorial.
    Question 2. Ms. Scarlett: As the Secretary of the Interior must 
approve the size, design, and inscriptions, as well as the location or 
locations of such memorial; why should the options for sites be 
limited, at this time to Kaulapapa only?
    Answer. We recommend that the bill be amended to delete any 
reference to a specific location within the park where the memorial is 
to be located. Our suggested amendment, attached to the testimony, 
would allow the memorial to be located ``at a suitable location or 
locations approved by the Secretary within the boundaries of Kalaupapa 
National Historical Park.'' While Kalaupapa Settlement may turn out to 
be the best location for the memorial, we feel the law would he most 
effective if it allowed the Secretary, the patients, the partners, and 
friends' groups the flexibility to work collaboratively to find the 
best location within the park for the memorial.
 Responses of the National Park Service to Questions From Senator Burr
                                s. 2262
    Question 3a. How much funding does Congress typically appropriate 
for each of these programs in a given year?
    Answer. Preserve America Funding Levels--

  <bullet> FY 2008--$7.383 million
  <bullet> FY 2007--$4.926 million
  <bullet> FY 2006--$4.926 million
  <bullet> FY 2005--$0

    Save America's Treasures Funding Levels--

  <bullet> FY 2008--$10 million
  <bullet> FY 2007--$8.074 million
  <bullet> FY 2006--$24.6 million
  <bullet> FY 2005--$29.5 million
  <bullet> FY 2004--$30 million
  <bullet> FY 2003--$30 million
  <bullet> FY 2002--$30 million
  <bullet> FY 2001--$34.923 million
  <bullet> FY 2000--$30 million
  <bullet> FY 1999--$30 million

    Question 3b. Why is it necessary to enact legislation if both of 
these programs have been around for several years?
    Answer. If enacted, the Preserve America and Save America's 
Treasures Act (S. 2262) would, for the first time, formally codify the 
Preserve America and Save America's Treasures programs. Both are grant 
programs that were started through Presidential Executive Orders. 
Formal congressional authorization oithe two programs would work to 
ensure their long-term viability.
    Question 4a. What is the advantage to being designated a National 
Historical Park instead of a National Historic Site?
    Answer. In recent years, Congress and the National Park Service 
have attempted to simplify the nomenclature used for park units. The 
term ``national historic site'' has been the most commonly applied by 
Congress when authorizing the addition of such areas to the National 
Park System. However, when a park includes two non-contiguous parcels 
with two distinct interpretive themes, the term ``national historical 
park'' more adequately characterizes the type of unit. Besides being a 
more descriptive name, there is no specific benefit to being called a 
national historical park as opposed to a national historic site.
    Question 4b. How much will it cost the National Park Service to 
update signage, brochures, and other references to the name of this 
site as a result of the name change?
    Answer. Given the recent renovations at the Edison laboratory 
complex and his home, new exhibits arc presently in the design and 
fabrication phase. If the bill is enacted, there will be no additional 
cost to change the name on the exhibits. New park brochures are also 
being designed and no additional cost will result from the name change. 
In terms of the directional or other signs, we believe the cost will 
not exceed $50,000.
    Question 5a. Has a proposed memorial been designed for the site?
    Answer. The National Park Service is not aware that a specific 
design has been proposed by Ka `Ohana O Kalaupapa.
    Question 5b. How will design and construction of the memorial be 
funded? Who will pay for it and what is the estimated cost?
    Answer. Ka `Ohana O Kalaupapa has committed to finding the funds to 
pay for design and construction of the memorial. S. 2502 does not 
specify how the design and construction of the memorial would be 
Funded. H.R. 3332 clarifies that Ka `Ohana O Kalaupapa shall be solely 
responsible for the payment of expenses associated with the 
establishment of the memorial, and for this reason we prefer H.R. 3332. 
Until there is a design proposed, there is no way to determine the 
associated costs.
       Responses of the National Park Service to Questions From 
                            Senator Barrasso
    Question 6. Please provide the total number of and total 
expenditures in Save America's Treasures grants awarded each year to 
each of the 50 States through a competitive process since the inception 
of the Save America's Treasures program.
    Answer. (see below)

  <bullet> FY 1999--$26.5 million awarded to 60 projects in 24 States
  <bullet> FY 2000--$15 million awarded to 47 projects in 31 States
  <bullet> FY 2001--$13.2 million awarded to 55 projects in 27 States
  <bullet> FY 2002--$15 million awarded to 79 projects in 36 States
  <bullet> FY 2003--$14.15 million awarded to 63 projects in 29 States 
        and
  <bullet> FY 2004--$14.5 million awarded to 60 projects in 24 States
  <bullet> FY 2005--$14.3 million awarded to 61 projects in 29 States
  <bullet> FY 2006--$7.6 million awarded to 42 projects in 24 States
  <bullet> FY 2007--$7.6 million awarded to 31 projects in 25 States

    Question 7. Please provide the total number of and total 
expenditures in Save America's Treasures grants awarded each year to 
each of the 50 States through a process other than a competitive 
process since the inception of the Save America's Treasures program.
    Answer. (see below)

  <bullet> FY 1999--$3.5 million earmarked by Congress for 2 projects
  <bullet> FY 2000--$15 million earmarked by Congress for 24 projects 
        in 15 States
  <bullet> FY 2001--$21.7 million earmarked by Congress for 49 projects 
        in 25 States
  <bullet> FY 2002--$15 million earmarked by Congress for 62 projects 
        in 33 States
  <bullet> FY 2003--$14.9 million earmarked by Congress for 59 projects 
        in 33 States
  <bullet> FY 2004--517.8 million earmarked by Congress for 99 projects 
        in 39 States
  <bullet> FY 2005--$14.8 million earmarked by Congress for 83 projects 
        in 34 States
  <bullet> FY 2006--$16.5 million earmarked by Congress for 91 projects 
        in 35 States
  <bullet> FY 2007--$0 earmarked by Congress
  <bullet> FY 2008--$13.6 million earmarked by Congress for 70 projects 
        in 36 States

    Question 8. If Save America's Treasures grants are not awarded 
through a competitive process, please describe and explain in detail 
the process or processes by which the grants are awarded.
    Answer. Roughly half of the Save America's Treasures appropriations 
have been earmarked for specific projects. The list of earmarks appears 
in the appropriations bills for the Department of Interior.
    Question 9. Please describe and explain in detail how the Secretary 
determines the value of contributions made in the form of donated 
supplies and related services under the Preserve America and Save 
America's Treasures programs.
    Answer. Volunteer services furnished by professional and technical 
personnel, consultants, and other skilled and unskilled labor may be 
counted as cost sharing or matching if the service is an integral and 
necessary part of an approved project. Rates for volunteer services 
must be consistent with those paid for similar work in the recipient's 
organization. In those instances in which the required skills are not 
found in the recipient organization, rates must be consistent with 
those paid for similar work in the labor market in which the recipient 
competes for the type of services involved. In either case, paid fringe 
benefits that are reasonable, allowable, and allocable may be included 
in the valuation.
    When an employer other than the recipient furnishes the services of 
an employee, these services must be valued at the employee's regular 
rate of pay (plus an amount of fringe benefits that are reasonable, 
allowable, and allocable but exclusive of overhead costs), provided 
these services are in the same skill for which the employee is normally 
paid.
    Volunteer services must be documented and, to the extent feasible, 
supported by the same methods used by the recipient for its own 
employees' time and attendance records.
    Donated supplies may include such items as office supplies, 
laboratory supplies, or construction materials such as bricks and 
lumber, needed to perform the grant-assisted work. Value assessed to 
donated supplies included in the cost sharing or matching share must be 
reasonable and may not exceed the fair market value of the supplies at 
the time of the donation.
    The value of donated equipment may not exceed the fair market value 
of equipment of the same age and condition at the time of donation.
    The value of donated space may not exceed the fair rental value of 
comparable space as established by an independent appraisal of 
comparable space and facilities in a privately owned building in the 
same locality.
    Question 10. Please explain why S. 2262 mandates that the Secretary 
``ensure that the non-Federal share for an eligible project...shall be 
available for expenditure before a grant is provided to the eligible 
project'' under the Preserve America program, but only ``ensure that 
each applicant for a grant has the capacity and a feasible plan for 
securing the non-Federal share for an eligible project...before a grant 
is provided to the eligible project'' under the Save America's 
Treasures program.
    Answer. The Preserve America's grant program was developed six 
years after the establishment of the Save America's Treasures grant 
program. Both programs were established to encourage similar 
partnerships. It was thought that many of the grant recipients from the 
Preserve America's program would he small communities that may have 
found it difficult to raise the required matching funds. Therefore, the 
idea to require a mandate was designed to ensure that the matching 
funds are in place prior to the award being made.
 Responses of the National Park Service to Questions From Senator Burr
                                s. 1633
    Question 1a. How much of the proposed area remains undeveloped and 
in a condition to accurately interpret its significance?
    Answer. There are 640 acres in the proposed area; 300 acres are 
undeveloped. The 300 acres are open fields, similar to the ``stubble 
fields'' that existed at the time of the battle. There are six houses 
in the outlying area, one of which dates hack to the time of the 
battle. They do not impact the open fields.
    Question 1b. Is any of the battlefield currently owned by 
Department of the Interior?
    Answer. The Department of the Interior owns none of the primary 
battleground where the actual fighting took place.
                         s. 1993 and h.r. 2197
    Question 2a. How many acres will the boundary adjustment add to the 
unit?
    Answer. Seip Unit: Approximately 1 80.2 acres; Spruce Hill Works 
Unit: Approximately 176.8 acres.
    Question 2b. How many private property owners will be affected by 
the boundary adjustment?
    Answer. Seip Unit: WGM Enterprises, Ltd. and Nancy I. Arthur, et. 
al.; Spruce Hill Works Unit: The Archaeological Conservancy and 
Wilderness East (land trusts); Adjacent land owners: E. Marie Browning, 
Raymond .lones, Tommy Shoemaker, Joy Shoemaker, and Charles Zehnder.
    Question 2c. What is the anticipated cost of the land acquisition 
associated with this boundary adjustment?
    Answer. Seip Unit: Approximately $300,000; Spruce Hill Works Unit: 
Approximately $609,000.
                                s. 2207
    Question 3a. Could the outcome of the study be a recommendation 
that the site be designated as an Affiliated Area?
    Answer. As authorized by S. 2207, the study would determine if the 
Green McAdoo School possesses nationally significant natural, cultural 
or other resources and is a suitable and feasible addition to the 
National Park Service system, There are alternatives to National Park 
Service management that may adequately protect resources even if they 
meet the preceding criteria. An Affiliated Area, a Congressional 
designation for a unit managed by others under terms of a cooperative 
agreement with the National Park Service, is a potential management 
option.
    Question 3b. Has any local group begun preliminary work on the 
study?
    Answer. The Green McAdoo Cultural Organization currently manages 
the McAdoo school site as a museum and cultural center. However, to the 
best knowledge of National Park Service staff, neither this 
organization nor any other local group has begun preliminary work on a 
special resource study related to the Green McAdoo School.
                                s. 2254
    Question 4a. We have 2 bills on the agenda today to designate 
National Heritage Areas within the state of Mississippi. What are the 
differences between the Mississippi Bills National Heritage Area and 
the Mississippi Delta National Heritage Area?
    Answer. The differences are geographic. The proposed Mississippi 
Hills National Heritage Area lies in the northeast corner of the state, 
encompassing the foothills of the Appalachian Mountains. The proposed 
Mississippi Delta National Heritage Area lies in the alluvial 
floodplain of the Mississippi and Yazoo rivers, which comprises the 
northwest sections of the state.
    Question 4b. How many National Heritage Areas currently exist 
within the state of Mississippi?
    Answer. The Mississippi Gulf National Heritage Area is the only 
national heritage area in Mississippi.
    Question 4c. Has the National Park Service or anyone else conducted 
a study to determine the suitability and feasibility of designating 
this area as a National heritage Area?
    Answer. The National Park Service has not conducted a national 
heritage area suitability and feasibility study for the Mississippi 
Hills region. The Mississippi lid's Heritage Area Alliance, a local 
advocacy organization, has created a concept plan for the proposed 
national heritage area. .However, the plan was not designed to address 
the suitability and feasibility criteria used by the National Park 
Service for heritage area designation.
                                s. 2512
    Question 5a. Has the National Park Service or anyone else conducted 
a study to determine the suitability and feasibility of designating 
this area as a National Heritage Area? If so, what did the study 
recommend?
    Answer. The National Park Service has conducted a study of the 
Lower Mississippi Delta region. Released in 1998, the study was very 
broad in both its scope and recommendations. The area examined 
stretched across all or part of seven states and 308 counties and 
parishes and centered on the Mississippi River drainage system. The 
almost 200-page study inventoried and analyzed significant natural, 
recreational and cultural resources in the Mississippi Delta region. 
From this information, the authors developed general recommendations 
for a series of museums, historic sites, driving routes, heritage sites 
and festivals, among others. However, local coordinating entities, 
boundaries, and conceptual business and financial plans were not 
examined. These are all critical elements used by the National Park 
Service in an actual national heritage area study.
    Question 5b. How many National Heritage Areas currently exist and 
how many of those were designated without first having a study 
completed?
    Answer. There presently are 37 national heritage areas (NHAs). The 
majority of recently authorized NHAs underwent a feasibility study 
process prior to designation. Feasibility studies can be conducted by 
either the Department of the Interior (Department), if directed by 
Congress, or by other parties. If the study is done by a party other 
than the Department, consultation with the National Park Service is 
strongly recommended during the study process. After the study is 
completed, by the other party, the Department reviews the study to 
determine if it meets the interim criteria used by the National Park 
Service for such studies, including whether the proposed heritage area 
has an assemblage of natural, cultural or historic resources that 
together represent distinctive aspects of American heritage, whether 
there is strong local support, and if a viable management entity has 
been identified. The Department has requested that Congress pass NHA 
program legislation, such as language included in S. 278, to establish 
a system of NHAs that include criteria for the study and designation of 
these areas.
                               h.r. 3998
    Question 6a. The bill directs the Secretary of the Interior to 
conduct special resource studies of 9 sites. It combined 9 separate 
House bills into a single piece of legislation. We have received e-mail 
and calls from a private property rights group expressing concern for 
one of the provisions, Rim of the Valley Corridor Study.
    What role will the public have in the studies authorized by H.R. 
3998?
    Answer. H.R. 3998 requires that the authorized studies be completed 
in accordance with either section 8(c) of Public Law 91-383 or section 
5(b) of the National Trails System Act. Section 8(c) of P.L. 91-383 
states that ``each study under this section shall be prepared with 
appropriate opportunity for public involvement, including at least one 
public meeting in the vicinity of the area under study, and alter 
reasonable efforts to notify potentially affected landowners and State 
and local governments.'' Section 5(h) orthe National Trails System Act 
states that ``Such studies shall be made in consultation with... 
interested interstate, State and local governmental agencies, public 
and private organizations, and landowners and land users concerned.''
    Question 6b. Will the public he informed of these studies and given 
an opportunity to submit comments?
    Answer. The public will be informed of special resource studies 
occurring in the area by appropriate means (newspapers, announcements 
to stake holders, etc.). The public is invited to comment on the 
proposed study area during initial scoping meetings and throughout the 
process. The public may submit comments for the record during the 
studies' official comment period(s). In accordance with NPS Management 
Policies 2006, section 1.3.3, in determining the feasibility of the 
study area, the NPS will assess the level of local and general public 
support for the study area, including landowner opinion.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

  Statement of Hon. Sherrod Brown, U.S. Senator From Ohio, on S. 1993
    Mr. Chairman, I want to thank you for holding this hearing. I 
appreciate the subcommittee's dedication to protecting our national 
parks and historic areas. I'm particularly pleased that today the 
committee will be considering S. 1993, the Hopewell Culture National 
Historical Park Boundary Act.
    Ohio is home to numerous archaeological sites of significant value 
in our ongoing efforts to better understand our nation's pre-history. 
President Warren G. Harding realized the importance of these mounds and 
earthworks by establishing the Mound City National Monument in 1923. 
The surrounding park, now known as the Hopewell Culture National 
Historical Park, is the only one of its kind in the nation dedicated to 
the protection and preservation of land forms and artifacts from the 
beginnings of the Hopewell era over 2000 years ago.
    Subsequent additions to the monument over the past thirty years 
reflect our continued understanding and appreciation of the area. The 
bill introduced--and reported--by my colleagues in the House and the 
bill that I have introduced in the Senate adjusts the boundary of the 
park to include the nearby Spruce Hill area. This isn't a land grab, or 
a case of eminent domain; the bill simply allows the Secretary of the 
Interior to purchase land from willing sellers. The National Park 
Service has issued reports in the past on the significance and 
desirability of adding Spruce Hill site into the Hopewell Culture 
National Historical Park.
    When most think of the Mound Builders of the Ohio valley who built 
these historic sites, they think of geometric wonders like Serpent 
Mound in Adams County, Ohio, or the dome shaped mounds at Ft. Ancient, 
Ohio. Yet, unlike these earthworks, the Spruce Hill site is set on a 
hilltop overlooking the Paint Creek Valley. The 140 acre enclosure is 
unlike anything currently at the Hopewell Culture National Historical 
Park. Archaeologists are still studying this site and we ought to 
continue our commitment to further understanding our heritage by 
protecting this irreplaceable site from vandals, looters, and future 
development. I am glad the committee will have the opportunity to 
consider the merits of this legislation.
                                 ______
                                 
     Statement of Hon. Thad Cochran, U.S. Senator From Mississippi
    Members of the Senate Energy Committee, I thank you for your 
allowing me to make a statement in support of legislation creating the 
Mississippi Hills National Heritage Area and the Mississippi Delta 
National Heritage Area.
    The history of the State of Mississippi is one of struggle and 
redemption, of literature and arts. It is a unique area of America, and 
its story has affected the entire country. I am pleased to speak on 
behalf of two areas of my State that have contributed greatly to this 
history. I am hopeful that you as a Committee will look favorably upon 
my efforts to have these areas recognized.
    North Mississippi's Hills were the inspiration for William 
Faulkner's Nobel Prize winning literature, and Faulkner's hometown of 
Oxford, Mississippi, continues to be one of the most beautifully 
preserved town squares in the American South. Elvis Presley grew up in 
these Hills, and it was here he learned the sounds that transformed 
American music.
    Just to the West of the Mississippi Hills is the Delta region, the 
famed birthplace of the blues. B.B. King first strummed a guitar in the 
Mississippi Delta, and the rich Mississippi River soil deposits made 
for a storied agricultural past. From juke joints to catfish farms, the 
Mississippi Delta stands out as one of the most culturally distinctive 
area in America.
    I understand the Department of Interior is hesitant to encourage 
passage of these bills without an officially sanctioned review by the 
National Park Service. The alliances behind the creation of the 
Heritage Areas have worked hard to produce documents they and I feel 
are as worthy as any the National Park Service might produce, and I am 
happy to provide copies to any of you.
    I hope that additional funds will not be needed to reproduce these 
studies. Further review of the areas will be unnecessarily costly and 
time-consuming, and the National Park Service is not equipped with 
enough staff to make this process easier. Undoubtedly, legislation to 
create a more substantial National Heritage Area program is needed.
    I hope that my colleagues in the Senate will understand the 
importance of these regions to the cultural fabric of America, and I 
hope that the creation of these two Heritage Areas will encourage an 
understanding and appreciation of how much Mississippi has to offer.
                                 ______
                                 
Statement of Hon. Roger F. Wicker, U.S. Senator From Mississippi, on S. 
                            2254 and S. 2512
    I would like to express my support for legislation to establish two 
national heritage areas in Mississippi, the Mississippi Hills National 
Heritage Area Act of 2007 (S. 2254) and the Mississippi Delta National 
Heritage Area Act of 2007 (S. 2512). I was an avid supporter of this 
initiative when I served in the House and was a cosponsor for the House 
companion legislation introduced by Congressman Bennie Thompson. At 
that time, I represented mostly the Hills area. Now in my role as 
Senator, I am glad that I have the opportunity to represent both areas 
and continue to believe both are worthy of the National Heritage Area 
designation.
    As elected officials, we in Congress work hard to bring economic 
development to our states. In recent years, Mississippi has seen some 
aggressive industrial development, and we are proud of what these 
efforts are doing for job creation and the economy. However, in the 
midst of the changes that these efforts are bringing to the economic 
landscape, I believe it is important that we work simultaneously to 
protect our historic and cultural landscape. National Heritage Areas 
are designed to do just that.
    National Heritage Areas commemorate and promote locations that 
contain important natural, historic, cultural, or recreational 
resources. There are unique stories of cultural and historical 
significance all across the state of Mississippi. Gaining heritage area 
designation for the Mississippi Hills and the Delta would enable those 
stories to be promoted and shared with a larger audience. In addition, 
this initiative will work to benefit Mississippi's economy by boosting 
tourism opportunities.
    The Mississippi Hills Heritage Area represents distinctive aspects 
of American heritage worthy of recognition, conservation, 
interpretation, and continuing use. The landscape contains numerous 
resources related to American literature and music; major events and 
persons that contributed substantively to the Nation's history and 
folklore; transportation routes that played central roles in important 
military actions, settlement, migration, and commerce; and, social 
movements that substantively influenced past and present day society.
    Not only does the Mississippi Congressional Delegation believe in 
this initiative, but there is public participation from local 
governments, businesses, non-profit organizations, and residents. The 
Mississippi Hills Heritage Area Alliance was formed as the management 
entity for this initiative and has worked to involve a broad spectrum 
of groups. The impressively high levels of participation are proof of 
the merits of this trusted organization and its ability to manage this 
initiative. In addition, the University of Mississippi established the 
Mississippi Hills Institute for Heritage Resource Management to assist 
the Alliance in the development and management of the heritage area. 
These groups are evidence of the National Park Service's goal of using 
heritage area as a vehicle for locally initiated protection and 
interpretation of natural, cultural, scenic and historic resources.
    The landscape of Mississippi is diverse, and the Mississippi River 
delta region is home to a rich culture. The river provided suitable 
land for settlements of Native Americans and was the stage for notable 
Civil War battles. Some of the rich history of the Mississippi Delta 
has been written in many ways by events that could not be controlled by 
humans, as with the Great Flood of 1927.
    The Delta Council, a regional economic development organization 
that represents business and agricultural leaders, has worked with 
numerous public officials in the region. This group recognizes these 
and other events of cultural importance and is working to preserve this 
national landmark story. The designation of National Heritage Area 
would go along way in aiding that effort.
    I strongly support both of these groups and believe both the 
Mississippi Hills and the Delta are worthy of the designation of 
National Heritage Areas.
                                 ______
                                 
            Statement of Phyliss Ann Archibald, Mesquite, NV
    As a previous resident of the Island of Molokai, (by the way, I was 
born at Kapiolani Hospital and raised on the Island of Molokai) I fully 
support a memorial site within Kalaupapa National Historical Park.
    If you have never lived on the Island of Molokai or visited 
Kalaupapa settlement at all, you have missed a sad documented years of 
history of the lepers and the works of Father Damien. These 
individuals, for years, have been ostracized from the public due to 
their ignorance of the disease itself. During the late fifties and 
sixties, the Catholic Churches on the Island of Molokai held 
conferences at this peninsula. At this time, there were active 
patients, so those of us who wanted to make the trip for the convention 
had to be examined by the Board of Health making sure you had no open 
cuts, sores, and other things before given a clean health certificate. 
My experiences with this peninsula was a saddened one for those 
patients that were scarred for life. They were scarred so badly that 
when they were cured they did not want to live with us up above on the 
island. Also, the cured patients were so energetic as to beautify this 
peninsula and they were very proud of themselves. I believe, we, of the 
United States of America and the State of Hawaii established this 
memorial to honor and perpetuate the memory of those individuals who 
were forcibly relocated to the Kalaupapa Peninsula from 1866 to 1969 
and their purposes to survive. I could go on and on about this subject, 
but I trust our dedicated members of Congress and Legislators of Hawaii 
will do the appropriate thing.
                                 ______
                                 
 Statement of Sally-Jo Keala-o-Anuenue Bowman, Springfield, OR, on S. 
                                  2502
    I write to support Senate Bill 2502, to establish a memorial 
monument at Kalaupapa National Historical Park, Moloka`i, Hawai`i.
    I am a native Hawaiian, part of the Pa family from the Hilo and 
Puna districts on the Big Island. I was born in 1940. For decades I 
have wondered why my father and his siblings, born between 1902 and 
1910, could not remember their grandfather. Recently, through document 
research in the Hawaii State Archives and Hawaii State Board of Health, 
I found out why. Elemakule Pa was sent to Kalaupapa in March of 1907, 
at the age of 52. His death certificate In 1913 states that he was 
cremated, but does not say what was done with his ashes. We know only 
that he was born in 1854 as a subject of the Hawaiian Kingdom, and died 
a citizen of the United States, Territory of Hawaii. On his diagnostic/
intake document he dictated ``My father died of leprosy many years ago 
at the Kakaako Hospital,'' which functioned on O`ahu in the late 1880s 
and early 1890s. Along with a Hawaiian Kingdom registration of his 
marriage in 1854, that mention of his death in the 1880s is ALL the 
information we have about Ha`alipo Pa, my great-great grandfather.
    I have always been inspired by Elemakule's daughter, my 
grandmother, who died in 1911 some 30 years before I was born. But I 
knew nothing of Elemakule, or his father. Now that I have discovered 
their enforced exiles to Kalaupapa and their deaths in Hawaii's other 
quarantined leprosy hospitals of that time period, I am inspired by 
them as well, as I seek the meaning of what it is to be Hawaiian in the 
21st century.
    We have no picture of Ha`alipo, but I look often at the photo of 
Elemakule from the Archives, taken the day of his commitment in March 
1907. He stands with arms crossed over the chest of his checkered 
shirt, in the manner of all intake photos. His neat beard is white, his 
hair graying. He looks straight at the camera, serious, maybe 
reluctantly, perhaps resigned. It is the only picture we have. Until I 
found it In 2006, we had none at all.
    We are grateful to know these small but important facts about these 
men. But our family has no place to honor them, my great-grandfather 
and great-great grandfather, whom we could not mourn until now, not 
knowing of their deaths. It would mean a great deal to us to have their 
names on a memorial monument at Kalaupapa, along with the other 8,000 
people who were ``apprehended'' as it as called, sometimes in round ups 
in which bounties were paid just as for criminals at large. Then, like 
criminals instead of sick people, they were permanently exiled.
    Hawaiian culture, like many other cultures, places much emphasis on 
guiding ancestors, and on reverence for them. Elemakule and Ha`alipo 
were never able to fulfill the role of kupuna--elder--in our family. A 
memorial monument would give us a tangible way of being able to honor 
them now as ancestors.
    Mahalo--thank you--for your kind consideration.
                                 ______
                                 
                       Statement of Dayton Kupele
    I Dayton Kupele grandson of David Kupele Sr. on behalf of my 
grandfather who was incarcerated to Kalawao due to leprosy known as 
classified Hansen disease give this testimony.
    Being sent to Kalawao by the state government was a cruel life. 
Grandfather was a young lad at the time, and took heed to adjust 
quickly to his new life. Learning of grandpa's illness was awkward for 
me. I didn't understand why I couldn't be with him when he came to 
Honolulu for treatments. We weren't able to spend much time as 
grandfather to grandson; that's the part I missed growing up. As I got 
older I was able to go to Kalaupapa where my grandfather settled after 
Kalawao. There he was the Post Master of Kalaupapa peninsula. My father 
David Kupele Jr. took me to Kalaupapa to visit my grandfather. I 
remember staying at visitors' quarters and grandfather keeping us 
company. Then my dad and I would go to grandfather's house, but I 
couldn't enter his home. Upon listening to my family share stories 
about grandfather it brought the reality of leprosy to my 
understanding. Leprosy was never to be spoken of back then, and was 
looked at shamefully by society. My dad the late David Kupele Jr. was 
born in Kalawao also and was separated from my grandfather for X amount 
of years, because all children born there were taken away. Due to this 
they weren't able to spend much time as father and son. My grandpa 
missed my dad's entire childhood.
    Over 30 years had pasted before I returned to Kalaupapa. I was 
breathless when I landed, and shed many tears as if I were here with my 
grandfather. I was introduced to a few patients who are still in 
kalaupapa who knew my grandfather well. They shared with me stories of 
his life as a Postman, paniolo (cowboy), and overall genuine human 
being. It was very cruel what society did to our people of Hawaii. 
Incarcerated and exiled from society they had each other to share the 
hardships of leprosy. Thank God for Father Damien and his ministry 
outreach to the leprosy patients. He gave hope and added strength to 
our people. I believe the patients are entitled to a memorial monument 
for the pain and suffering they endured due to state government 
actions.
                                 ______
                                 
                                   United Church of Christ,
                                                    April 10, 2008.
Hon. Jeff Bingaman,
Chairman, Energy and Natural Resources Committee, 304 Dirksen Senate 
        Office Building, Washington, DC.
RE: S. 2502 ``Kalaupapa Memorial Act''

    Dear Senator Bingaman: As Conference Minister of the Hawai`i 
Conference of the United Church of Christ, I am supportive of S. 2502, 
which would authorize Ka `Ohana O Kalaupapa to establish a memorial 
``to honor and perpetuate the memory of those individuals who were 
forcibly relocated to Kalaupapa Peninsula from 1866 to 1969.''
    The United Church of Christ (UCC) and its predecessor denominations 
have been active and present on the Kalaupapa peninsula from the 
beginning of the forced relocation of Hansen's disease patients through 
the Siloama (Kalawao) and Kana`ana Hou (Kalaupapa) churches, which have 
merged over time to become what is known today as the Kana`ana Hou-
Siloama United Church of Christ.
    The UCC is also active as a supporting member of Ka `Ohana O 
Kalaupapa, consisting of patients and their families and friends, which 
advocates for the needs and rights of the patients and works closely 
and cooperatively with the National Parks Service and State of Hawai`i 
Department of Hawaiian Homelands.
    With the numbers of patients at Kalaupapa declining, our own 
members at Kana`ana Hou-Siloama along with the members of Ka `Ohana O 
Kalaupapa have become increasingly concerned about the future. In 
particular, will the memories and histories of the thousands of 
patients survive after the last one has died? How will the tales of 
injustice, as well as stories of courage and survival, be shared that 
they may teach and inspire future generations?
    Together we are addressing these questions, but we are convinced 
that at the very least a memorial of some kind would be a positive and 
encouraging step toward honoring the dignity and perpetuating the 
legacy of all those who lived in this special place at a unique time in 
U.S. history.
    Support for such a memorial is broad-based, but most importantly 
the idea was conceived by and receives overwhelming support from the 
patients themselves. The UCC believes strongly that those most likely 
to be silent or silenced are the ones whose voices we as a society most 
need to hear. For this reason, I urge you to hear the wishes of the 
patients and to give due consideration to the establishment of a 
memorial.
            Sincerely,
                                              Charles Buck,
                                       Hawai`i Conference Minister.
                                 ______
                                 
   Statement of Tom Gresham, Chairman, Development Department, Delta 
           Council, National Heritage Area, Mississippi Delta
    In recognition of the significant role which the U.S. Department of 
Interior and the National Park Service have historically played in 
administering the programs important to capturing the cultural history 
of our Nation, the 18 Delta and part-Delta counties of Northwest 
Mississippi have engaged in dialogue with the National Park Service to 
request assistance and advice in efforts to highlight the unique 
history of this Mississippi Delta region which has been endowed with 
events and people that have changed the culture of our country.
    Although many in the Nation associate the Mississippi Delta with 
the Old South and the Civil War, a closer study of the region clearly 
defines it as a post-Civil War development in the country, due to the 
harsh living conditions which were commonly underscored by yellow 
fever, malaria, and other maladies which accompanied the development of 
the Nation's largest alluvial floodplain.
    Also, more than a thousand years before the discovery of America by 
its earliest European settlers, the Mississippi Delta was inhabited by 
Native Americans who were mound builders. This advanced civilization of 
Native Americans almost vanished without notice in the 13th Century, 
leaving nothing but the large earthen mounds and buried cities mostly 
scattered along the high banks of the Mississippi River in this Delta 
region.
    From the early days of mound builders, the region's cultural and 
historic significance fast forwarded to the siege of Vicksburg and 
General Grant's campaign to invade Vicksburg through the Mississippi 
Delta. The series of failed attempts to seize the river town of 
Vicksburg from Confederate hands is studied by military experts even 
today, because of its naval, infantry, and artillery feats which were 
exhibited by both the Union and Confederate military.
    Without dispute, the region of the Nation influenced most by the 
waters of the mighty Mississippi River is the Mississippi Delta. The 
Mississippi Delta has always been about water, the management of this 
Nation's greatest water body and the conflicts between man and nature. 
The Great Flood of 1927, which began with a levee break in the heart of 
the Mississippi Delta, awakened the Nation to the Federal 
responsibility for floodwaters which annually inundated the Lower 
Mississippi River Valley, gathering waters from 31 states and two 
provinces of Canada each year as it meandered across the Mississippi 
Delta on its way to the Gulf of Mexico. It was the Great Flood of 1927, 
taking the lives of thousands of people, and its destruction of 
property spanning more than 15 million acres, that aroused the soul of 
the citizenry of the area and contributed toward the founding of the 
blues and literary genius of legendary proportion.
    Many of the most prominent Civil Rights figures in the movement for 
voter registration and social justice germinated from the agricultural 
fields and the one-room tenant houses of farms scattered across the 
Mississippi Delta. The infamous Fannie Lou Hamer and the more 
contemporary Unita Blackwell, were the matriarchs of the early Civil 
Rights movement.
    Even today, visiting scholars, graduate student classes from the 
Far West, Midwest, Northwest, and New England, make their journeys to 
the Mississippi Delta to ``connect to The River'', the streets, 
nightclubs, and juke joints which birthed the Delta blues. These people 
desire to engage in literary enlightenment about the environment which 
inspired powerful writers like William Alexander Percy, Shelby Foote, 
and the numerous other artists whose writings were not only from the 
Delta, but were the Delta.
    Delta Council, a regional economic development organization 
representing business and agricultural leaders, combined with public 
officials in the region who recognized the importance of preserving 
this national landmark story, feel that it is appropriate to request 
that the Congress adopt the necessary steps to engage the United States 
Department of Interior, National Park Service, and the Mississippi 
Delta in the formation of a National Heritage Area in the Mississippi 
Delta. Without the expertise and history of success of the federal role 
of the National Park Service, the rich cultural and heritage-based 
significance of this unique region of the country is almost certain to 
fade over time. Like the mound building Native Americans who are the 
earliest account of settlers in this region, this history will 
evaporate without an organized and professional effort to brand and 
package it.
    The Mississippi Delta has been a laboratory for federal, State, 
university, and private foundation studies aimed at the impacts of the 
land, the water, the music and the writings of the Mississippi Delta on 
the conscience and the soul of our Nation.
    Specific and well-defined cultural and heritage resource analyses 
have been performed by experts during the past decade, to emphasize the 
importance of preserving the historical events that shaped this place 
called the Mississippi Delta. Conferences which have attracted scholars 
from all parts of the Nation as well as Inter-Continental visitors, 
have focused on the cultural and heritage resources. Published 
proceedings of these conferences have suggested methods to develop 
resource coordination which will be needed in order to properly 
document the rich history of this region. It is for these reasons that 
Delta Council, acting in cooperation with local public officials, the 
Mississippi Development Authority and local elected officials has 
chosen to forego yet another cultural and heritage resource analysis. 
Unless it is prerequisite and holds promise for a separate outcome, in 
terms of its content for acceptance by the Congress, we have opted to 
forego another analysis of issues which remain unchanged.
    We respectfully request the assistance of the United States 
Congress in establishing a National Heritage Area in the 18 Delta and 
part-Delta counties of Northwest Mississippi and we look forward to the 
opportunity to engage in a Federal-State-local partnership for the 
purpose of recovering and properly documenting the sense of place which 
is so profoundly enunciated in the Mississippi Delta.
                                 ______
                                 
 Statement of Karen M. Holt, Esq., Kaunakakai, HI, on S. 2502 and H.R. 
                                  3332
    I am writing in support of Senate Bill 2502, which would authorize 
the construction of a memorial containing the names of all who were 
sent to die on the isolated peninsula at Kalaupapa, on the island of 
Moloka`i, after being diagnosed with Hansen's Disease (commonly known 
as leprosy).
    Please support the creation of this monument. I have family members 
who were sent to Kalaupapa with the disease, and it was a cruel fate. 
The Hawaiians called the disease ma`i ho`oka`awale, ``the separating 
sickness,'' because loved ones were torn from their families as soon as 
they were diagnosed. My great aunt's two small children came home from 
school one day in the early 1930's to find their mother gone and the 
entire family wailing in grief. She never came home, and she died in 
Kalaupapa without seeing her children again.
    I have been to the Vietnam Memorial in Washington and read the 
names engraved there. That memorial is a deeply affecting monument not 
only to those who were lost, but also to the nation's respect for their 
ultimate sacrifice. We need such places to reflect on the past and to 
learn from its tragedies. A monument to the Kalaupapa patients would 
create an enduring record of thousands who died less celebrated deaths, 
and it would also be a comfort to families who were never permitted to 
give their loved ones a proper burial. In addition to providing solace 
for these families, a monument would also provide a place to consider 
the courage and dignity of these outcasts, and to strengthen our 
compassion for all those who are afflicted with burdens not of their 
own choosing.
    In the names of the thousands who perished at Kalaupapa, including 
my own family members, I hope that you will support the establishment 
of this monument.
                                 ______
                                 
    International Association for Integration, Dignity and 
                                      Economic Advancement,
                                                     April 8, 2008.
Hon. Daniel K. Akaka,
Chairman, Subcommittee on National Parks, Historic Preservation and 
        Recreation, 141 Hart Senate Office Building, Washington, DC.
    Dear Senator Akaka: Please find our testimony in support of S2502--
the Kalaupapa Memorial Act.
    As individuals who have been involved in preserving the history of 
Kalaupapa for over 30 years, we strongly support the creation of this 
Memorial.
    Kalaupapa is still in its historic period and we are still learning 
a great deal about the estimated 8,000 people who were sent there. This 
Memorial is clearly the will of the remaining residents and we also 
knew many people, who are no longer with us, who also supported this 
effort to recognize the people of Kalaupapa.
    We particularly remember David Ono Kupele, who had five generations 
of his family at Kalaupapa. The first, a man named Kupele, was sent to 
Kalaupapa shortly after the arrival of Father Damien in May, 1873. 
David Kupele, sent to Kalaupapa in 1915, was determined that his family 
should be remembered. There are no identifiable graves for three 
generations of his family representing both the Kupele and Pulehu 
sides.
    We thank you for your efforts to ensure that these 8,000 people, of 
whom at least 90% were native Hawaiians, are brought out of anonymity 
and back into the history of Kalaupapa.
            With best wishes,
                                        Anwei Skinsnes Law,
                                               Kalaupapa Historian.
                                              Henry G. Law,
                                              First Superintendent.
                                 ______
                                 
            Statement of Paul Mange Johansen, Cambridge, MA
    I strongly join your plea urging Congress to allow the construction 
of a memorial honoring the names of the thousands of sufferers from 
Hansen's Disease (leprosy) who died anonymously at the Kalaupapa 
Settlement on Moloka`i (``Memory on Molokai,'' March 2).
    Similar, far smaller monuments have been erected at the former US 
Public Health Hospital in Carville, Louisiana and on Penikese Island in 
Massachusetts. The memorial at St. Jorgen's Hospital in Bergen, Norway 
has an emotional impact similar to that of the Vietnam Memorial.
    Hawai`i took a historic step toward honoring its infamous legacy of 
Hansen's Disease control by passing the ``Patient Dignity Act'' (SB 
1713 SD1) in April, 2005 stating that ``the legislature declares its 
intent to ensure that all residents at Kalaupapa are treated with 
dignity, respect, courtesy, and sensitivity.''
    It is time for the federal government to extend that dignity to 
those unlucky people, long since forgotten, whose lives were 
effectively taken from them by a bacterium.

Note: The author has researched Hansen's Disease-related topics for 
over two decades and most recently produced the exhibit, ``Hansen's 
Disease (Leprosy): A Feared Infection.''
                                 ______
                                 
  Statement of Leimomi Khan, President, Association of Hawaiian Civic 
                   Clubs, Honolulu, HI, on H.R. 3332
    Thank you for this opportunity to testify in strong support of H.R. 
3332, which would provide for the establishment of a memorial within 
Kalaupapa National Historical Park located on the island of Molokai, in 
the State of Hawai`i, to honor and perpetuate the memory of those 
individuals who were forcibly relocated to the Kalaupapa Peninsula from 
1866 to 1969, and for other purposes.
    The Association of Hawaiian Civic Clubs is a growing national 
confederation of fifty-three Hawaiian Civic Clubs, located throughout 
the State of Hawai`i and in the States of Alaska, California, Colorado, 
Illinois, Nevada, Utah, Virgnia and Washington State. It initiates and 
works to support actions that enhance the civic, economic, educational, 
health and social welfare of our communities, and in particular, the 
culture and welfare of the Native Hawaiian community.
    On October 28, 2006, the Association passed Resolution No. 46, 
``Urging the United States (U.S.) Congress to Provide for the 
Establishment of a Memorial Within Kalaupapa National Historical Park 
Located on the Island of Molokai, in the State of Hawai`i, to Honor and 
Perpetuate the Memory of Those Individuals Who Were Forcibly Relocated 
from 1866 to 1969''.
    The Association coordinated its support efforts with Ka `Ohana O 
Kalaupapa, a non-profit organization established in August of 2003 
whose membership consists of patient residents at Kalaupapa, as well as 
their family and friends, to honor the memory and to promote the value 
and dignity of the more than 8,000 individuals, an estimated 90% of 
whom were indigenous Hawaiian, forcibly separated from their families 
and relocated to Kalaupapa.
    In addition to its debilitating symptoms and the social stigma 
associated with Hansen's disease, these more than 8,000 individuals and 
their families, each with a unique and distinct story, experienced 
profound traumatic loss, abandonment and permanent separation from 
their immediate and extended families and communities. Many who died on 
the peninsula were buried in unmarked graves.
    It is altogether fitting to honor and remember these more than 
8,000 individuals, forced into exile, through a Memorial at Kalaupapa, 
which would be the only one of its kind in the world. Every person 
taken from their family and sent to Kalaupapa will be duly recognized 
with honor and dignity as part of Kalaupapa National Historical Park. 
Such a Memorial would also provide future generations with the 
opportunity to restore family ties that were severed, not by disease, 
but by society's misunderstanding of the disease.
    On behalf of the Association of Hawaiian Civic Clubs, I strongly 
urge favorable action on H.R. 3332.
    Thank you for this opportunity to submit written testimony.
                                 ______
                                 
  Statement of Elizabeth Kuulei Bell, President, Ka` Ohana O Kalaupapa
    I am writing in strong support of the bill that would establish a 
Monument on the Kalaupapa peninsula in honor of the thousands of Hawaii 
residents who were taken from their families, forced to relocate there 
and start new lives.
    I am one of those people. So was my father, my grandfather, my 
father's twin sister, my husband and many more family members. I was 
taken from my mother as a child. Once I was diagnosed with leprosy, she 
could no longer hold me. When I gave birth to my children, I could not 
hold them as babies. Only because of our love of `family did we remain 
close, if not physically, in spirit. We always remained in each other's 
hearts.
    I want to see everybody's name on the Monument, everybody who was 
sent to Kalaupapa. The Monument will be a permanent way to honor all of 
us who were sent here and give our descendents pride. I want my 
children and grandchildren great-grandchildren to know that we were 
here.
    Since Ka `Ohana O Kalaupapa was organized five years ago, I have 
served as president and have been a member of the Monument Committee. 
The Monument has been a priority of the `Ohana from its inception. Last 
summer, we raised enough money to have two people familiar with the 
history of Kalaupapa compile the list of the names of the first 5,000 
people who were sent there. These 5,000 names will serve as the basis 
of the first phase of the Monument.
    Several months ago, I was asked to give a presentation about the 
Monument at the Conference for Native Hawaiian Advancement in Honolulu. 
As I spoke, the hall fell silent as everyone seemed to hang on my every 
word. When I was finished, I received a standing ovation from hundreds 
of my fellow Hawaiians, many with tears in their eyes. Some people 
spontaneously called out that they, too, had family at Kalaupapa and 
wanted them to be remembered. A man began chanting. After the 
presentation, the group made the Kalaupapa Monument one of its 
priorities to support. It was one of the most moving days of my life.
    Please help us make the Monument a reality. We want our names to be 
remembered, we want our lives to be remembered.
                                 ______
                                 
                 Statement of Henry G. Law, on S. 2502
    My first connection with Kalaupapa was in 1977 when I was working 
with the National Park Service on the new area study for Kalaupapa. I 
moved there in 1982 as the first National Park Service employee and 
from 1984-1988, I served as the first Superintendent of Kalaupapa 
National Historical Park. Thus, I have had the opportunity to develop 
close relationships with many of the people of Kalaupapa for close to 
30 years. I strongly support the idea of a Memorial at Kalaupapa, which 
will greatly aid in the Park's mandate of preserving Kalaupapa's 
history for the education and inspiration of present and future 
generations.
    Unlike most other sites managed by the National Park Service (NPS), 
Kalaupapa is still in its historic period. Its residents, past and 
present, are the most significant resource in the Park. With this in 
mind, we undertook a major oral history project at Kalaupapa so that 
the memories and wisdom of the residents could be integrally 
incorporated into present and future interpretation of this most 
significant history. While we were able to document the experiences of 
people who had been sent to Kalaupapa as early as 1914, we also 
realized that at least three-fourths of those sent to Kalaupapa had 
arrived prior to this time. Interpreting their role in Kalaupapa's 
history was extremely difficult since all that was left at Kalawao, the 
site of the first leprosy community, was Father Damien's Church, some 
building ruins and a few graves where previously there had been more 
than 2,000. At present there simply is no way to adequately convey to 
visitors or family members the enormity of the toll that the isolation 
policies took on the people of Hawaii.
    In looking at Kalaupapa, one must think beyond the traditional NPS 
policies if the mandate of the Park is to be truly realized. Though 
erecting memorials is generally against NPS policy, again, it has to be 
remembered that Kalaupapa is still in its historic period. The Memorial 
is clearly the wish of the remaining residents and so many of those who 
have passed away who were actively involved in the establishment of 
Kalaupapa as a National Historical Park in order that their history and 
the history of all who came before them would be remembered.
    I still remember Harry Yamamoto, one of my closest friends, stating 
that he wanted to be buried in Honolulu because he didn't think that 
anyone would maintain his grave if he was buried at Kalaupapa. This was 
not unusual when one understands the number of burial markers that have 
been lost to neglect and the natural elements, including a tsunami. 
Although preserving the graves became a priority for the National Park 
Service, the current inventory of graves only represents approximately 
one sixth of the total number of people that were forcibly isolated 
because of a much misunderstood and feared disease.
    We are living in a time when people can be proud of having endured 
what most of us cannot even imagine. We have a responsibility to these 
individuals to remember the sacrifices they made so that the public 
could feel safe. They are Kalaupapa's most important resource. The 
proposed monument represents a way in which each person can be afforded 
their rightful place in history.
                                 ______
                                 
         Statement of Cynthia Molina, on S. 2502 and H.R. 3332
    Chairperson Bingaman, Ranking Member Pete Domenici and Members of 
the Senate Subcommittee on National Parks. Thank you for this 
opportunity to testify in support of the Kalaupapa Memorial Act, 
introduced as S. 2502 and H.R. 3332.
    I am the granddaughter of Leon Nono who was a long time resident of 
Kalaupapa, Moloka`i. I first met my grandfather nearly 37 years ago, 
when I was but 10 years old. At that time, my siblings and I were not 
allowed to touch him as he was shielded from us (like a prisoner) by a 
glass in a visitors shack at the old Hale Mahalo in Pearlcity. At the 
age of 16, along with my older sister's and brother, I was allowed to 
visit my grandfather in Kalaupapa but could only stay until the sun 
set. At the age of 18, I revisited and continue to visit until today.
    I am fully aware of the history behind Kalaupapa and my 
grandfather's exile and wish not to voice these things that are done 
already. Rather, I would like to share the beauty that has resulted 
from this tragedy. Have you ever ate at the same table with a leper, or 
shared the same bowl, or slept aside a leper, or kissed and hugged and 
loved a leper? I and my siblings have, and if not for my grandfather, I 
would be feeble minded to the differences this world possesses. Instead 
of hatred and anger and all the traits that fit this malevolent 
disease, from it came a deep benevolence that is conceivable only to 
those who know its traits. I am loved by a leper and not just one--but 
by many. Kalaupapa will never be the same when the few patients left 
are no more. The patients are what made Kalaupapa what it is today: 
spiritual, untouched (yet an exile to the untouchables). But I have 
touched and have been touched many times over and have been healed from 
narrow-mindedness, biasness, prejudice, discrimination and all that fit 
these traits.
    Though the roads are newly paved and the houses freshly painted, 
all but a few love and laughter remain. ``Blessed are the meek, for 
they shall inherit the earth'', and the patients of Kalaupapa have 
inherited this flat leafed peninsula on Moloka`i. And though I ask that 
their names be engraved in stone, what is more priceless is that their 
names be engraved in our hearts. Let them not be ``forgotten'' no more. 
Through my grandfathe'rs tragedy, my siblings and I were blessed to 
have been loved by and to have love so many.
    Mahalo Kalaupapa--Thank you for this opportunity to submit my 
testimony in support of the Kalaupapa Memorial Act. Please vote yes and 
support S. 2502 and H.R. 3332
                                 ______
                                 
 Statements of Support for a Monument at Kalaupapa That Were Given to 
Valerie Monson in Late September and Early October of 2006 at Kalaupapa
          I want to see a monument honoring the people of Kalaupapa 
        before I die. I want to see all the names. These people are my 
        friends--even though many of them died before I came here and I 
        didn't know them personally, in spirit we are all together. I 
        know their hearts and souls.
            --Olivia Breitha, 90, who was sent to Kalaupapa in 1937 and 
        is the author of the book, ``Olivia: My Life of Exile in 
        Kalaupapa.'' Olivia spoke these words barely a week before she 
        died on Sept. 28, 2006.

          I think we deserve to be remembered. We are part of this 
        world. The people outside of Kalaupapa should know that we did 
        one great thing: we were incarcerated here just for their sake 
        because they thought we were contagious. We didn't want to be 
        sent here. It was for the safety of other people that we were 
        put away. Greater love hath no man than to give up his life for 
        a friend. That's what we did.
            --Cathrine Puahala, sent to Kalaupapa on May 15, 1942, a 
        few years after being taken away from her family at age 7 
        because she was diagnosed with leprosy. Three brothers and a 
        sister of Cathrine were also sent to Kalaupapa where they died. 
        Cathrine gave this statement on Oct. 4, 2006.

          I was taken from my family on the Big Island of Hawaii at age 
        10 and sent to Honolulu after I was diagnosed with leprosy, now 
        called Hansen's disease. This was not the first time that our 
        family was torn apart by the disease. My two older sisters were 
        shipped to Kalaupapa in 1929 and 1932, respectively. Because I 
        was only six years old when my second sister left, I never 
        understood why she went away.
          After they were sent to Kalaupapa, I never saw my sisters 
        again. Even though I, too, was sent to Kalaupapa in 1941, they 
        had already died. I never could find their graves. I don't know 
        how many years I searched and searched for them. I used to walk 
        the graveyards from one end to the other looking for the graves 
        of my sisters. Until today, I cannot find them.
          I'd like to see the names of my sisters on a memorial at 
        Kalaupapa--I'd like to see the names right next to mine.''
            --Henry Nalaielua, who was sent to Kalaupapa in 1941 and is 
        the author of the book, ``No Footprints in the Sand.'' Henry 
        gave this statement on Oct. 5, 2006.

          Sign for my aunt. Sign for Uncle Frank. Sign for my dad. Sign 
        for Eddie (his brother),
            --Richard Marks, a longtime businessman and activist at 
        Kalaupapa. After Richard authorized the signature of his name 
        to the petition supporting a monument, on Oct. 5, 2005, he 
        asked that the signatures of members of his family buried at 
        Kalaupapa also be added.
                                 ______
                                 
 Statment of John L. Nau, III, Chairman, Advisory Council on Historic 
                        Preservation, on S. 2262
                           summary statement
    The Preserve America and Save America's Treasures Act (S. 2262) 
would provide legislative authorization for two existing programs that 
are important sources of support for the preservation and productive 
use of our nation's historic properties. The Advisory Council on 
Historic Preservation (ACHP), an independent federal agency, has been a 
leader in administering the Preserve America program over the five 
years of its existence. We can attest to the success of Preserve 
America in helping communities across the nation. Preserve America, 
with its emphasis on public-private partnerships to promote heritage 
tourism and economic vitality through historic preservation, 
complements the work of the Save America's Treasures Program, which 
helps to fund the rehabilitation and conservation of America's most 
significant historic resources. The ACHP supports S. 2262, since 
legislative authorization will ensure the continued existence of these 
important programs.
                               background
    Title II of the National Historic Preservation Act (NHPA) 
established the ACHP. NHPA charges the ACHP with advising the President 
and the Congress on historic preservation matters and entrusts the ACHP 
with the unique mission of advancing historic preservation within the 
federal government and the national historic preservation program. The 
ACHP's authority and responsibilities are principally derived from the 
NHPA.
    The ACHP plays a pivotal role in the national historic preservation 
program. Founded as a unique partnership among federal, state, and 
local governments, Indian tribes, and the public to advance the 
preservation of America's heritage while recognizing contemporary 
needs, the partnership has matured and expanded over time. The ACHP 
promotes consistency in federal preservation efforts and assists 
federal agencies in meeting their preservation responsibilities.
    The ACHP also plays a key role in shaping historic preservation 
policy and programs at the highest levels of the Administration. In 
that capacity, the ACHP created an initiative for the White House 
designed to stimulate creative partnerships among all levels of 
government and the private sector to preserve and actively use historic 
resources for a better appreciation of America's history and diversity. 
The initiative is known as Preserve America.
    The components of Preserve America complement the work of the Save 
America's Treasures program. Save America's Treasures grants fund 
preservation and/or conservation work on nationally significant 
intellectual and cultural artifacts and historic structures and sites. 
The Preserve America and Save America's Treasures Act (S. 2262) would 
provide legislative authorization for both the Preserve America 
initiative and the Save America's Treasures program.
                            preserve america
    First Lady Laura Bush, Honorary Chair of Preserve America, 
announced the Preserve America initiative on March 3, 2003. On the same 
day, President George W. Bush issued Executive Order 13287, ``Preserve 
America,'' to improve federal stewardship of historic properties and to 
foster recognition of such properties as national assets to be used for 
economic, educational, and other purposes.
    Preserve America encourages and supports community efforts to 
preserve and enjoy our priceless cultural and natural heritage. The 
goals of the initiative include a greater shared knowledge about the 
nation's past, strengthened regional identities and local pride, 
increased local participation in preserving the country's cultural and 
natural heritage assets, and support for the economic vitality of our 
communities. Preserve America promotes these objectives through the 
following:

  <bullet> Recognition programs: The ACHP administers the Preserve 
        America Communities program (discussed in detail below) and the 
        Preserve America Presidential Awards program. Through the 
        Presidential Awards program, four awards are given annually to 
        organizations, businesses, and government entities for 
        exemplary accomplishments in the sustainable use and 
        preservation of cultural or natural heritage assets; 
        demonstrated commitment to the protection and interpretation of 
        America's cultural or natural heritage assets; and integration 
        of these assets into contemporary community life.
  <bullet> Financial assistance for local communities: The National 
        Park Service manages the Preserve America Grants program 
        (discussed in detail below).
  <bullet> Educational outreach: The Preserve America History Teacher 
        of the Year Award, established by the Gilder Lehrman Institute 
        of American History, recognizes outstanding American history 
        teachers and the crucial importance of American history 
        education. As Honorary Chair of Preserve America, First Lady 
        Laura Bush has presented this annual award.
  <bullet> Preserve America Summit: To celebrate the 40th anniversary 
        of passage of the NHPA, the ACHP convened the Preserve America 
        Summit in October 2006. With First Lady Laura Bush as the 
        keynote speaker, more than 450 invited participants gathered to 
        consider historic preservation's past and future. Based on 
        issues discussed at the Summit, the ACHP issued recommendations 
        on actions the federal government should take to promote 
        continued growth and improvement in the federal preservation 
        program, and enhanced use and appreciation of America's 
        invaluable heritage assets. The ACHP is working with federal 
        and non-federal partners to advance implementation of these 
        recommendations.
  <bullet> Executive Order 13287, ``Preserve America'': The Preserve 
        America Executive Order mandates a number of actions that are 
        intended to encourage better accountability for the use of 
        federally owned historic properties. Every three years, each 
        agency with real property management responsibilities must 
        prepare and submit to the ACHP and the Secretary of the 
        Interior a report detailing the progress the agency has made in 
        identifying, protecting, and using historic properties in its 
        ownership. Based on these reports, the ACHP prepares a report 
        to the President on the state of the federal government's 
        historic properties and their contribution to local economic 
        development.

    The ACHP co-chairs (with the Department of the Interior) a Preserve 
America Steering Committee comprised of 13 departments and agencies.\1\ 
In coordination with the White House, the Preserve America Steering 
Committee identifies policy needs and oversees the initiative. At the 
operational level, ACHP staff works with partner federal agencies and 
others as appropriate to carry out specific Preserve America 
activities.
---------------------------------------------------------------------------
    \1\ Federal agencies represented on the Preserve America Steering 
Committee are the ACHP; the U.S. Departments of Agriculture, Commerce, 
Defense, Education, Housing and Urban Development, Interior, and 
Transportation; the General Services Administration; the Institute for 
Museum and Library Services; the National Endowment for the Humanities; 
the President's Committee on the Arts and the Humanities; and the 
President's Council on Environmental Quality.
---------------------------------------------------------------------------
Preserve America Communities
    S. 2262 would codify the current process for designating Preserve 
America Communities. The ACHP, in cooperation with the National Park 
Service, administers the Preserve America Community program. 
Designation recognizes communities that protect and celebrate their 
local heritage. Communities eligible to apply include municipalities, 
counties, Indian tribes, and neighborhoods in large cities. Since the 
program began, Mrs. Bush has designated 608 communities in all 50 
states and the U.S. Virgin Islands.
    Preserve America Communities use their historic assets for economic 
development and community revitalization and encourage people to 
experience and appreciate local historic resources through education 
and heritage tourism programs. To be designated, an applicant community 
must demonstrate that it recently supported a historic or cultural 
preservation project that promotes heritage tourism or fosters economic 
vitality and which involves a public/private partnership. The community 
also must indicate its commitment to the preservation of heritage 
assets and meet criteria within three broad categories: discovering 
heritage through historic places, protecting historic resources, and 
promoting historic assets.
    Currently designated Preserve America Communities are richly 
varied. Some are iconic historic places, like New Orleans, Gettysburg, 
and Williamsburg. Some are major metropolitan areas, such as 
Philadelphia, Phoenix, and Miami. In contrast, Preserve America 
Communities can also be very small, like Medora, North Dakota, 
(population 100) a gateway community for Theodore Roosevelt National 
Park that has become a popular tourist attraction in large part because 
of preservation of its frontier heritage.
    Neighborhoods in large cities can apply to become Preserve America 
Communities, and the 14 designated to date are diverse. Among them are 
Honolulu's Chinatown Historic District, San Diego's Little Italy, and 
The District, the historic heart of Nashville, Tennessee. Counties are 
also eligible for designation. Among those designated are six rural 
counties in southeastern Colorado--Baca, Bent, Crowley, Kiowa, Otero, 
and Prowers Counties--that became Preserve America Communities as part 
of a regional strategy to promote heritage tourism and economic 
revitalization.
    Indian tribes as well as Native Alaskan villages and corporations 
are also eligible to become Preserve America Communities. Two have 
applied to date, resulting in designation of the White Mountain Apache 
Tribe and St. George Island in Alaska's Pribilof Islands.
    Designation as a Preserve America Community provides national 
recognition for the grass-roots efforts of communities both to preserve 
their heritage and to use it in support of their economic vitality. In 
addition to intangible benefits such as enhanced community visibility 
and pride, Preserve America Community designation also makes 
communities eligible for Preserve America Grants.
Preserve America Grants
    S. 2262 would provide legislative authorization for the existing 
Preserve America Grant Program. Since 2006, Congress has appropriated 
almost $17 million for Preserve America Grants. Administered by the 
National Park Service, in cooperation with the ACHP, these grants offer 
a new type of federal preservation funding that supports heritage 
tourism initiatives, promotion/marketing programs, and interpretive/
educational initiatives.
    While other programs address physical rehabilitation, Preserve 
America Grants provide critically needed up-front planning and 
associated assistance to communities looking for ways to preserve their 
local heritage in a self-sustaining manner. No other federal funding 
program has this specific focus. Preserve America Grants support 
planning, development, implementation, or enhancement of innovative 
activities and programs in heritage tourism, including interpretation/
education, planning, marketing, training, and research/documentation of 
cultural resources. Funded projects involve public-private partnerships 
and serve as models to communities nationwide for heritage tourism, 
historic preservation, education, and economic development.
    Preserve America Grants are awarded through a competitive process. 
Grants require a dollar-for-dollar, non-federal match, which can be 
cash, donated services, or use of equipment. Eligible recipients are 
designated Preserve America Communities; Certified Local Governments\2\ 
that have applied for Preserve America Community designation; State 
Historic Preservation Offices (SHPOs); and Tribal Historic Preservation 
Offices (THPOs). The minimum grant request is $20,000 federal share 
(resulting in a total project cost of $40,000). The maximum grant 
request for any project is $250,000 (resulting in a total project cost 
of $500,000).
---------------------------------------------------------------------------
    \2\ A Certified Local Government (CLG) is a community whose local 
preservation program has been certified by their State Historic 
Preservation Officer as meeting established standards for the 
protection of historic properties. CLGs are eligible to receive a 
portion of the federal Historic Preservation Fund funding provided to 
the states.
---------------------------------------------------------------------------
    Some communities, like the historic textile center of Gastonia, 
North Carolina, have received grants to develop multi-faceted marketing 
campaigns--using wayfinding signs, walking tour brochures, Web sites 
and other materials--to promote themselves as heritage and cultural 
tourism destinations. Others are using Preserve America Grants to plan 
for the reuse of historic properties for heritage tourism. For example, 
Brattleboro, Vermont, received a Preserve America Grant to create a 
master plan for the rehabilitation and adaptive reuse of the historic 
Estey Organ Factory Complex as a museum. Similarly, Silver City, New 
Mexico, is using a Preserve America Grant to plan for the adaptive 
reuse and rehabilitation of the historic Silver City Waterworks.
    Twenty-five SHPOs have received Preserve America Grants. Some, like 
Arkansas and South Carolina, have established subgrant programs to 
assist local communities in promoting heritage tourism. Others, 
including Montana and Wyoming, are using Preserve America Grants to 
fund preservation and heritage tourism training for local communities.
    Some SHPO grant recipients are focusing their efforts on specific 
historic properties. For example, Pennsylvania is creating a living 
history program to increase the visibility of Underground Railroad and 
Civil War resources in several counties, while Georgia has launched a 
campaign to protect and interpret the state's historic cemeteries. 
Several states--Arkansas, Colorado, Kentucky, Montana, North Carolina, 
and Pennsylvania--are using Preserve America Grant funds for survey and 
planning initiatives aimed at revitalizing rural areas through heritage 
tourism.
    Preserve America Grants do not fund ``bricks and mortar'' 
rehabilitation of historic resources, but rather their productive 
continued preservation and use. Thus, the program complements rather 
than duplicates other federal funding programs, including Save 
America's Treasures.
                        save america's treasures
    S. 2262 would provide legislative authorization for the Save 
America's Treasures program, which was created in 1998 as a Millennium 
initiative. The program has evolved to become one of the largest and 
most successful sources of federal funding for historic preservation. 
Since FY 1999, 967 grants (469 earmarks and 498 competitive grants) 
totaling $264.5 million have been awarded. All 50 states, the District 
of Columbia, Puerto Rico, and Midway Island have received grants.
    Save America's Treasures funds preservation and/or conservation 
work on nationally significant intellectual and cultural artifacts, and 
historic structures and sites. Intellectual and cultural artifacts 
include artifacts, collections, documents, sculpture, and works of art. 
Historic structures and sites include historic districts, sites, 
buildings, structures, and objects. Reflecting the scope of the 
program, Save America's Treasures grants have helped to conserve both 
the Star-Spangled Banner and the house in Baltimore where the flag was 
created, as well as the original draft of the national anthem it 
inspired.
    Federal, state, local, and tribal government entities, and non-
profit organizations are eligible to apply for the competitive 
matching-grant component of the program. A dollar-for-dollar, non-
federal match is required. The minimum grant request for collections 
projects is $25,000; the minimum grant request for historic property 
projects is $125,000. The maximum grant request for all projects is 
$700,000.
    First Lady Laura Bush is the Honorary Chair of Save America's 
Treasures. The grant program is administered by the National Park 
Service in partnership with the President's Committee on the Arts and 
the Humanities. Collaborating on the selection and oversight of the 
grants are the National Endowment for the Arts, the National Endowment 
for the Humanities, and the Institute of Museum and Library Services. 
The National Trust for Historic Preservation is the program's private 
partner, and its fundraising efforts help projects secure the required 
private match.
    Save America's Treasures has been instrumental in helping to 
preserve some of America's most significant historic resources. Many 
are associated with famous Americans, like the Dexter Avenue King 
Memorial Baptist Church in Montgomery, Alabama, where Dr. Martin Luther 
King, Jr. began his quest for civil rights, and Thomas Edison's letters 
and lab notes at the Edison National Historic Site in New Jersey. 
Others are places where uniquely important historic events occurred, 
from Boston's Old North Church, starting point of Paul Revere's famous 
ride, to the Manhattan Project Buildings in Los Alamos, New Mexico, 
birthplace of the atom bomb. Architecturally significant properties 
receiving grants run the gamut from ancient sites like the cliff 
dwellings of Mesa Verde, to important 20th century properties like the 
Liberty Theatre in Astoria, Oregon, which is one of the best examples 
of a motion picture palace in the Pacific Northwest.
                               conclusion
    For five years and 10 years, respectively, Preserve America and 
Save America's Treasures have evolved to provide vitally needed support 
for the preservation and productive use of our nation's heritage 
assets. Across the country, in communities large and small, these 
programs have a proven track record of supporting heritage tourism, and 
the rehabilitation and conservation of historic resources. We hope the 
Subcommittee will favorably consider S. 2262, which will provide the 
legislative authorization needed to ensure the future continuance of 
Preserve America and Save America's Treasures.
    We appreciate the Subcommittee's interest in these issues, and 
thank you for your consideration and the opportunity to present our 
views.
                                 ______
                                 
 Statement of Pamela Parlapiano, Professional Photographer, Brooklyn, 
                            NY, on H.R. 4529
    I have devoted 15 years of my twenty year photography career to 
photographing people all over the world affected by Hansen's Disease/
leprosy in order to help ensure that history depicts the character of 
people who had previously been solely defined and photographed based on 
their illness.
    Most people, including people who lived and continue to live in 
Kalaupapa, were taken from their families to live in exile, yet they 
created lives that included friends and family and helped one another 
as they faced tragedy and deep personal loss.
    A Memorial to honor these individuals and their courage is not only 
due the people who were forcibly sent to Kalaupapa, it is a vital part 
of history that our society needs to acknowledge and remember.
    We acknowledge places like Auschwitz and focus on issues like 
slavery in museums all over the world, because we hope never to repeat 
such situations where humanity is so compromised. We make movies about 
individuals who were slaves and individuals who made a difference in 
the Holocaust because it is vital that society acknowledge as heroes 
those individuals who are able to triumph over inhumanity.
    I had the honor to meet and photograph Bernard Punikai`a, IDEA's 
President for International Advocacy, who at the age of six was 
forcibly taken from his mother because he had leprosy. At the opening 
of the Quest for Dignity Exhibit at the United Nations in 1997, he gave 
the keynote speech at the dinner reception and reflected on the 
photograph taken of him when he entered Kalihi Hospital, prior to being 
sent to Kalaupapa. He said that he could feel the pain of this young 
boy and wanted to tell him that, yes, one day there would be dignity, 
but that it would take a lifetime for that to occur.
    Bernard has helped create affordable housing for people who are 
physically challenged and senior citizens. He has composed music and 
educated school children. He has gotten to know and won the respect of 
most of the politicians in Hawaii. Bernard is one of those heroes who 
need to be acknowledged. We owe it to him; we owe it to his mother.
    The story of Kalaupapa and people affected by Hansen's Disease is 
full of pain, ignorance, kindness and heroes. No one can take back what 
happened to the people of Kalaupapa in the past, but we can make sure 
that the people who lived out their lives at Kalaupapa are not 
forgotten in the future. The story of Kalaupapa and the people who 
lived it must be told, must be acknowledged, and must be honored. A 
memorial with the names of all those individuals who were forced to 
give up so much, and who sadly experienced so much rejection, is a most 
fitting way to respect and honor the people of Kalaupapa and the lives 
they lived.
                                 ______
                                 
             Statement of Bernard K. Punikai`a, on S. 2502
    I wish to express to you today my strong support for S 2502, 
establishing a monument which would recognize thousands of 
individuals--many of them long forgotten--who have been sent to 
Kalaupapa over several generations. These men, women and children not 
only suffered the physical and social effects of Hansen's Disease, but 
also the pain of enforced separation from family and friends. Their 
lives and contributions--no less than those of our beloved Father 
Damien and Mother Marianne, known and celebrated for their dedication 
to the people of Kalaupapa--deserve to be memorialized for posterity.
    Diagnosed with Hansen's Disease at the age of six, I was taken from 
my family and isolated at Kalihi Hospital. When I was eleven, I was 
sent with other children to Kalaupapa, where I lived for many years, 
until moving to Hale Mohalu in Pearl City. I am presently staying at 
Leahi Hospital in Kaimuki, but maintain a residence in Kalaupapa, to 
which I hope to return one day.
    My support for this bill does not come from any deep urge to see my 
own name carved in stone. Along with my contemporaries in Kalaupapa and 
elsewhere in the community, I have been fortunate to receive 
considerable recognition and generous support from friends and 
neighbors everywhere. Those that preceded us were not as fortunate. It 
is their names and memories that I look forward to seeing on the 
proposed monument. It is their names that will be part of the 
historical record left for future generations.
    While we are grateful for whatever the government can do, we 
residents of Kalaupapa--along with our friends and supporters--wish to 
do our part as private citizens. I, as Honorary Chair of Ka `Ohana O 
Kalaupapa, have already made a monetary pledge and urge others to do 
the same.
    Thank you for this opportunity to offer my testimony.
                                 ______
                                 
  Statement of Anwei Skinsnes Law, M.P.H., International Coordinator, 
                            IDEA, on S. 2502
    On January 6, 1866, J.D. Kahauliko, listed on Hawaii's leprosy 
registers as #1, boarded the small sailing schooner Warwick, bound for 
a remote peninsula on the north shore of the island of Molokai. With 
him were eight men and three women--J.N. Loe, Liilii, Puha, Kini, Lono, 
Waipio, Kainana, Kaumoana, Nahuina, Lakapu and Kepihe, along with a few 
family members who refused to have their sick relatives sent off alone. 
They were the first of approximately 8,000 people who, over the next 
century, were separated from all they held dear--family, friends, 
community, and life as they knew it--because they had a disease that 
was deemed by some to be a threat to society. The isolation policies, 
were in stark contrast to the philosophy of the Hawaiian people, who 
placed love before fear and for whom separation from family was far 
worse than leprosy.
    It was January and the voyage across the rough seas of the Molokai 
Channel must have been traumatic, especially for people who were in the 
advanced stages of what was, at that time, a devastating, incurable 
disease. Those who made the trip in later years, on boats far larger 
than the Warwick, described high waves, constant seasickness and an 
overwhelming longing for home. Thus began the massive forced relocation 
of thousands of people, at least 90% of whom were Kanaka Maoli, native 
Hawaiians. The only justification for their removal from society was 
that they were believed to have leprosy.
    The history of Kalaupapa and those individuals who were isolated 
there provides powerful insights into the importance of considering the 
long term social implications of public health policies that will 
persist long after a particular medical crisis is over. Today, more 
than140 years after the first 12 people were relocated to Kalaupapa and 
67 years after a cure was discovered for leprosy, family ties are only 
beginning to be restored and individual identities fully appreciated.
    As has been true for millions of people around the world who have 
contracted leprosy, the first 12 people sent to the Kalaupapa peninsula 
and the thousands who followed have been largely left out of 
traditional histories. It is only recently that an international effort 
has been launched to return people who have had leprosy to their 
rightful place in their own histories. The history of those individuals 
who were sent to Kalaupapa is at the forefront of this effort.
    IDEA, the International Association for Integration, Dignity and 
Economic Advancement, is the largest international advocacy 
organization and network of support for individuals whose lives have 
been challenged by leprosy. In 2006, IDEA was granted special 
consultative status with the Social and Economic Council of the United 
Nations. IDEA's leadership is primarily made of up individuals who have 
themselves personally faced the challenges of leprosy, including 
Bernard Ka`owakaokalani Punikai`a from Hawaii, who has been a leader in 
promoting dignity and human rights, not only for people affected by 
leprosy, but for every human being on this earth. In 2003, IDEA 
launched a Global Campaign to Eliminate the Stigma Associated with 
Leprosy. Two major steps identified as necessary to eliminate the 3,000 
year old stigma are Restoring People to Their Rightful Place in Their 
Own History and The Restoration of Family Ties.
    IDEA strongly supports the establishment of a Memorial at 
Kalaupapa, which will be the only one of its kind in the world, where 
every person taken from their family and sent to Kalaupapa will be duly 
recognized with honor and dignity as part of Kalaupapa National 
Historical Park. At the same time, the Memorial will provide future 
generations with the opportunity to restore family ties that were 
severed, not by a disease, but by society's misunderstanding of it.

          Some people who are trying to learn about their family 
        history will come to find out they had relatives at Kalaupapa. 
        If they feel at all the same way that we do, they will be proud 
        that their family was part of the `aina, part of the soul of 
        this land.
            --Bernard Ka`owakaokalani Punikai`a
                                 ______
                                 
                    Statement of Laura L. Tollefson
    My name is Laura L. Tollefson and I am the great granddaughter of 
Benjamin and Rose Pe`a. Both of these people were members of a 
wonderful group of people who lived in Kalaupapa and had Hansen's 
disease.
    Unfortunately I never got to know my great grandma Rose Kahalione 
Na`ilau Pe`a, but I did get to know my Grandpa Ben. I started writing 
letters to my great grandpa when I was 12 years old; this was also the 
first time that I got to meet him. I knew very little about the 
Hawaiian side of my family because my dad was killed in action in 
Vietnam in 1967, I was only 4 and a half years old.
    Therefore, when my Great Grandpa Ben came up to the topside of 
Moloka`i and met with me my Auntie Francis Manuel and her children; 
William, Faye, Anne, Andrew and Jane, I couldn't have been happier. My 
great grandpa told me about the time my dad and his dad walked down the 
path to Kalaupapa and surprised my great grandpa Ben with a visit. 
Grandpa Ben told me about some of his days in the past and some of his 
friends and a little bit about my great grandma Rose. There isn't one 
negative thing he told me about his life in Kalaupapa. He was happy 
with his friends and church family.
    The next time I visited my Grandpa Ben, I went down to Kalaupapa 
and he was with his care takers, the Dru's. He had just shown me a book 
that he was in called; Ma`i Ho`oka Awale and he gave it to me to keep.
    The beauty of Kalaupapa is unreal, but I also know that it holds a 
lot of sadness, and need for the grace and dignity of the people who 
live/and lived in this place. So many missionaries gave their lives to 
help these people, even Queen Liliuokalani had to go and see her people 
in Kalaupapa and try to help them as best she could.
    Senator Akaka, now is the time that we can finally give the people 
of Kalaupapa what they deserve, please let them be forever remembered 
by allowing a memorial Wall, such as the Vietnam wall that my father is 
remembered on, to be built on Kalaupapa.
                                 ______
                                 
               Statement of Emerald K. Adams, on S. 2502
    Thank you for this opportunity to testify in support of S. 2502 
Kalaupapa Memorial. I support the the establishment of a memorial 
within Kalaupapa National Historical Park located on the island of 
Molokai, in the State of Hawaii,to honor and perpetuate the memory of 
those individuals who were forcibly relocated to the Kalaupapa 
Peninsula from 1866 to 1969, and for other purposes.
                                 ______
                                 
              Statement of Caroline Bonnet, Cloverdale, CA
    Thank you for providing me with an opportunity to testify in 
support of the Kalaupapa Memorial Act. I was a nurse at Kalaupapa from 
1989 until 1990. It was one of the most meaningful experiences in my 
nursing career. I felt honored to be able to care for the patients 
there, and become acquainted them and with the history of Kalaupapa.
    The peninsula is one of the most beautiful spots on earth with a 
rich and tragic history. And the people that I lived and worked with 
are some of the most beautiful people I've encountered in my 66 years. 
It is appropriate that these people be remembered by placing a memorial 
in their honor for all to become aware of the tragedy, struggle and 
hardship these people endured.
    The plan to establish a memorial at both settlements--Kalawao and 
Kalaupapa--is I think, most fitting. I feel very gratified in knowing a 
memorial is to be placed in these sacred grounds.
    Thank you very much.
                                 ______
                                 
  Statement of Darlene Kehaulani Butts, Ke Ali`i Maka`ainana Hawaiian 
                        Civic Club, Stafford, VA
    Ke Ali`i Maka`ainana Hawaiian Civic Club of Washington, D.C.; one 
of 53 Hawaiian Civic Clubs throughout Hawai`i, Alaska, California, 
Colorado, Illinois, Nevada, Utah, Virginia, and Washington state, co-
authored the Kalaupapa Memorial Resolution presented during the 2006 
Association of Hawaiian Civic Clubs convention in Waikiki, O`ahu, 
Hawai`i. We stood squarely with Ho`olehua Hawaiian Civic Club of 
Ho`olehua, Moloka`i, Hawai`i and members of Ka `Ohana O Kalaupapa as 
this Resolution passed unanimously in committee and on the convention 
floor.
    The membership of Ke Ali`i Maka`ainana Hawaiian Civic Club 
continues to stand in full support of the Kalaupapa Memorial.
    Mahalo for your positive action to this request from the Nakahili-
Hakuole, English and Mokuau families; my mother's family; of Moloka`i.
    Mahalo Nui Loa.
                                 ______
                                 
    Statement of Rochelle delaCruz, Editor and Publisher, Northwest 
                             Hawai`i Times
    I am writing in support of the Kalaupapa Memorial Act (S 2502) to 
remember and honor those 8,000 people of Hawai`i, mostly Kanaka Maoli, 
suffering from Hansen's Disease who were exiled to that isolated 
Molokai peninsula from 1866 to 1969. Most of them died there, buried in 
graves that were either unmarked or with markers that have long 
disappeared. A memorial dedicated to their value and dignity will help 
bring honorable closure to this sad episode in Hawai`i's history, not 
only for families directly impacted by this disease named Ma`i 
Ho`oka`awale or the Separating Sickness, but for all of us from our 
beloved Islands.
    Mahalo nui loa to you Senator Akaka for all your efforts to help in 
the establishment of this important Monument.
    Aloha.
                                 ______
                                 
                      Statement of Takayuki Harada
    First of all, I want to express my gratitude for your willingness 
to introduce the Kalaupapa Memorial Act to the Senate. The 
establishment of such a monument honors and perpetuates the memory of 
each individual sent to Kalaupapa. It is vital to assure that we do not 
forget such an important part of Hawaiian history. Hansen's disease had 
a devastating impact on so many families in this state. This monument 
will go a long way to make ``pono'' a century of wrong committed to a 
community of people who were diagnosed with a disease that unfairly 
stigmatized against them and everyone connected to them.
    For 13 years, I was denied the opportunity of knowing my brother 
because he was sent to Kalaupapa. In 1954, when Paul Harada was 
``cured'', I was introduced to the brother I had never known. The 
subsequent days were difficult because of the stigma that was attached 
to one who was a ``leprosy patient''. We, as children, were not allowed 
to live at our home because officials of the state informed our parents 
that we could not live in the same household with him. I was a confused 
thirteen year old, told that Paul was cured but unable to live with him 
in the same household.
    Since that encounter, I was able to renew a relationship with a 
beloved brother and a gracious mentor. That relationship helped me to 
rid myself of prejudice and the need to judge others who were different 
from me. Paul died on January 4, 2008, in Kalaupapa. This would be 
fitting gesture to perpetuate the memory of his sacrifice, and of 
others before him who sacrificed the opportunity for a normal life, so 
that I and the rest of my family could lead and live normal lives 
without prejudice and fear.
    I urge all to support this legislation.
                                 ______
                                 
                    Statement of Robert K. Hutchison
    The Hutchison family, (my sisters, Holly, Mercy and myself), 
strongly supports the establishment of the Kalaupapa Memorial, as 
expressed in the Kalaupapa Memorial Act (S 2502), which passed the 
House of Representatives on February 12.
    Leprosy has deeply touched the Hutchison family. Our 
greatgrandfather, Dr Ferdinand William Hutchison, who was Minister of 
the Interior to Kamehameha V, was instrumental in the establishment and 
initial operation of the Kalaupapa settlement. My grandfather's 
brother, Ambrose K Hutchison, was an early patient. My grandmother's 
sister, Emma K Nakuina, was also an early patient there. My father's 
brother, Sabin K Hutchison, was a patient there.
    In view of the effect leprosy has had on my family and on the 
Hawaiian Islands, we strongly urge the establishment of a memorial with 
the names of the individuals sent there. The monument will be a 
permanent salute to all who were sent there for no other reason than to 
be afflicted with leprosy. They had committed no crime, but were 
nevertheless shunted to a life of isolation. Their separation from 
their loved ones was a heavy burden for them and their families.
    President Theodore Roosevelt understood the importance of 
recognizing the people of Kalaupapa, when he ordered the Great White 
Fleet, in its around the world cruise in 1908, to pass in sight of 
Kalaupapa. It is only fitting, that the US Congress, 100 years later, 
also salute the people of Kalaupapa by having their names engraved on 
an enduring memorial for future generations to see and touch.
                                 ______
                                 
 Statement of Kerri A. Inglis, Ph.D., Assistant Professor of History, 
          University of Hawai`i at Hilo, Hilo, HI, on S. 2502
    There is an `olelo no`eau (Hawaiian proverb) which states: Ola ka 
inoa. It means ``the name lives'' and traditionally would be said when 
the name of a beloved, deceased relative is given to a child.\1\ 
Creating a memorial that lists the names of all who were sent to 
Kalawao and Kalaupapa settlements, from 1865 to 1969, would not only 
honor those individuals who contracted Hansen's disease (leprosy) and 
lived at the settlement, but it would ensure that their ``names'' 
(meaning their histories) would also live on in that `aina (land) and 
in our memories.
---------------------------------------------------------------------------
    \1\ Mary Kawena Pukui, ed., `Olelo No`eau, Hawaiian Proverbs and 
Poetical Sayings, (Honolulu: University of Hawaii Press, 1986).
---------------------------------------------------------------------------
    I not only support the building of a memorial, dedicated to naming 
all the individuals who were sent to Kalawao & Kalaupapa settlements, 
but believe it to be both necessary and long over-due. When the 1865 
``An Act to Prevent the Spread of Leprosy'' was passed it facilitated 
the severing of family/genealogical connections in the Hawaiian nation. 
Indeed, by the 1890s the disease came to be known to most Hawaiians as 
ma`i ho`oka`awale `ohana (the disease that separates families). A 
memorial would give families the opportunity to re-connect and re-
establish those sacred family ties to those ancestors who had been 
taken from their homes and communities.
    The Kalaupapa peninsula is a sacred place. It is a land ``set 
apart''--for its rich natural history, its incredible history of early 
Hawaiian settlement, and its dramatic history as a settlement for 
individuals in the islands who contracted leprosy during the 19th and 
20th centuries. It is a land that has been consecrated by the pain and 
suffering of those individuals who were displaced from their families 
and their communities because they had a disease. It is also a land 
consecrated by their great examples of perseverance, survival, service 
to one another (kokua), new formations of community and `ohana 
(family), and the ability to still find joy in life even in the face of 
their adversities.
    A memorial is needed--not just to mark the place of their death--
but to remember Kalawao and Kalaupapa as the lands where they lived, 
that we might always remember them, and learn from the great lessons of 
their lives.
    I first learned about the Kalaupapa settlement some seventeen years 
ago and have been a student of its history ever since. One of my 
sweetest memories of Kalaupapa is of a day that a friend and I spent 
with our dear friend, Clarence Naia. Uncle Naia took us on a tour of 
the peninsula and as we traveled the road to Kalawao, then out to the 
light house, and back to Kalaupapa, he shared with us many of the 
precious memories of his life in the settlement.
    I will never forget two things he told us that day. The first was 
that ``God made this place for us, . . . [those of us] with the 
sickness.'' It was clear to my friend and I that Uncle Naia loved this 
`aina (his home) and his `ohana (extended family/community) on the 
peninsula. The second comment I will never forget came as we drove past 
the many gravesites that line the makai (ocean) side of the road from 
the airport back to Kalaupapa. As we drove past, Uncle Naia slowed down 
and pointed to one of the many cemeteries and said ``that's where my 
brothers and sisters are''.
    At first we were confused. Earlier in the day he had told us that 
other than his parents, he was the only member of his family to live at 
the settlement. Then he explained, the simple and profound truth, that 
all who had lived upon this peninsula were his ``brothers and 
sisters.'' I think Uncle Naia wanted to teach us two things in that 
moment. First, that he was connected to all who had been sent there. 
Secondly, that he wanted us to connect to those who had gone before him 
as well, his `ohana. He was connecting the present with the past 
through the concept of `ohana, family, and by extension genealogy 
(albeit metaphorical).
    That is the way that Hawaiians have always kept their history--
through their connections to `ohana, their genealogy if you will, but 
it does not have to be a literal, bloodline connection. It is in the 
names of those who have gone before us that we will remember their 
stories, their lives, their struggles, and their triumphs.
    Ola na inoa! Let the names live! We need to build a memorial that 
lists their names, for in their names, they will live for us. Our 
present will be connected to their past and in remembering them we will 
remember the great lessons of their lives.
                                 ______
                                 
                 Statement of Kehaulani Lum, on S. 2502
    Chairman Bingaman and members of the Committee, thank you for the 
opportunity to express my strong support for S. 2502, the Kalaupapa 
Memorial Act.
    S. 2502 authorizes the establishment of a memorial within Kalaupapa 
National Historical Park located on the island of Molokai, in the State 
of Hawaii, to honor and perpetuate the memory of those individuals who 
were forcibly relocated to the Kalaupapa Peninsula from 1866 to 1969.
    This vital piece of legislation is long overdue.
    As the grandniece of one of the historical park's last remaining 
residents, Anakala Henry Nalaielua, my support for this measure is 
deeply personal. I am grateful to the bill's sponsors, Senator Akaka 
and Senator Inouye, for their important leadership, and to the 
Committee for its genuine commitment.
    Like others before him, Uncle Henry was involuntarily sent to 
Kalaupapa as a young child, by a gross violation of fundamental human 
rights that today would stir many in our great nation to protest. That 
he has emerged from this experience as a loving person, a talented 
artist and author, and, by all meanings of the term, a productive 
citizen, speaks volumes of his incredible strength and human spirit. I 
am in awe of him, and I know that if you had a chance to travel to 
Kalaupapa and meet him and his fellow residents, you would be too.
    In truth, no memorial will ever restore the days, months and years 
that were lost and the countless childhood memories that were so 
callously denied thousands of individuals who were torn from their 
parents over a century and more. It is too late to turn back the time 
and make them whole. But, there is still time to heal the legacy of 
societal indifference and honor, respect and remember their sacrifices 
in a meaningful way. A memorial to those denied liberty and justice, in 
order to ``protect the welfare of society,'' is a fitting symbol of an 
appreciative and civilized country. That, through your support, it 
might be inspired by the vision and effort of those who were, 
themselves, once condemned, is a rare gift.
    What better way to educate and inspire present and future 
generations, than by giving voice to those who, even in our own time, 
were silenced? What better way to forgive more than a century of man's 
inhumanity to man?
    I can think of several instances in which individuals and/or events 
have been memorialized on national park lands. I have visited Mt. 
Rushmore National Memorial, in South Dakota, where the faces of four 
Presidents memorialize American history. I have supported the American 
Family Immigration History Center, located in the Ellis Island 
Immigration History Museum, whose American Immigrant Wall of Honor 
stands in the shadow of the Statue of Liberty and invites descendants 
to honor their ancestors' sacrifices by the inscription of their names. 
And, of course, just a few blocks from the site of today's hearing, 
millions of tears have been shed along the marble wall which honors the 
men and women who served when their Nation called upon them. The 
designer of the Vietnam Memorial, Maya Lin, said that ``the politics 
had eclipsed the veterans, their service and their lives.'' And, so, 
too, it seems, without this legislation, might it neglect the 
contributions of thousands of ordinary citizens who were denied their 
chance at the American dream, for the benefit and well-being of their 
countrymen and women. Until now.
    When my daughter, who is ten years old, becomes an adult, I hope 
that she will visit the Kalaupapa Memorial with her own children, and 
that they will be able to touch the names of their beloved ancestors 
and hear the story of how a wise group of leaders in Washington D.C. 
found a way to transform a century of fear into an eternity of enduring 
love.
    Mahalo nui loa. Thank you very much for your serious consideration.
                                 ______
                                 
     Statement of Esther Puakela Kia`Aina, on H.R. 3332 and S. 2502
    Aloha Chairman Akaka and members of the Senate Energy and Natural 
Resources Subcommittee on National Parks!
    My name is Esther Puakela Kia`aina. I am the paternal granddaughter 
of Joseph Heleluhe Kia`aina, who was born in Kalaupapa, Moloka`i in 
1903. My grandfather was born to John Kia`aina and Mary Lucas Lujan, of 
O`ahu and Hawai`i islands, respectfully. Both of them were exiled to 
the Kalaupapa peninsula, where they lived the rest of their lives as 
patients and perished. Shortly after his birth, my grandfather Joseph 
was taken away from his parents and raised by his grandparents (and my 
great-great-grandparents)--John and Keoki Kia`aina--in Waikiki, O`ahu. 
My grandfather would never know his parents.
    I only learned about my grandfather's Kalaupapa roots in high 
school during an oral interview I conducted with him for my Hawaiian 
Cultural History class. When I asked my father why he never told me 
about this fact, he explained that it was difficult for him to bring up 
given the stigma that was associated with Kalaupapa. Because of the 
changing times, I, in turn, told him that I was very proud of my 
grandpa and that the story of Kalaupapa was important to share not only 
with our own family, but with others as well.
    Over the course of my adult life, including as a Congressional 
staffer on Capitol Hill, I have endeavored to support efforts that 
remember the people and preserve the legacy of Kalaupapa in any way 
that I could. Since there were 8,000+ individuals who perished between 
1863 and 1969, the majority of them Hawaiian, many Hawaiian families 
throughout the State of Hawai`i and elsewhere have been impacted by the 
tragic history of Kalaupapa and can likely trace their genealogy to a 
relative who was sent or perished there.
    Apart from my Kia`aina roots, my paternal grandmother--Esther 
Puakela Ah Sa of Keanae, Maui--also had relatives who died in 
Kalaupapa. Her maternal grandfather was the Reverend Samuel K. 
Kamakahiki, who spent the last two years of his life in Kalaupapa, 
where he died in 1898. It is believed that his wife, Kapehe, may also 
have perished there. My great-great-grandfather was the reverend for 
Olowalu Church in Maui for nearly two decades prior to his relocation 
to Kalaupapa.
    I write in strong support of H.R. 3332/S. 2502, the Kalaupapa 
Memorial Act, in honor of my great-grandparents, my great-great-
grandparents, the 8,000+ lives that perished in Kalaupapa, and all of 
those who have called Kalaupapa home at one point in their lives. 
Kalaupapa National Historical Park is special in our national parks 
system not just because of its majestic and breath taking beauty. It is 
special because of the people whose lives were impacted and Kalaupapa's 
unique and cultural history. It is fitting and appropriate to establish 
a memorial to honor and perpetuate the memory of those who perished 
there.
                                 ______
                                 
      Statment of Patients of Kalaupapa, Molokai, HI, on H.R. 4529
To provide for the establishment of a memorial within Kalaupapa 
National Historical Park located on the island of Molokai, in the State 
of Hawaii, to honor and perpetuate the memory of those individual who 
were forcibly relocated to the Kalaupapa Peninsula from 1866 to 1969, 
and for other purposes.

    On Sunday, September 24, 2006, the following statements of current 
and former patients of Kalaupapa, gave their testimony in support of a 
Memorial to be established within the Kalaupapa National Historical 
Park to Sister Alicia Damien Lau, OSF, Board Member for Ka`Ohana 
O`Kalaupapa.

          I am in favor of a monument in Kalaupapa. It shows a legacy 
        of the patients from the beginning of time--it will make the 
        world aware of what Kalaupapa is all about.
            Winifred Harada, patient of Kalaupapa since 1943

          We are in favor of a monument in Kalaupapa. It is part of 
        history for future generations to know the sorry and the 
        banishment of the people. Kalaupapa was not there to develop 
        better treatment, but we were sent there to die. The future 
        generations should know what happened.
            Nancy and Jimmy Brede, patienst of Kalaupapa since 1942

          It is good for people to remember all the patients who were 
        there before us. It is just like those who went to war and had 
        died, there are monuments with their names on it. There were 
        thousands who were sent to Kalaupapa. My mother was also sent 
        to Kalaupapa.
            Peter Keola, Jr. patient of Kalaupapa since 1940, he is now 
        82 years old.

          I was sent to Kalaupapa when I was 15 years old. I am in 
        favor of a monument because it is good to remember those who 
        have suffered and have died in Kalaupapa. I was the only one in 
        my family that was sent to Kalaupapa. No one else in my family 
        had the disease. That was in 1941.
            Shoichi Hamai, patient of Kalaupapa since 1941

          I support the bill to have a monument at Kalaupapa with the 
        patients' names. It is just an honorable thing to do. It is 
        what the patients want. It is to honor the patients who were 
        sent to Kalaupapa.
            Bernard Punikai`a, patient of Kalaupapa since 1942.

          Yes, the State of Hawaii should put up a monument for the 
        patients of Kalaupapa. The State of Hawaii should thank all 
        those people that were sent to Kalaupapa for giving up all that 
        they had--they gave up everything: their families, their 
        belongings, etc. to be isolated and to keep the disease from 
        spreading. If we were not segregated, the composite of the 
        people would be so very different.  . . . the people (of 
        Kalaupapa) died for them (the State).
            Paul Harada, patient of Kalaupapa since 1943.
Audio Tape Testimony
    My name is Henry Nalaielua and I am in support of the bill that is 
now going around asking for reasons as to why we establish the 
memorial. One of the reasons why I am in support of this memorial is 
that fact, I believe that the National Park, even though we have had 
many reasons, as many times have we have mentioned over and over, is 
that we did not want the grave sites (stones) removed or sacrificed for 
something else. I think that the future of the National Park, did have 
or will have a reason to probably remove all of the grave (stones) not 
because they want to, but because of deterioration or because of the 
grave sites falling into grave conditions that they need to be repaired 
or set forth into its original position. I think these things will be 
costing the National Parks people a lot of money and to again to begin 
the process of putting it back to its original site. Where as if a 
Memorial was built, there will be no need for this worrying about 
happening to the graves (stones), because the Memorial will set forth 
the names and dates and times of each individual making it known that 
that memorial will stand now and the rest for the rest of the years 
that the National Park is there and I believe that the Memorial will be 
a place that people could go to and go to and just by looking at the 
list they find a relatives or friends they knew and I think for me it 
would be a cherished memory to have a monument that tells the people 
this is that we wanted and this is what they have. I believe too, that 
if it is an effort for people in Congress to think about this idea. All 
they have to do is to ask Senators there, like Senator Inouye and 
several others who visited the settlement. Of course that the condition 
of the graves, they are not bad as they were, but still there are 
graves that are unrecognizable and have caved and we are losing the 
identity of those who are buried in that particular spot. And I support 
this bill very much and it needs to be acted upon and I support the 
idea of the memorial that will commemorate the death of those who 
passed away years and years ago. One of the important things, I think, 
in the memorials would be that still today, people want to find out if 
they had relatives or not and the memorial is one way, I think, to make 
it easer rather than going to all the different areas and the grave 
sties just to look for a name. On the Memorial, you will find the name 
because the intention is to put every person's name whether they were 
here when the old timers came or after they came. And it's possible 
that every person who had ever lived there, whether short time or long 
time, their name will be on this Memorial and once it is there, I don't 
think it can be forgotten. And if you want to find a name all you have 
to do is to go to whatever source that we have to get the information.
      Henry Nalaielua, patient of Kalaupapa since 1941.
Audio Tape Testimony
    Aloha, my name is Kuulei Bell. I would like to talk about the 
Kalaupapa Memorial. H.R. 4529. This is so important for the people and 
the patients who live in Kalaupapa from the 1800s until the present 
time; because of my family relations who went to Kalaupapa and died 
there. My parent was a patient in Kalaupapa, my grandfather and my 
father's twin sisters and many more. I never knew my dad until I became 
a patient, and found out about him. I feel that the memorial monument 
will let our family know, especially my children, and my great-
grandchildren about me and about their family--their grandparents--
their grandfathers who were there. And most of all the patients all had 
families there. We need to remember the people who have dedicated their 
lives and came to Kalaupapa, Father Damien who we love so much, came 
and came to take care of all those in Kalawao in the 1800's and he 
became one of us--contracted the disease, and so we know how this is. 
And also we know that Mother Marianne gave her aloha and love with all 
the nuns to come and take care of the patients--they need to be 
remembered. These things are so important and the monument is a big 
part of our history and our lives. So please consider what we are 
asking for our history and for our children to know what happened to 
manyof our patients. How sad it was for my mother who had to wait for 
me to go and she could not even touch me because of the disease. And I 
could not even touch my children. These are the things that we should 
consider how important it is. These are the memories so please consider 
these things; I say these things from my heart and I hope that you hear 
it. Thank you for listening to this. Aloha and much aloha; much, much 
mahalo.
      Kuulei Bell, patient of Kalaupapa; she contracted the disease at 
the age of 6.

    The words are the words of the patients of Kalaupapa. I (Sister 
Alicia Damien Lau) have recorded them with their permission as their 
testimony for Bill H.R. 4529.
                                 ______
                                 
                    Statement of Katherine Lockhart
    I hope my testimony helps in getting the memorial approved.
    I remember when I was young (under 10). My parents use to 
frequently fly to Kalaupapa to visit my grandfather ( Leon Nono ). They 
use to fly almost every month. I was much to young to know what kind of 
illness my grandfather & so I never saw him until I was old enough to 
go to Kalaupapa. He use to come to Hawaii occasional for the doctors, 
but most times stayed in Hale Mohalu, never at my parents home. Before 
I went to Kalaupapa, I use to talk to my grandfather on the phone. He 
use to tell me stories of fishing and what it was like when he was sent 
to the settlement. (how and when he went). The funny thing about him 
was that even though his eyesight was'nt to good he always knew where 
the phone was. When I finally was old enough to go to Kalaupapa, we 
went almost as frequently as my parents did. We had so much fun there 
and the patients were wonderful. We would go and drive his car (no 
registration needed) and go all over the settlement to see deer and 
Kalawao to see the scenery. I took several of my friends and they just 
could not stopping on how much fun they had there as well. I felt no 
shame that my grandfather had leprosy, to me he was just as normal as 
you & I. When I was there, I had long talks with him & always tried not 
to slam the door. Boy was he was a stickler for that, but we always 
tried not to slam the door. We would never here the end of it if we 
did. My grandfather lived a long time and he had a good life. I will 
love him and keep him in my heart forever. Actually I received a 
picture from one of the nurses there (i don't know who) but the 
envelope said. ``I think this is nono's granddaughter''. I took that 
picture and made copies for all my sisters and brothers and gave it to 
them one Christmas. That pictures sits on my shelf and there it will 
stay. Everytime I look at that picture, I miss him, but I know that he 
is in my heart always. I hope that they will put up a monument in honor 
of my grandfather and the countless patients that went to the 
settlement.
    Thank you for letting write this testimony. I will be following the 
outcome via the computer, for I now live in the mainland.
                                 ______
                                 
                   Statement of Henry and Nancy Mahi
    Please convey our appreciation and support to Senator Akaka for 
introducing this bill. Our great-grandfather was a patient at 
Kalaupapa, and our grandfather was born there. He was hanai`d to a 
topside Moloka`i family, but never talked about his early life. It has 
been most difficult to trace the family history, particularly when 
attempting to deal with state agencies. We have gotten nowhere. I am 
hoping that the Kalaupapa Memorial Act will not only honor the many who 
died on that peninsula, but will help many of their descendants find 
their roots.
    James Johnson of the National Park Service at Kalaupapa has been 
wonderful in helping me try to find information about our grandfather. 
He should be cloned.
    Thank you.
                                 ______
                                 
   Statement of Valerie Monson, Makawao, HI, on S. 2502 and H.R. 3332
    I am writing in support of S 2502 and HR 3332, The Kalaupapa 
Memorial Act, which would authorize the establishment on a monument on 
the Kalaupapa peninsula to remember and honor the people of Hawaii who 
were taken from their families and relocated because they had leprosy.
    Although I am secretary of Ka `Ohana O Kalaupapa, I am submitting 
this testimony on my own behalf.
    A monument at Kalaupapa has been discussed for more than 20 years. 
People have often talked about erecting something ``like the Vietnam 
Wall'' that would list all the names of everyone sent to Kalaupapa. 
While a massive structure like a huge wall might not fit with the 
Hawaiian landscape, it was clear that many people wanted to be 
remembered by their individual identities. They also wanted to make 
sure that the names of those people who were sent to Kalaupapa in 
earlier times would be remembered--most of these individuals are known 
only in records in Honolulu or elsewhere that can sometimes be hard to 
access.
    As a reporter, I first began visiting Kalaupapa in 1989. I still 
recall being driven to the site of the original settlement at Kalawao, 
three miles on the other side of the peninsula from Kalaupapa, during 
that first visit. The Park Service officials who were giving the tour 
told us the stories of Father Damien de Veuster, Mother Marianne Cope 
and Brother Joseph Dutton, but there was no mention of any of the 
thousands of Hawaiians who had been sent there. I wanted to know who 
those people were and what happened to them. I wanted to know their 
names and their stories.
    After that initial visit, I began reading more about Kalaupapa and 
learned that, at one point, Father Damien estimated there were at least 
2,000 people buried in the vicinity of St. Philomena Church at Kalawao. 
Today, you would never know that because there are only a handful of 
graves of those early residents and very few that are identified. Most 
of the tombstones or wooden crosses have been lost to neglect or the 
elements. Because of the harsh conditions of those early years, many 
residents probably never had a grave marker at all. A monument would be 
the first step in bringing people back to their rightful place in 
Hawaii's history and to their family genealogies Descendents would have 
a place to find closure, healing and pride.
    After listening to the community during many discussions about this 
project, it was decided to build the monument in two parts. The first 
phase would list the names of the first 5,000 people who were sent to 
Kalaupapa from 1866 to 1896. We believe that most of these individuals 
lived at Kalawao--as did Father Damien--and most of them are now buried 
in unmarked graves. It would seem only appropriate that at least the 
first phase of the monument be constructed at Kalawao where they lived 
and died beneath the towering cliffs. It is because of these thousands 
of people--those who were sent to the peninsula with no choice and 
those who went to serve, such as Father Damien--that Kalawao has become 
one of the most spiritual places in Hawaii.
    The second phase of the monument will be developed at a later time, 
when the names become available to the public domain. Once the first 
phase of the monument has been completed, the community, family members 
and supports will have a better idea of how and where the second phase 
should be located.
    Since my first visit to Kalaupapa, I have written numerous articles 
about the community, including profiles of many of the residents who 
generously shared their stories, posed for photographs and wanted their 
names used, like anyone else featured in newspapers. They often talked 
about their friends who had already died, but who they also want to be 
remembered. Over my 30-year career in journalism, I have found the 
people of Kalaupapa to be among the finest individuals I have ever 
interviewed. My only regret is that I didn't come to Hawaii earlier so 
I could have known many of those people who had died by the time I 
started visiting.
    Please approve S 2502 and HR 3332 so Ka `Ohana O Kalaupapa can 
begin the work to make this monument a reality. The great people of 
Kalaupapa and their families deserve nothing less.
                                 ______
                                 
                        Statement of Gini Moore
    As a member of the Ke Ali`i Maka`ainana Hawaiian Civic Club, I 
encourage you to vote favorably for S. 2502, to establish a memorial at 
Kalaupapa to honor the memories of those forced to move there.
    Mahalo.
                                 ______
                                 
           Statement of Lorna Nono, on S. 2502 and H.R. 3332
    Chairperson Bingaman, Ranking Member Pete Domenici and Members of 
the Senate Subcommittee on National Parks.
    Thank you for this opportunity to testify in support of the 
Kalaupapa Memorial Act, introduced as S. 2502 and H.R. 3332.
    Kalaupapa and its history are a huge part of who I am and what I've 
become. The people, all of whom I consider family, has in one way or 
another impacted my life, especially the one that is my grandfather. I 
am who I am because of him, but it did take some time for me to truly 
appreciate what a special man he was; how knowledgeable he was; how 
funny he was; but most of all, how generous he was. I was grateful to 
have spent the years that I did with him at his home in Kalauapapa, 
taking care of him, listening to all of his stories, and seeing how 
much he cared for his family. My grandfather's family spans thousands 
of miles, and although I have been graced with his love, many of his 
other grandchildren had not, and it is my duty to pass on his story and 
to honor him by supporting this monument.
    Thank you for this opportunity to submit my testimony in support of 
the Kalaupapa Memorial Act. Please vote yes and support S. 2502 and 
H.R. 3332.
                                 ______
                                 
             Statement of Pauline Puahala Hess, on S. 2502
    I am in strong support of The Kalaupapa Memorial Act, S 2502, as a 
family member and as a board member of Ka `Ohana O Kalaupapa.
    As a board member, this monument will help us achieve one of the 
goals of Ka `Ohana O Kalaupapa . . . ''to promote value and dignity to 
every individual exiled to Kalaupapa since 1866''. In the four years 
that I have served on the monument committee, the monument has always 
been a priority in the minds and hearts of all in Kalaupapa.
    The monument to me is about uplifting and honoring these human 
beings who lived and survived under extraordinary circumstances. They 
are people who gave up their rights for the rights of others. So much 
of the written history of Kalawao and Kalaupapa has been about leprosy 
and the people who contracted the disease.
    As a family member, I want visitors to this monument to remember 
these individuals as someone's parents, grandparents, sisters, 
brothers, uncles, aunties, cousins, friends and neighbors. My parents, 
uncles and aunties are among them.
    Today, my mother is the only family survivor in Kalaupapa. At age 
80, she continues to serve as an active community member and as an 
international human rights activist. I want to see the names of my 
mother, father, my uncles and aunties, and the names of all who were 
sent there on this monument, to serve as an inspiration to those who 
come to Kalaupapa.
    Please help us ``to bring value and dignity to every individual 
exiled to Kalaupapa since 1866''.
                                 ______
                                 
         Statement of Donald W. Reeser, Makawao, HI, on S. 2502
    In memory of my late wife, Henrietta Weber Reeser, I strongly 
support SB 2502 which will provide funding to assist in the 
establishment of a memorial at Kalawao or Kalaupapa within the 
boundaries of Kalaupapa National Historical Park on the island of 
Molokai, Hawai`i. She served on the Monument Committee of Ka `Ohana O 
Kalaupapa at the time of her death in July 2007.
    Her great-grandmother, Rosine Weber, was forcibly relocated to 
Kalaupapa in 1911 and died there in 1917. Many of the grave markers of 
the Hansen disease victims have either deteriorated or were destroyed 
by a tsunami. In any case, except for a few documents preserved by the 
Hawai`i Department of Health, there is no longer any on-site evidence 
that she ever resided and was buried there. S2502 will help establish 
an appropriate memorial be established to honor and perpetuate the 
memory her great-grandmother and others, dishonored and separated from 
their families, who died in Kalaupapa.
    Thank you for this opportunity to testify.
                                 ______
                                 
    Statement of Rev. Dr. Lon A. Rycraft, Corvallis, OR, on S. 2502
    I am writing to you to request your support of The Kalaupapa 
Memorial Act (S 2502). My wife, Ellen, and I served as the pastors of 
the members and friends of Kana`ana Hou--Siloama United Church of 
Christ in Kalaupapa from 1994 until 2005, and we are members of Ka 
`Ohana O Kalaupapa.
    The importance of the creation of a monument assures we will never 
forget the names and the lives of those children, women and men, who 
were exiled to the Kalaupapa peninsula to die. I believe this to be a 
critical element in Kalaupapa National Historical Park's interpretive 
mission.
    Most importantly, the memorial will provide family members, 
relatives and visitors the opportunity to make a direct connection with 
an essential part of the history of the Kalaupapa peninsula, and I 
believe this is ultimately the goal of Kalaupapa National Historical 
Park.
    Thank you for your important work, continued support of the people 
and friends of Kalaupapa and your appreciation of the important history 
of the Kalaupapa peninsula.
    Aloha pumehana.
                                 ______
                                 
                                    Sisters of St. Francis,
                                      Honolulu, HI, April 13, 2008.
Hon. Jeff Bingaman,
Chairman, Energy and Natural Resources Committee, 304 Dirksen Senate 
        Office Building, Washington, DC.
    Dear Senator Bingaman: This year, the Sisters of St. Francis are 
celebrating 125th Anniversary of the arrival of Mother Marianne Cope 
and the Sisters of St. Francis in Hawaii, as response to pleas from 
King Kalaukaua and Queen Kapiolani to care for the women and children 
at the Kakaako Branch Hospital and later at Bishop Home in Kalaupapa. 
Presently, the Sisters of St. Francis continues the work that Mother 
Marianne Cope started in the areas of healthcare, education, and social 
ministries. There were approximately 56 Sisters who worked in Kalaupapa 
(and one Sister is still assigned there) who cared for, listened to 
their pain and resentment, and their disappointments and fears.
    As a Sister of St. Francis, I have been visiting and helping the 
patients of Kalaupapa, on the island of Moloka`i since the mid 1960's 
and during my monthly visits, I have had the opportunity to develop 
close relationships with many of the patients. In speaking with them, 
they have expressed the desire to have a Monument in Kalaupapa. One of 
the patient felt this is a way for those 8000 patients to be remembered 
and not to be forgotten. With its surging restless sea and its steep 
sloping cliffs, Kalaupapa was a confinement for the 8,000 patients who 
were taken from their families, in shame and disgrace. Many of the 
earlier patients have no grave site and many of the earlier patients 
died without having their families with them.
    I strongly support the idea of a Memorial at Kalaupapa, which will 
greatly aid the National Park's mandate of preserving Kalaupapa's 
history for the education and inspiration of present and future 
generations. The Memorial is clearly the wish for the remaining 
patients and so for many of those who have passed away and would like 
their history and the history of all who came before them to be 
remembered.
    Mahalo for your willingness to introduce the Kalaupapa Memorial Act 
to the Senate. The establishment of such a monument will honor and will 
help to perpetuate the memory of each individual sent to Kalaupapa. We 
have a responsibility to these individuals to remember the sacrifices 
they made.
    I thank everyone, in advance, for their support on this important 
bill.
            Mahalo piha,
                                  Sister Alicia Damien Lau.
                                 ______
                                 
                   Statement of Ellen Christine Storm
    From 1993 until 2005; my husband and I lived and worked in 
Kalaupapa. He was the pastor of Kanaana Hou and Siloama; the Hawaiian 
Protestant churches. I managed the arts and craft shop in the 
settlement, worked as a nursing assistant at the Kalaupapa hospital, 
worked for nine years as Postmaster Relief at the Kalaupapa Post 
Office, helped host work groups who came from other islands, and 
travelled a number of times to accompany some of the patients to the 
mainland in order for them to attend international events sponsored by 
IDEA (The International Association for Integration, Dignity and 
Economic Advancement for people with Hansen's Disease.)
    My husband and I were also part of the original group who started 
Ka `Ohana O Kalaupapa. The friendships that I made with the people who 
grew up in Kalaupapa are not only precious to me, but continue to touch 
me, teach me, amaze me. Sharing themselves through their stories has 
been part of the healing. The thousands of people who suffered and died 
in Kalawao and Kalaupapa are all part of their `ohana and ours as well.
    It is mandatory that there be a monument, a memorial created as a 
permanent remembrance for all the people who lived and died there. It 
is absolutely critical that there be such a monument where families can 
come and experience a place of healing. It is unthinkable that these 
people who suffered so deeply not be recognized.
    Creating a memorial to the thousands who have died will serve as a 
gift: a completion of the circle. Friends and family, strangers and 
those not yet born must know the complete story and the names 
remembered. Thank you, Senator Akaka, for giving me a chance to share 
my feelings. Thank you also for the work that you are doing on behalf 
of the people of Kalaupapa.
                                 ______
                                 
   Statement of Jay D. Vogt, President, National Conference of State 
               Historic Preservation Officers, on S. 2262
    The National Conference of State Historic Preservation Officers 
(NCSHPO) appreciates the opportunity to submit this statement for the 
record on the Preserve America and Save Americas Treasures Act. NCSHPO 
is the professional association of the State government officials who 
carry out the national historic preservation program as delegates of 
the Secretary of Interior pursuant to the National Historic 
Preservation Act of 1966 (NHPA). The NCSHPO acts as a communications 
vehicle among the State Historic Preservation Offices (SHPOs) and their 
staffs and represents the SHPOs with Congress, federal agencies and 
national preservation organizations.
                 national historic preservation program
    In 1966 Congress recognized the importance of preserving our past 
by passing the National Historic Preservation Act (NHPA 16 USC 470), 
which established today's Historic Preservation Program. The NHPA 
created and directs State Historic Preservation Offices (SHPOs) to 
carry out the federal preservation program: 1) Locate and record 
historic resources; 2) Nominate significant historic resources to the 
National Register of Historic Places; 3) Foster historic preservation 
programs at the local government level and the creation of preservation 
ordinances; 4) Provide funds for preservation activities (including 
bricks and motor repairs); 5) Comment on federal preservation tax 
projects; 6) Create and update State Historic Preservation plans 7) 
Review all federal projects for their impact on historic properties; 
and 8) Provide technical assistance to federal agencies, state and 
local governments and the private sector.
             national historic preservation program funding
    The National Conference has supported and continues to support 
increased funding for the country's national Historic Preservation Fund 
(HPF) and other historic preservation programs. In 1981, the states 
(SHPOs) funding through the HPF was cut 70% and to date, the states 
still struggle to reach the $47 million level received in 1980.
    NCSHPO would specifically like to thank the Subcommittee Chairman 
as well as Senators Landrieu, Menendez, Lincoln, and Sanders for 
signing onto the fiscal year 2009 letter supporting $50 million for 
State Historic Preservation Offices and for increasing funds for Tribal 
Historic Preservation Offices, Save Americas Treasures, and Preserve 
America.
    In order to ensure the continued integrity of the National Historic 
Preservation Act, the National Conference appreciates that S.2262 
clarifies that the programs contained in the legislation would not be 
funded from the Historic Preservation Fund (16 USC 470h) in conformance 
with the eligibility language (16 USC 470a--Section 101(e)).
     consideration of existing historic preservation infrastructure
    The National Conference believes a fulsome consideration of the 
long-standing, successful\1\ structure of the national historic 
preservation program is merited prior to enacting major changes in 
service delivery envisioned in this bill. The current authorized 
historic preservation programs operate as a federal-state partnership 
and were created so that States play a key role in the implementation 
and delivery of our country's historic preservation programs. NCSHPO is 
concerned that the proposed legislation greatly reduces the States 
role.
---------------------------------------------------------------------------
    \1\ National Academy of Public Administration, ``Back to the 
Future: A Review of the National Historic Preservation Program,'' 
Washington, DC, 2007; Office of Management and Budget, Program 
Assessment Rating Tool audit of the Historic Preservation Fund 
Programs, 2003.
---------------------------------------------------------------------------
               technical concerns of proposed legislation
    Finally, NCSHPO has several technical concerns. As we have seen 
from numerous other federal programs, when dual federal agencies become 
involved, problems tend to arise. Additionally, NCSHPO is concerned 
over the inclusion of grant criteria in federal legislation. Over time 
the appropriateness of the eligible projects may change and rather than 
having Congress amend statute, the Secretary should be given the 
authority to create the criteria.
                               conclusion
    The national historic preservation program is an outstanding 
example of federalism with the National Historic Preservation Act 
setting the policy and the states--through the SHPOs--administering the 
program which has flourished for the past 42 years. NCSHPO supports the 
activities carried out through Preserve America and Save Americas 
Treasures and supports a more effective partnership with the states.
    Thank You.
                                 ______
                                 
 Statement of Anne Mahealani Apo, Kailua, HI, on S. 2502 and H.R. 3332
    I would like to thank you and the committee for the opportunity to 
share my testimony in support of the Kalaupapa Memorial Act of 2007.
    My name is Anne Mahealani Apo, born of Hawaiian ancestry a 
descendant of the Unea family of Puna and Apana family of Hilo on my 
maternal grandmother's side.
    Looking back at my youth, I remember the story my mother told me of 
her grandfather who left home in 1893 to live out the rest of his days 
in Kalaupapa to be with his son who had contracted Hansen's disease. An 
unconditional testament of a parent's love for his child.
    At the time, I never really understood the significance of 
Kalaupapa until it became the missing pieces of the puzzle of my family 
tree.
    After connecting with Ka `Ohana O Kalaupapa in October 2007, the 
organization provided me with information of my great grandfather and 
other family members that had been exiled to the remote peninsula.
    My great grandfather held a position as the store manager 
responsible for stocking necessary supplies and items of choice for the 
Kalaupapa Settlement. He also recorded the first census in 1900.
    During my research at the State Archives I discovered numerous 
letters written by my great grandfather to the Board of Health dating 
back to 1898. I had also found information of members of the Unea and 
Apana family that confirmed the information I received from Ka `Ohana O 
Kalaupapa. The missing pieces of the puzzle started to fit.
    During my visit to Kalaupapa in 2007, I was blessed with the 
opportunity to visit my great grandfather's wife's grave, an unexpected 
surprise that I cherish dearly. For all undiscovered and missing family 
members of Kalaupapa Settlement a sincere acknowledgment is long 
overdue. A monumental token as a memorial of names, set in stone, is 
but a small gesture we as a society can do for the unfortunate of such 
a deadly disease.
    Kalaupapa holds a lifetime of treasures of untold stories of human 
struggle and broken spirits battling to overcome the physical and 
emotional barriers scarred by impurity. Life of family, friends and 
home as they knew it was gone forever.
    I support the Kalaupapa Memorial Act of 2007 to provide for an 
establishment of a memorial to honor and perpetuate the lives and 
memory of those of Hansen's disease that were forcibly exiled to 
Kalaupapa. Thank you for your time and consideration.
                                 ______
                                 
                                  State of Hawai`i,
                                Office of Hawaiian Affairs,
                                      Honolulu, HI, April 10, 2008.
Hon. Jeff Bingaman,
Chairman, Senate Committee on Energy and Natural Resources, 304 Dirksen 
        Senate Office Building, Washington, DC.
Re: Support of S. 2502/H.R. 3332, to provide for the establishment of a 
memorial within Kalaupapa National Historical Park located on the 
island of Moloka`i, in the State of Hawai`i, to honor and perpetuate 
the memory of those individuals who were forcibly relocated to the 
Kalaupapa Peninsula from 1866 to 1969, and for other purposes.

    Mahalo nui loa (thank you very much) for the opportunity to present 
the views of the Office of Hawaiian Affairs on S. 2502/H.R. 3332, in 
support of establishment of a Kalaupapa memorial at Kalaupapa National 
Historical Park. The Office of Hawaiian Affairs (OHA) is established 
through the Hawai`i State Constitution to work toward the betterment of 
Hawai`i's indigenous people, Native Hawaiians. OHA' s policy-makers are 
nine trustees elected by the voters of Hawai`i. OHA strongly supports 
the passage of this bill, and future legislation to honor those 
individuals forcibly relocated to Kalaupapa. This Kalaupapa memorial 
measure will, if passed, provide for the establishment of a memorial 
within Kalaupapa Historical Park to honor and perpetuate the memory of 
those individuals who were forcibly relocated to the Kalaupapa 
Peninsula from 1866 to 1969. Most people know little about the hundred-
plus year policy of forced relocation that tore those afflicted with 
Hansen's disease, once called leprosy, from their land, lives, and 
loves, and isolated them between the steep valley cliffs and roaring 
waves of the Kalaupapa Peninsula. This practice began with the Kingdom 
of Hawai`i, and was continued by every form of government since, 
including the State of Hawai`i. Today, the area is a National Historic 
Park, which serves in part to preserve the memories and teach the 
stories of the past. We believe that the next step in education and 
preservation should be the establishment of a memorial honoring, in an 
appropriate manner, by name, the eight thousand-plus forcibly relocated 
individuals who made their lives in Kalaupapa. We believe that they 
should be remembered as individuals first and foremost, and that this 
memorial will accomplish that while fitting into the larger purpose of 
the Kalaupapa National Historic Park. It will also respect the 
consensus among the Kalaupapa community, and has the strong support of 
Ka `Ohana O Kalaupapa, a non-profit organization consisting of patient 
residents at Kalaupapa, as well as family and friends.
    From 1869 to 1969, more than eight thousand people of Hawai`i, an 
estimated ninety percent of whom were Native Hawaiian, were taken from 
their homes and isolated from society, under policy that defined them 
solely by their illness. These people were also husbands, wives, sons, 
daughters, grandparents, friends, and neighbors with hopes and dreams 
of their own. Today there are `ohana (family) of Hawaiians from every 
corner of the state. Whether they have passed or remain with us, it is 
right that we remember them as individuals, and honor them as members 
of our extended family. Please vote in favor of passage of S. 2502/H.R. 
3332. Mahalo (Thank you) for this opportunity to submit a letter of 
support.
                                  S. Haunani Apoliona, MSW,
                                    Chairperson, Board of Trustees.
                                 ______
                                 
                                   State of Hawaii,
                                        Executive Chambers,
                                       Honolulu, HI, April 9, 2008.
Hon. Jeff Bingaman,
Chairman, Energy and Natural Resources Committee, 304 Dirksen Senate 
        Office Building, Washington, DC.
    Dear Senator Bingaman: I am writing on behalf of the people of 
Hawaii urging your favorable consideration of S. 2502 and H.R. 3332, 
the Kalaupapa Memorial Act.
    This bill authorizes the establishment of a suitable memorial 
within the boundaries of Kalaupapa National Historical Park. The Park 
was created to perpetuate the memory and lives of those individuals who 
were relocated to the Kalaupapa Peninsula between 1866 and 1969. I 
believe it is fitting and proper that we ask for a memorial so that 
future generations may see and understand the significance of this 
portion of our shared history within the State of Hawaii and the United 
States.
    Ka `Ohana O Kalaupapa is a group that has made the establishment of 
a monument one of its priorities. I fully support their efforts and 
believe they will provide the spiritual and cultural guidance needed to 
ensure that the memorial is consistent with the objectives and purposes 
of the Kalaupapa National Historical Park.
    Thank you for giving me an opportunity to express my support and 
the support of the people of Hawaii for this undertaking.
            Sincerely,
                                              Linda Lingle,
                                                          Governor.
                                 ______
                                 
   Statement of Chris Mahelona, Valleyford, WA, and David Mahelona, 
                           Spokane Valley, WA
    I am writing today, on behalf of myself and my father, in support 
of the Kalaupapa Memorial Act of 2007.
    Up until 1969 when the isolation law abolished, the isolation 
policy for Hansen's disease (leprosy) patients resulted in a major 
disruption of family life where children were taken from their parents, 
parents taken from their children and husbands and wives were separated 
regardless of their vows ``for better or for worse, in sickness and in 
health''. As a result of this inequitable severance, this disease was 
called by some, ``Ma`i Ho`oka`awale''--The Separating Sickness.
    We have many members of our family who had Hansen's disease 
including my grandfather, his brother and their father.
    My grandfather, David Keli`ikaina Mahelona, was a successful native 
Hawaiian businessman in Nanakuli, Hawai`i where he built the Homestead 
Theater and Nanakuli Store in the 1930s. David was also the postmaster 
in Nanakuli i as well as an `ukulele builder. After being diagnosed 
with Hansen's disease in 1947, he was deported to Kalaupapa. Following 
the development of Sulfone drugs for treatment of the disease in1949, 
patients were allowed to leave Kalaupapa to be closer to friends and 
family. My grandfather chose to move to the Hale Mohalu hospital in 
Pearl City. After my grandfather contracted the disease, his wife 
Rebecca, was left to raise 4 kids and run the family businesses on her 
own.
    I remember as a child, that when visiting him at Hale Mohalu, I 
could only see him through a fence as the rules did not allow for 
physical contact. I didn't understand, I thought I was supposed to be 
able to sit on my grandfather's lap, have him tell me stories and feed 
me candy. That would not be the case and my relationship with my 
grandfather left much to be desired.
    His brother, Jonah Kinilaulehua Napela Mahelona, was sent to 
Kalaupapa in 1933 and stayed until the early 1950s. Jonah was the 
sheriff at Kalaupapa as well as a LDS church leader. Jonah was taken 
away from his wife and 5 kids and had worked for the Kahului railroad 
before he was deported.
    My great grandfather, Stephen Mahelona Napela was at Kalaupapa from 
1905 to 1912. Not only was Stephen unwillingly physically separated 
from his wife and 4 kids in Wailuku, Stephen's wife eventually divorced 
him and remarried because of the disease. Hansen's disease was grounds 
for divorce back then.
    Stephen, who was listed as ``Inmate'' 487 in state archive 
documents, is shown below with a group of his fellow patients and 
Brother Dutton in 1905.
    Unlike my grandfather and his brother, who are buried in Pearl 
City, my great grandfather is buried somewhere on the Kalaupapa 
peninsula. My father and I have been to Kalaupapa 4 times looking for 
Stephen's grave, but so far have come up empty-handed.
    To date, we have identified 38 people, who we think are family 
members, who were banished to Kalaupapa through no choice of their own. 
We found this information through extensive research at the Hawai`i 
state archives in the Kalaupapa/Kalawao Record of Inmates and Persons 
Apprehended & Examined, as well as Patient Records, census documents 
and death certificates. We know of fourteen of them who buried there. 
We have yet to find any of their graves either.
    The National Park Service has been able to identify 1,300 people 
through the names listed on headstones. Many of the existing headstones 
like this one, are in poor condition and will soon be lost forever to 
time.
    The other 6,700 people buried on the Kalaupapa peninsula, were not 
fortunate enough to have a headstone and if they did at one point in 
time, it is gone now. The only way anyone would know they were even 
buried there, would be to search for clues like we did.
    Most gravesites look like this barren field overgrown with trees. 
This field is actually the Kahaloko Cemetery which was used to bury 
hundreds, if not thousands, of Hansen's patients between 1887 and 1920. 
As my grandfather Stephen died there in 1912, he may very well be 
buried here, although we will probably never find out where. We left 
flowers for Stephen's grave by one of these trees as we had no other 
place to leave them.
    Historical records suggest that this field next to Father Damien's 
church in Kalawao is the final resting place for thousands of former 
patients.
    The naming process and the giving of a Hawaiian name is an 
important and sacred component of traditional Hawaiian culture. It is 
said names carry significant mana (spiritual power) and they are 
actually a part of the person, just like an arm or a leg. In ancient 
Hawai`i, a person's name was one of his most precious possessions 
unique to the individual and most times, related to an event, an 
ancestor, or a personality trait. In every case, the kupuna (elders) 
were always consulted. It was the responsibility of the bearer of the 
name to carry its weight. Therefore, it is important to remember these 
people by their names at their final resting place.
    The patient's desire for the Monument and the importance of 
remembering each former patient by name can be summarized by the two 
quotes below:

          You have to hear the voices to feel the people. You have to 
        know their names. If you don't say the names, it's like 
        something has been lost.
            Bernard K. Punihai`a, 76 (sent to Kalaupapa in 1942).

          I want to see a monument honoring the people of Kalaupapa 
        before I die. I want to see all their names. These people are 
        my friends--even though many of them died before I came here 
        and I didn't know them personally, in spirit we are all 
        together. I know their hearts and souls.
            Olivia Breitha, 90 (sadly Olivia passed away in September 
        2007).

    My father and I are members of the Ka `Ohana O Kalaupapa.
    One of the goals of the `Ohana has been to construct a Memorial 
with the names of the 8,000 people sent to the Peninsula. These 
unfortunate souls weren't just patients or inmates, they like my 
family, were human beings, with families that loved them, friends that 
socialized with them, jobs they went to daily and contributors to 
society. A Memorial to recognize all who were sent to Kalaupapa would 
be a great tribute to them.
    It is Important to remember that we as a society learn from our 
past mistakes in the way we treat our fellow human beings. We don't 
always need to treat those that need caring and compassion as outcasts 
because of our own fear and misunderstanding.
    My father and I urge members of the Subcommittee on National Parks 
Historic Preservation and Recreation, to support Kalaupapa Memorial. 
With completion of this project, we hope to fill in the many gaps in 
our Mahelona Relatives list (enclosed).
    The Memorial would be the second best place for us to leave flowers 
for Stephen and the rest of our family buried on the Kalaupapa 
Peninsula. Unfortunately the best place will never be found. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
                                 ______
                                 
     Statement of Cynthia K.L. Rezentes, Wai` anae, HI, on S. 2502
    You have received the statistics of how many patients over one 
hundred years were sent to Kalaupapa with Hansen's disease.
    I had the privilege of attending a meeting of the Ka `Ohana O 
Kalaupapa in October, 2007. It was the first time I visited the County 
of Kalawao, the isolated and wild peninsula which was designated to 
separate those with Hansen's disease from their friends and families.
    I heard the stories of hardships experienced from the remaining 
patients and their families.
    I heard the story of a daughter who was separated at birth from her 
mother and father and sent away to live with others because it was not 
allowed to have children who did not have the disease to remain on the 
peninsula. Today, over forty years later, mother and daughter are 
reunited but are still going through the difficult process of coming to 
terms with the separation.
    Imagine that scene repeated hundreds of times over the hundred-plus 
years of the policy of separating patients from their families. Imagine 
a child with the disease being torn from their parents and sent alone 
to Kalaupapa and having to survive, much less thrive in those harsh 
conditions.
    The story has been told many times over of the good works of Father 
Damien and Mother Marianne Cope. And, they have been recognized for 
their outstanding works in helping the people sent to Kalaupapa.
    It is time to remember those who were sent and sometimes forgotten. 
Over eight thousand people. Names, perhaps, forgotten today but spirits 
remembered. Let's remember their names.
    Please pass this bill to allow Ka Ohana O Kalaupapa to memorialize 
and remember all who passed through that difficult journey.
                                 ______
                                 
        Statement of William A. Ho`ohuli, Waipio, HI, on S. 2502
    My name is William Aweao Ho`ohuli, from Waipio, HI. and ``a kanaka 
maoli'' native Hawaiian who speaks on behalf of my ohana (family).
    Please support and pass the Kalaupapa Memorial Act (S. 2502). The 
names of the lepers who are no longer with us should be honored with a 
monument, they are apart of Hawaiis history.
    Mahalo.
                                 ______
                                 
             Statement of Denise Ululani Pa`ao`ao Kalahiki
    I am a Native Hawaiian born in the Territory of Hawaii. Denise 
Ululani Pa`ao`ao Kalahiki, As I walked along the tombstones of 
Kalaupapa; I came across `Ohana (family) and many, many familiar names 
of friends and families I know today.
    It saddens me to know that we have to come this far and through so 
many obstacles, just to be recognized as people whom I feel are Heroes 
of yesterday & Today. It is plain and clear as day to see they were 
truly Heroes and should be recognized for their courage to jump off 
that ship, swim through treacherous conditions, to be apart from family 
and friends never to see or to hold them ever again. That is death in 
itself. What a heart-wrenching sacrifice to save the rest of us, the 
Hawaiian Race.
    Hansen's disease came to Hawaii via whaling ships from abroad Our 
ancestors should receive an official apology the same as for 
Imprisoning our Beloved Queen and the illegal annexation of our 
Hawaiian Kingdom.
    I'm not sure if the Foreigners whom infected our people were ever 
exiled I did not see any unfamiliar name there so could it be they 
exempted themselves from such cruelty and continued raping our people 
and manifesting this epidemic? We will never know.
    I felt the pain of our people. If you look rnakai (Oceanside) off 
Kalawao Valley you would feel it too.
    Kalaupapa is a Beautiful and rich community though they know they 
were there only to die. They are full of Aloha. Being there among the 
patients and the people you begin to feel their Humbleness. You would 
not believe the sense of humor they have considering all the suffering 
they've gone through.
    Please take the time to consider our plea and commemorate them, our 
Leprosy harm Please embrace them just as we have...
    Mahalo nui loa, (Thank you very much).
                                 ______
                                 
              Statement of Olinda L.H. Fisher, on S. 2502
    It is an honor for me today to submit my testimony on the Kalaupapa 
Memorial Act (S. 2502).
    The memorial monuments that is requested in this bill is but a 
small token to ask for, I do not expect you to understand the 
significant of this cause or who it's representing but to the families 
whose love ones were banish to live their lives on a isolated island 
away from society this will be a closing for them to read the names of 
their ancestors and love ones.
    Father Damien and Sister Marianne Cope whose monuments are 
recognized in Hawaii and are placed in Ka]awao County and Kalaupapa are 
remembered for their good deeds and aid that they gave and provided to 
the lepers of that settlement; I ask only for the same memorial for the 
thousands of native Hawaiians and non Hawaiians; young and old who were 
sent there never to see their love ones again.
    There are at least 22 Hansen diseases patience's in existence, some 
of them who remain in the settlement to live out their lives, some who 
live on the island of Oahu due to medical purposes, but always return 
home to hala (die) in Kalaupapa.
    This is the purpose why I implore you to pass this bill so that 
those who are still with us will know that their friends and love ones 
will always be remembered not only by history and the mo`olelo (story) 
that have been passed down through generations.
                                 ______
                                 
       Statement of Josiah L. Ho`ohuli, Wai`anae, HI, on S. 2502
    My name is Josiah Lanakila Ho`ohuli Sr., 70 years of age, from 
Nanakuli, HI. and a native Hawaiian (100%).
    My testimony is to the point, yesterday I read in the Honolulu 
Advertiser ``Feds back monument for Hansen's disease exiles'' by Dennis 
Camire, Advertiser Washington Bureau.
    Lynn Scarlett, deputy secretary of the Interior Department stated 
the agency certainly supports the purpose of the bill and acknowledges 
the importance of the memorial and believes the interior secretary 
should have final approval on the monument site. She also mentions that 
they prefer the memorial be in Kalaupapa settlement, instead of Kalawao 
because of it's remote location in the park where the first exiles were 
sent, and in her last statement she states the park service wants the 
Ka `Ohana O Kalaupapa, a group of Hansen's disease patients relatives 
and friends, to be responsible for the memorial's cost.
    I want to first bring to your attention that we are the ``Kanaka 
maoli'' native Hawaiians, ``Na Po`e O Hawai`i'' (the people of 
Hawai`i), these lepers who were exiled in Kalawao, Ola (lived) and hala 
(died) there. Their `uhane (spirits) still walk the `aina (land). This 
is their resting grounds. It is not for the Interior Department nor the 
interior secretary to have the last word nor the final approval. You 
are malihini (stranger, foreigner) here to our Jihikai (shore) and 
(mokupuni) islands, the `aina (land) which has been taken cared for 
thousands of years by our kupuna (ancestors).
    Kalawao is not a remote location as Ms. Scarlett describes it. It 
is a safe haven where over 5,000 lepers found sanctuary. Here is where 
it all started for the lepers. Here is where Father Damien has his 
church and headstone to be remembered by.
    This is where the first memorial monument should be placed with 
names of the lepers who were there first.
    Kalaupapa Settlement where about 3,000 plus settled on the 
peninsula of Moloka`i due to the wet and cold climate of. Kalawao made 
their homes. Here is where the last of the leper patients continues to 
live, this is where the second memorial monument should be placed.
    As for Ms. Scarlett's last statement regarding the responsibility 
for the memorial's cost; in my opinion, the United States Interior 
Department who claims jurisdiction over the park service should bear 
the entire cost for the memorial monuments. It is but a small token to 
the lepers of kahiko (old) and to the 22 Hansen disease patients who 
arc left to see this memorial a reality.
    Jurisdiction maybe under the park services, but the `aina (land) 
will always belong to the Hawaiians; to the lepers and Na Po`e O 
Hawai`i (people of Hawai`i).
    The 22 Hansen disease patients; are all well into their old age. 
These are the patients who are left to tell the mo`olelo (history) and 
ka`ao (stories) of the ka wa i hala (past), they are the ones who carry 
this heavy burden on their shoulders of making sure the `inoa (names) 
of those who were banished to live in exile are remembered. Here is 
where it started and here is where it will end.
    I am confident that the kukakuka (discussion, consult) between the 
two parties Ka Ohana O Kalaupapa and the National Park Services will 
result in a win-win situation regarding the design, size and 
inscriptions, and that all aspects of the Hawaiian Culture and 
traditions will be considered.
    Aloha A Hui Hou, Malama. Pono.

                                    

      

</pre></body></html>
